1a
APPENDIX A
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1059
PHILLIP ALIG; SARA J. ALIG; ROXANNE SHEA;
DANIEL V. SHEA, Individually and on behalf of a
class of persons,
Plaintiffs - Appellees,
v.
QUICKEN LOANS INC.; AMROCK INC., f/k/a Title
Source, Inc., d/b/a Title Source Inc. of West Virginia,
Incorporated,
Defendants - Appellants,
and
DEWEY V. GUIDA; APPRAISALS UNLIMITED,
INC.; RICHARD HYETT,
Defendants.
Appeal from the United States District Court for the
Northern District of West Virginia, at Wheeling. John
Preston Bailey, District Judge. (5:12-cv-00114-JPBJPM, 5:12-cv-00115- JPB)

2a
Argued: October 27, 2020
Decided: March 10, 2021
Before NIEMEYER, WYNN, and FLOYD, Circuit
Judges.
Affirmed in part and vacated and remanded in part by
published opinion. Judge Wynn wrote the majority
opinion, in which Judge Floyd joined.
Judge
Niemeyer wrote a dissenting opinion.
WYNN, Circuit Judge:
Plaintiffs are a class of “[a]ll West Virginia citizens
who refinanced” a total of 2,769 mortgages with
Defendant Quicken Loans Inc. from 2004 to 2009, “for
whom Quicken [Loans] obtained appraisals” from
Defendant Amrock Inc., an appraisal management
company formerly known as Title Source, Inc.
(“TSI”). 1 J.A. 627. 2
Plaintiffs allege that pressure tactics used by
Quicken Loans and TSI to influence home appraisers
to raise appraisal values to obtain higher loan values
on their homes constituted a breach of contract and
unconscionable inducement under the West Virginia
Consumer Credit and Protection Act. The district
For ease of reference, we continue to refer to this entity as
TSI throughout this opinion.
2 Citations to “J.A. __” and “S.J.A. __” refer, respectively, to the
Joint Appendix and Sealed Joint Appendix filed by the parties in
this appeal.
1

3a
court agreed and granted summary judgment to
Plaintiffs.
We agree with the district court that class
certification is appropriate and that Plaintiffs are
entitled to summary judgment on their statutory
claim. However, we conclude that the district court
erred in its analysis of the breach-of-contract claim.
Accordingly, we affirm in part and vacate and remand
in part.
I.
Viewing the evidence in the light most favorable to
Defendants, the record shows the following. 3
In refinancing mortgages for thousands of West
Virginia homes during the class period, Quicken
Loans asked potential borrowers to complete an
application; sign a uniform deposit agreement
authorizing Quicken Loans to “advance out-of-pocket
expenses on [the borrower’s] behalf” for an appraisal,
a credit report, or both; and provide a deposit
averaging $350. J.A. 381. Quicken Loans also
We consider only the evidence presented at the summary
judgment stage. See Rohrbough v. Wyeth Laboratories, Inc., 916
F.2d 970, 973 n.8 (4th Cir. 1990) (declining to consider “several
documents that were not before the district court when it
considered [the] motion for summary judgment”); see also Kaiser
Aluminum & Chem. Corp. v. Westinghouse Elec. Corp., 981 F.2d
136, 140 (4th Cir. 1992) (“It is well established that affidavits
and exhibits not before the court in making its decision are not
to be considered on appeal.”); cf. Bogart v. Chapell, 396 F.3d 548,
558 (4th Cir. 2005) (“Generally, we will not examine evidence …
that was inexcusably proffered to the district court only after the
court had entered its final judgment.”).
3

4a
collected information from potential borrowers,
including an estimated value of their homes.
Quicken Loans relayed the borrower’s estimates of
value to TSI, which passed those estimates on to
contracted appraisers via appraisal engagement
letters. If an appraisal came back lower than the
estimated value, appraisers received phone calls from
TSI drawing their attention to the estimated value
and asking them to take another look. There is no
evidence to suggest that borrowers were aware of
these practices.
Plaintiffs’ and Defendants’ experts agreed that,
during the class period, providing the borrower’s
estimate of value to the appraiser was common in the
industry.
Additionally, although the 2008–2009
Uniform Standards of Professional Appraisal Practice
(“Uniform Appraisal Standards”) indicated that
appraisers could not ethically accept an appraisal
assignment with a specific value listed as a condition,
the chairman of the organization that issues the
Uniform Appraisal Standards testified that an
appraiser did not violate those standards merely by
accepting an assignment that included an owner’s
estimate of value. The record includes significant
testimony from appraisers that borrowers’ estimates
of value did not influence them. Finally, the record
includes testimony that the estimated value served
the legitimate purposes of helping appraisers
determine whether to accept an assignment and, upon
acceptance, assess an appropriate fee.
Nevertheless, authorities warned lenders before
and during the class period that providing estimated

5a
values to appraisers was improper. For instance, a
1996 letter from the U.S. Department of Housing and
Urban Development to mortgagees instructed that
appraisers were required to certify “that the appraisal
[was] not based on a requested minimum valuation,
[or] a specific valuation or range of values.” S.J.A. 857.
A 1999 letter from the Office of the Comptroller of the
Currency to the Appraisal Standards Board voiced
some concern with the practice of providing the
owner’s estimate of value and warned “employees of
financial institutions” against “pressuring appraisers
to raise their value conclusions to target values.”
S.J.A. 861. And in 2005, the Office of the Comptroller
of the Currency noted that “the information provided
by the regulated institution should not unduly
influence the appraiser or in any way suggest the
property’s value.” Off. of the Comptroller of the
Currency et al., Frequently Asked Questions on the
Appraisal Regulations and the Interagency Statement
on Independent Appraisal and Evaluation Functions,
Fed. Deposit Ins. Corp. (Mar. 22, 2005),
https://www.fdic.gov/news/news/financial/2005/
fil2005a.html (emphasis added) (saved as ECF
opinion attachment). While the 2005 guidance was
not binding on Defendants, it is relevant to
understanding regulators’ thoughts on the issue at
the time.
Furthermore, during the class period, Defendants
stopped providing appraisers with estimated home
values in other states—such as neighboring Ohio—
where lenders faced mounting legal pressure against
the practice. And they ceased the practice altogether
in 2009, “right around the time that the [Home]
Valuation Code of Conduct was agreed to and defined

6a
for the marketplace.” J.A. 235. That Code of Conduct
prohibits lenders or appraisal management
companies from providing an estimated value to an
appraiser in a refinancing transaction. 4 By 2011,
Quicken Loans itself recognized that “influenc[ing]
the appraiser to set [the] home at any certain value …
is illegal and unethical.” J.A. 107.
The record thus indicates that the acceptability of
this practice shifted dramatically during the class
period. What started out as a common (though
questionable) practice became one that, in short order,
was explicitly forbidden—and viewed as unethical by
Quicken Loans itself.
Yet the record reveals no such qualms on the part of
Defendants during the class period. In one internal
email from 2007, which had the subject line “Asking
for the max increase available,” an Operations
Director for Quicken Loans wrote that TSI was
“getting a lot of calls from appraisers stating that they
can’t reach our requested value and asking what
“No employee, director, officer, or agent of the lender, or any
other third party acting as … appraisal management … on behalf
of the lender, shall influence or attempt to influence the
development, reporting, result, or review of an appraisal through
coercion, extortion, collusion, compensation, inducement,
intimidation, bribery, or in any other manner including but not
limited to … providing to an appraiser an anticipated, estimated,
encouraged, or desired value for a subject property or a proposed
or target amount to be loaned to the borrower, except that a copy
of the sales contract for purchase transactions may be
provided[.]” Home Valuation Code of Conduct, Freddie Mac 1
(Dec. 23, 2008), http://www.freddiemac.com/singlefamily/pdf/
122308_valuationcodeofconduct.pdf (saved as ECF opinion
attachment).
4

7a
should they do.” District Ct. Docket No. 206-2 at 39
(emphasis added). He instructed employees to include
in value-appeal requests “something along the lines of
‘any additional value would be appreciated.’” Id. A
second email from a different Quicken Loans
employee a few weeks later suggests that Quicken
Loans’ usual process at the time involved ordering
value appeals and second appraisals, as well as
“arguing over value appeal orders and debating
values with bankers and appraisers.” 5 S.J.A. 711. The
email continued:
[Fannie Mae] is being dragged into a law suit [sic]
in the state of New York over lender pressure on
appraisals. I don’t think the media or any other
mortgage company … would like the fact we have
a team who is responsible to push back on
appraisers questioning their appraised values.…
Ohio is very specific in regards to asking for
appeals and they say it is illegal. Other[] states I
am sure will jump on board.
Id. (emphasis added). One recipient of the latter
email testified in 2009 that the purpose of providing
the estimated value was to “give[] an appraiser an
ability to see what they are going to potentially look
at the property at [sic]” and to “give[] them a heads up
as to what the client thinks the home is worth.” S.J.A.
709.

The practice of “ordering, obtaining, using, or paying for a
second or subsequent appraisal … in connection with a mortgage
financing transaction” was later forbidden by the Home
Valuation Code of Conduct, with certain limited exceptions.
Home Valuation Code of Conduct, supra note 4, at 2.
5

8a
Dewey Guida, an appraiser routinely contracted by
Quicken Loans and TSI, testified during a deposition
that prior to 2009, TSI always included the borrower’s
estimate of value, but he could not recall whether
other companies did so. He agreed that these
estimated values were a “tip-off.” S.J.A. 674. He
testified that he largely ignored the estimated value
“unless the value didn’t come in. Then we received
some phone calls about it[.]” S.J.A. 669. If the
appraisal “wasn’t at the estimated value,” he clarified,
“I would get a call on it” from TSI “with the value.” Id.
These calls were “[v]ery vague,” but in essence,
Defendants were saying: “We had an estimated value
of this amount of money. You appraised at this
amount.… [C]ould you relook at it? … [I]s there a
reason why?” Id.
Class representatives Phillip and Sara Alig
refinanced their mortgage through Quicken Loans in
2007. The Aligs estimated their home to be worth
$129,000, and Quicken Loans passed this information
along to TSI, who, in turn, passed it on to Guida.
Guida appraised the home to be worth $122,500. He
then received a request from Defendants to revisit the
appraisal and raise it to $125,500 based on a
modification to the data points for the closest
comparison house. Guida testified that such requests
from his clients for “straight value increase[s]” were
not common, but he acknowledged that he complied
and raised the appraised value to $125,500, though he
could not recall doing so. S.J.A. 671. The Aligs
obtained a loan from Quicken Loans for about
$113,000. Plaintiffs’ two experts estimated that the
actual 2007 value of the Aligs’ home was $99,500 or
$105,000, respectively.

9a
Plaintiffs brought actions against Quicken Loans,
TSI, and three other defendants in West Virginia
state court in 2011 which were removed to federal
court in 2012. 6 After a winnowing of the claims and
defendants, three claims remain: (1) a civil conspiracy
claim against both Quicken Loans and TSI; (2) a claim
of unconscionable inducement to contract under the
West Virginia Consumer Credit and Protection Act
against Quicken Loans; and (3) a breach-of-contract
claim against Quicken Loans. 7

In addition to Quicken Loans and TSI, Plaintiffs’ complaint
named as defendants two appraisers, Guida and Richard Hyett,
as well as Appraisals Unlimited, Inc., where Guida served as
president. Moreover, the complaint proposed a defendant class,
represented by Guida, Hyett, and Appraisals Unlimited, of
appraisers “who receive appraisal assignments from Quicken
[Loans] that improperly include the targeted appraisal figure
Quicken [Loans] needs to issue the loans.” J.A. 61.
7 The complaint brought ten claims:
(1) civil conspiracy,
against all defendants; (2) unfair or deceptive acts or practices in
violation of W. Va. Code § 46A-6-104, against all defendants; (3)
excessive fees in violation of W. Va. Code § 31-17-8(c), (g), and
(m)(1), against Quicken Loans; (4) unconscionable inducement to
contract, against Quicken Loans; (5) accepting assignments
listing target value numbers on appraisal request forms and
accepting fees contingent upon the reporting of a predetermined
appraisal value, in violation of W. Va. Code § 30-38-12(3) and 17, against Guida, Hyett, Appraisals Unlimited, and the
proposed appraiser class; (6) charging illegal fees in violation of
W. Va. Code § 46A-2-128(d), against Quicken Loans; (7) breach
of contract, against Quicken Loans; (8) negligence and negligence
per se, against all defendants; (9) fraudulent or intentional
misrepresentation, against all defendants by the named
plaintiffs only; and (10) making illegal loans in excess of the fair
market value of the property in violation of W. Va. Code § 31-178(m)(8), against all defendants by the named plaintiffs only. Only
counts 1, 4, and 7 are at issue in this appeal.
6

10a
The district court conditionally certified Plaintiffs’
class and granted in part and denied in part each of
the parties’ motions for summary judgment. The
court then held an evidentiary hearing on damages,
after which it imposed a statutory penalty of $3,500
as to unconscionability for each of the 2,769 violations,
for a total of $9,691,500. The court also awarded
Plaintiffs the appraisal fees they had paid as damages
for breach of contract, for a total of $968,702.95. The
court did not award separate damages for conspiracy.
II.
On appeal, Defendants first challenge the district
court’s decision to certify the class under Rule 23.
Defendants argue that individual issues predominate
over common ones, precluding class treatment. We
disagree and affirm the district court’s decision to
certify the class.
A.
This Court reviews a class-certification decision for
abuse of discretion. 8 See Sharp Farms v. Speaks, 917
We reject Defendants’ contention that we should instead
apply an unspecified level of “heightened scrutiny” because much
of the language of the district court’s opinions closely tracked
that of Plaintiffs’ briefs. Opening Br. at 16. In arguing for
“heightened scrutiny,” Defendants rely on this Court’s decision
in Chicopee Manufacturing Corp. v. Kendall Co., 288 F.2d 719
(4th Cir. 1961).
That reliance is misplaced. Chicopee belongs to a line of
Fourth Circuit cases that the Supreme Court limited long ago.
See Anderson v. City of Bessemer City, 717 F.2d 149 (4th Cir.
1983), rev’d, 470 U.S. 564 (1985). In Anderson, we cited Chicopee
and similar cases to support “[o]ur close scrutiny of the record”
8

11a
F.3d 276, 290 (4th Cir. 2019) (certification); Brown v.
Nucor Corp., 785 F.3d 895, 901 (4th Cir. 2015)
(decertification); see also Krakauer v. Dish Network,
L.L.C., 925 F.3d 643, 654 (4th Cir.) (“Our review of
class certification issues is deferential[.]”), cert.
denied, 140 S. Ct. 676 (2019). “A district court abuses
where the district court had directed the plaintiff’s counsel to
submit proposed findings of fact and conclusions of law and then
partially incorporated them into the court’s final order. Id. at
156; see id. at 152. The Supreme Court reversed, noting that the
district court “d[id] not appear to have uncritically accepted
findings prepared without judicial guidance by the prevailing
party.” 470 U.S. at 572. Instead, “the findings it ultimately
issued … var[ied] considerably in organization and content from
those submitted by petitioner’s counsel.” Id. at 572-73. Thus, the
Supreme Court concluded that “[t]here [wa]s no reason to subject
those findings to a more stringent appellate review than is called
for by the applicable rules.” Id. at 573.
Following Anderson, we have taken a more lenient approach
to district court opinions that closely mirror a party’s
submissions. See, e.g., Aiken Cnty. v. BSP Div. of Envirotech
Corp., 866 F.2d 661, 676-77 (4th Cir. 1989) (holding that a
district court’s near-verbatim adoption of an ex parte proposed
order was not improper where the opposing party had the
opportunity to air its views fully and the court appeared to have
exercised independent judgment).
The circumstances of this case pass muster under Anderson
and Aiken County. The district court engaged extensively with
the issues over several years. There is substantial evidence that
the court exercised independent judgment. While the court’s
opinion adopted significant language from Plaintiffs’ briefs, it
also included substantial sections the court wrote itself—as well
as language adopted from Defendants’ briefs. And, relevant to
the class-certification question, the record shows that the court
conducted its own Rule 23 analysis. The opinion “var[ies]
considerably in organization and content from” Plaintiffs’ briefs,
and “[t]here is no reason to subject” the court’s class-certification
decision “to a more stringent appellate review than is called for
by the applicable rules.” Anderson, 470 U.S. at 572-73.

12a
its discretion when it materially misapplies the
requirements of [Federal] Rule [of Civil Procedure]
23,” EQT Prod. Co. v. Adair, 764 F.3d 347, 357 (4th
Cir. 2014), or “makes an error of law or clearly errs in
its factual findings,” Thorn v. Jefferson-Pilot Life Ins.
Co., 445 F.3d 311, 317 (4th Cir. 2006).
B.
A plaintiff seeking class certification under Rule 23
has the burden of demonstrating that the class
satisfies the requirements for class-wide adjudication.
See Comcast Corp. v. Behrend, 569 U.S. 27, 33 (2013).
The plaintiff must establish several “threshold
requirements applicable to all class actions,
commonly referred to as ‘numerosity,’ ‘commonality,’
‘typicality,’ and ‘adequacy.’” Krakauer, 925 F.3d at 654
(citing Fed. R. Civ. P. 23(a)). Rule 23 also contains an
implicit requirement of ascertainability. Id. at 65455. To obtain certification under Rule 23(b)(3), the
plaintiff must additionally show that “[1] questions of
law and fact common to class members predominate
over any questions affecting only individual class
members, and [2] that a class action is superior to
other available methods for fairly and efficiently
adjudicating the controversy.” Id. at 655 (alterations
in original) (emphases added) (citing Fed. R. Civ. P.
23(b)(3)).
Here, Defendants challenge the class
certification only on the issue of predominance.
The district court concluded that the central
question underlying the statutory unconscionableinducement claim was whether Defendants’ practice
of providing the borrowers’ estimates of value to
appraisers was unconscionable conduct under the

13a
West Virginia Consumer Credit and Protection Act.
Because that analysis focused on Defendants’
behavior, the district court concluded that it
concerned questions of law and fact common to all
class members. Additionally, the court determined
that the statutory damages could be determined classwide at a set amount.
As for breach of contract, the parties stipulated that
the named plaintiffs’ interest-rate disclosures and
deposit agreements were “representative of the
standard deposit agreements used by Quicken Loans”
throughout the class period. J.A. 185. Thus, the court
concluded that questions of fact concerning the
breach-of-contract claim could be resolved class-wide.
And while individual evidence was required to
determine the amount each class member paid for
their appraisal—the cost the district court used to
calculate the breach-of-contract damages award—
Defendants have not suggested that evidence is
difficult to obtain.
Nevertheless, on appeal, Defendants contend that
individualized issues predominate. They argue that
questions of standing, their statute-of-limitations
defense, the unconscionable-inducement analysis,
various breach-of-contract issues, and the calculation
of damages all require individual determinations that
should defeat class certification.
We are not
persuaded.
1.
First, Defendants argue that a significant number
of the class members are uninjured and therefore lack

14a
standing. The question of class members’ standing
“can be seen as implicating either the jurisdiction of
the court under Article III or the procedural issues
embedded within Rule 23’s requirements for class
certification.” Krakauer, 925 F.3d at 652. While we
review class-certification questions for abuse of
discretion, our review of our Article III jurisdiction is
de novo. See Curtis v. Propel Prop. Tax Funding,
LLC, 915 F.3d 234, 240 (4th Cir. 2019).
Defendants argue that there are class members who
have not suffered any injury.
Accordingly, in
Defendants’ view, the district court lacked Article III
power to award damages to those class members. And
moreover, they argue, the district court should not
have certified a class containing uninjured members.
But whether framed through Article III or Rule 23,
Defendants’ arguments lack merit.
Plaintiffs paid an average of $350 for independent
appraisals that, as we conclude below, they never
received. Instead, they received appraisals that were
tainted when Defendants exposed the appraisers to
the borrowers’ estimates of value and pressured them
to reach those values. Of course, “financial harm is a
classic and paradigmatic form of injury in fact,” Air
Evac EMS, Inc., v. Cheatham, 910 F.3d 751, 760 (4th
Cir. 2018) (quoting Cottrell v. Alcon Laboratories, 874
F.3d 154, 163 (3rd Cir. 2017)), and “[f]or standing
purposes, a loss of even a small amount of money is
ordinarily an ‘injury,’” Czyzewski v. Jevic Holding
Corp., 137 S. Ct. 973, 983 (2017) (citing McGowan v.
Maryland, 366 U.S. 420, 430-431 (1961), in which the
Court concluded that “appellants fined $5 plus costs
had standing”).

15a
Defendants argue that Plaintiffs were not injured
because they benefitted from obtaining the loans.
Even if that is true, “[o]nce injury is shown, no
attempt is made to ask whether the injury is
outweighed by benefits the plaintiff has enjoyed from
the relationship with the defendant. Standing is
recognized to complain that some particular aspect of
the relationship is unlawful and has caused injury.”
13A Charles Alan Wright & Arthur R. Miller, Federal
Practice and Procedure § 3531.4 (3d ed. 2008 & Supp.
2020) (emphasis added); see, e.g., Allco Fin. Ltd. v.
Klee, 861 F.3d 82, 95 n.10 (2d Cir. 2017) (“[T]he fact
that an injury may be outweighed by other benefits,
while often sufficient to defeat a claim for damages,
does not negate standing.” (quoting Ross v. Bank of
Am., N.A. (USA), 524 F.3d 217, 222 (2d Cir. 2008))). 9
In sum, “there is simply not a large number of

This is not a case where facts related to the same transaction
demonstrate there was never an injury in the first place. See
Texas v. United States, 809 F.3d 134, 155-56 & n.59 (5th Cir.
2015) (collecting cases and distinguishing Henderson v. Stalder,
287 F.3d 374, 379 (5th Cir. 2002), in which the Fifth Circuit had
declined to find taxpayer standing where it did not appear that
the taxpayers actually had to pay for the program at issue, and
noting that in Henderson, “the extra fees paid by drivers who
purchased the [challenged license] plates could have covered the
associated expenses”; since “[t]he costs and benefits arose out of
the same transaction, … the plaintiffs had not demonstrated
injury”), aff’d by an equally divided Court, 136 S. Ct. 2271, 2272
(2016). Here, there is no doubt that Plaintiffs actually paid for
the appraisal, and thus were injured. We decline to apply the
“same transaction” test more broadly than our sister circuit did
in Texas and contrary to the general rule that benefits conferred
upon a plaintiff by a defendant cannot defeat standing.
9

16a
uninjured persons included within the plaintiffs’
class.” Krakauer, 925 F.3d at 658.
2.
Next, the statute-of-limitations question is
straightforward and susceptible to class-wide
determination. 10 When Plaintiffs commenced this suit
in 2011, the statute of limitations for the
unconscionable-inducement claim was “one year after
the due date of the last scheduled payment of the
agreement.” W. Va. Code § 46A-5-101(1) (2011). 11
Here, the district court pointed to several ways in
which Defendants could perform the “ministerial
exercise” of determining which loans fell outside the
applicable limitations period. 12 J.A. 433. Section 46A5-101(1)’s objective test for determining the
limitations period distinguishes this case from those
This defense relates only to the statutory and conspiracy
claims, which have the same statute of limitations for purposes
of this case. See Dunn v. Rockwell, 689 S.E.2d 255, 269 (W. Va.
2009) (“[T]he statute of limitation for a civil conspiracy claim is
determined by the nature of the underlying conduct on which the
claim of conspiracy is based[.]”). Defendants have not suggested
that Plaintiffs’ contract claims—which are subject to a ten- year
limitations period—are time-barred. See W. Va. Code § 55-2-6.
11 After a 2015 amendment, the statute now provides a
limitations period of “four years after the violations occurred.”
2015 W. Va. Acts ch. 63 (codified at W. Va. Code § 46A-5-101(1)).
Plaintiffs do not argue that the new limitations period applies
retroactively. Cf. Cruz v. Maypa, 773 F.3d 138, 144 (4th Cir.
2014) (describing the analysis required for determining whether
a statute lengthening the limitations period applies
retroactively).
12 At the initial class-certification phase, Defendants provided
no evidence of any loans falling outside the limitations period.
Defendants later located evidence of only three such loans.
10

17a
where the statute of limitations depended on, for
example, determining when the cause of action
accrued—a question that requires analyzing “the
contents of the plaintiff’s mind.” Thorn, 445 F.3d at
320.
Notwithstanding this straightforward analysis,
Defendants seek to attack the district court’s
alternative conclusion that even if Defendants could
demonstrate that some of Plaintiffs’ claims were
untimely, equitable tolling would apply. Defendants
argue that equitable tolling requires individual
determinations
that
counsel
against
class
certification. That may be correct. E.g., EQT Prod.
Co., 764 F.3d at 370. But the district court’s classcertification order is not dependent on this alternative
ground.
3.
Defendants
also
argue
that
Plaintiffs’
unconscionable-inducement claims must be analyzed
individually. They contend that Plaintiffs needed to
prove that they were “actually induced to enter into a
loan by the challenged practice,” which would require
peering into each class member’s state of mind at the
time of the loan signing. Opening Br. at 38. This
argument
implicates
the
merits
of
the
unconscionable-inducement claim, which we discuss
in detail below.
For present purposes, suffice it to say that we
conclude Plaintiffs need only show misconduct on the
part of Defendants, and concealment thereof, relating
to a key aspect of the loan-formation process which

18a
necessarily contributed to the class members’
decisions to enter the loan agreements. This is a
determination that can be made across the class, since
(1) for every member of the class, Defendants engaged
in the same allegedly unconscionable practice—
sharing borrowers’ estimates of value with appraisers
while failing to disclose that practice to Plaintiffs, and
(2) unconscionable behavior affecting the appraised
value of a property inherently impacts the borrower’s
decision to obtain a loan based on that number.
4.
Turning to the contract claim, Defendants first
allege that Plaintiffs failed to perform their end of the
contract. They base this assertion on the dubious
ground that the record supports that some
homeowners (not specifically any member of the class)
sometimes seek to persuade appraisers to increase
their appraisal values. Even if that evidence could be
enough to suggest that the class members attempted
to influence the appraisers, we conclude that
Plaintiffs fully performed by paying the agreed-upon
deposit.
Defendants also argue that the contractual element
of damages should have been litigated on an
individual basis. They contend that there are no
damages, and thus there can be no breach of contract,
if the appraiser would have reached the same result
with or without the borrower’s estimate of value. For
example, even assuming that the borrower’s estimate
of value influenced the appraiser, one might expect
the resulting appraisal to be the same with or without
exposure to that value if the borrower’s estimate of

19a
value was accurate. But even if such evidence is
necessary—a question we address below—it can be
evaluated through the ministerial exercise of
comparing actual home values to estimates of value.
5.
Finally, Defendants contend that the district court
could not order statutory penalties class-wide,
arguing that the court was required to consider the
level of harm suffered by each class member
individually. But the Supreme Court of Appeals of
West Virginia has clarified that “an award of civil
penalties pursuant to” section 46A-5-101(1) is
“conditioned only on a violation of a statute” and is
permissible even for “those who have suffered no
quantifiable harm” as long as they have been “subject
to undesirable treatment described in [section 46A-2121 or related provisions] of the [West Virginia
Consumer Credit and Protection] Act.” 13 Vanderbilt
Mortg. & Fin., Inc. v. Cole, 740 S.E.2d 562, 566, 56869 (W. Va. 2013). Moreover, the amount of damages
“is within the sole province of the trial judge.” Id. at
569. The district court acted within its discretion
when it determined that the statutory damages could
be assessed uniformly across the class.

We recognize that, in federal court, “a statutory violation
alone does not create a concrete informational injury sufficient to
support standing” for Article III purposes. Dreher v. Experian
Info. Sols., Inc., 856 F.3d 337, 345 (4th Cir. 2017) (emphasis in
original). There is no need to wade into that complicated area of
the law here, however, because the class members suffered
financial injuries sufficient to confer standing.
13

20a
Accordingly, we affirm the district court’s decision
to certify Plaintiffs’ class. 14
III.
Having determined that Plaintiffs may pursue their
claims as a class, we turn to the question of whether
Defendants breached their contracts with each of the
class members. We review de novo the district court’s
interpretation of state law, grant of summary
judgment, and contract interpretation. See Schwartz
v. J.J.F. Mgmt. Servs., Inc., 922 F.3d 558, 563 (4th Cir.
2019); Seabulk Offshore, Ltd. v. Am. Home Assurance
Co., 377 F.3d 408, 418 (4th Cir. 2004). “Summary
judgment is appropriate when there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Bostic v.
Schaefer, 760 F.3d 352, 370 (4th Cir. 2014) (internal
quotation marks omitted).
For the reasons that follow, we conclude that the
district court prematurely awarded summary
judgment to Plaintiffs on their breach-of-contract
claim. Accordingly, we vacate and remand for further
proceedings.
Defendants have pointed to four loans for which the class
member did not sign the stipulated document and therefore may
not have paid a deposit. Of course, as federal courts, our Article
III power limits us to providing relief for only those claimants
who have been harmed, including in class actions. See Lewis v.
Casey, 518 U.S. 343, 349 (1996). On remand, therefore, we
instruct the district court to determine whether the class
members who signed those four loans must be denied damages
as to the unconscionable-inducement claim, the breach-ofcontract claim, or both.
14

21a
A.
“Because this case involves solely state-law matters,
‘our role is to apply the governing state law, or, if
necessary, predict how the state’s highest court would
rule on an unsettled issue.’” Askew v. HRFC, LLC, 810
F.3d 263, 266 (4th Cir. 2016) (quoting Horace Mann
Ins. Co. v. Gen. Star Nat’l Ins. Co., 514 F.3d 327, 329
(4th Cir. 2008)). Under West Virginia law, “[a] claim
for breach of contract requires proof of the formation
of a contract, a breach of the terms of that contract,
and resulting damages.” Sneberger v. Morrison, 776
S.E.2d 156, 171 (W. Va. 2015). We therefore begin our
inquiry by considering whether the parties formed a
contract at all.
Formation of a contract under West Virginia law
requires “an offer and an acceptance supported by
consideration.” Dan Ryan Builders, Inc. v. Nelson, 737
S.E.2d 550, 556 (W. Va. 2012). The parties stipulated
that the disclosures and agreements for the named
plaintiffs’ loans “are representative of the standard
deposit agreements used by Quicken Loans” during
the class period. J.A. 185. The named plaintiffs
include both the Aligs, who serve as the class
representatives, and another couple, Roxanne and
Daniel Shea.
Two sections of the representative forms are
relevant here.
The first section, labeled
“DISCLOSURE” on the Sheas’ form and unlabeled on
the Aligs’ form, provides:
Lender will begin processing your application
(which may include ordering an appraisal …)

22a
immediately upon the submission of your
application and deposit.… Lender’s objective is to
have your application fully processed … [before
the] anticipated closing date. However, please
note that some parts of this process aren’t under
Lender’s control. For instance, Lender can’t be
responsible for delays in loan approval or closing
due to … the untimely receipt of an acceptable
appraisal .…
J.A. 381-82. The second section, labeled “DEPOSIT
AGREEMENT” on both the Sheas’ and Aligs’ forms,
states:
With your deposit …, you authorize Lender to
begin processing your loan application and
advance out-of-pocket expenses on your behalf to
obtain an appraisal and/or credit report.… If your
application is approved, at the closing, Lender will
credit the amount of your deposit on your closing
statement toward the cost of your appraisal and
credit report. Any additional money will be
credited to other closing costs. If your application
is denied or withdrawn for any reason, Lender will
refund your deposit less the cost of an appraisal
and/or credit report.
J.A. 381. 15

The above-quoted “Deposit Agreement” language comes
from the Sheas’ form. The language used on the Aligs’ form is
substantially and substantively the same, though not identical.
See J.A. 382. The most significant difference is that the Aligs’
form lacks the phrase “to obtain an appraisal and/or credit
report.” However, like the Sheas’ form, the Aligs’ form still
15

23a
The district court concluded that Quicken Loans
was obligated to provide each class member with “an
‘acceptable’ appraisal, which, at a minimum, would
require [it] to deal [reasonably and] honestly with its
borrowers.” J.A. 409. The court appears to have based
this conclusion on the forms’ reference to “the
untimely receipt of an acceptable appraisal,” from
which the court deduced a contractual duty on the
part of Quicken Loans to provide an “acceptable”
appraisal. J.A. 381-82.
In our view, however, the natural reading of the key
language—that Quicken Loans “can’t be responsible
for delays in loan approval or closing due to … the
untimely receipt of an acceptable appraisal”—is to
limit Quicken Loans’ liability for delays, not to make
promises as to the quality of the appraisal. J.A. 38182. We therefore conclude that the text of the
“Disclosure” section of the form signed by the Sheas
and the untitled, yet identical section of the form
signed by the Aligs does not create a contractual
obligation for Quicken Loans to provide an
“acceptable” appraisal.
But that is not the end of the matter because we
hold that, instead, the forms create a contract in the
Deposit Agreement section. The section is labeled
“agreement” and includes an offer, acceptance, and
consideration: Plaintiffs pay a deposit in exchange for
Quicken Loans beginning the loan application
process, which could include an appraisal or credit
report. Plaintiffs’ deposit is to be applied toward that
specifies that the deposit is to be credited toward the cost of the
appraisal and credit report.

24a
cost regardless of whether the loan ultimately goes
forward. Thus, Plaintiffs agreed to pay Quicken
Loans for an appraisal or credit report. And because
of how Plaintiffs’ class is defined, all class members
have necessarily paid for an appraisal.
We therefore agree with the district court that the
parties formed a contract, albeit a different one from
that found by the district court. But we conclude that
whether that contract was breached—and whether
there were resulting damages—are questions that the
district court must review in the first instance. See
Fusaro v. Cogan, 930 F.3d 241, 263 (4th Cir. 2019)
(“We adhere … to the principle that the district court
should have the first opportunity to perform the
applicable analysis.”). In particular, the district court
will need to address Defendants’ contention that there
were no damages suffered by those class members
whose appraisals would have been the same whether
or not the appraisers were aware of the borrowers’
estimates of value—which one might expect, for
example, if a borrower’s estimate of value was
accurate.
B.
Plaintiffs urge us to uphold the district court’s
conclusion that “it was a necessary corollary of
obtaining an appraisal that the [D]efendant[s] would
obtain a fair, valid and reasonable appraisal of the
property.” J.A. 409. They contend that we may do so,
even subtracting the word “acceptable” from the
contract, by reference to the covenant of good faith
and fair dealing. We agree that the covenant applies
to the parties’ contract. While the covenant may

25a
therefore come into play on remand, we conclude that
it cannot by itself sustain the district court’s decision
at this stage.
1.
In West Virginia, there is an implied “covenant of
good faith and fair dealing in every contract for
purposes of evaluating a party’s performance of that
contract.” Evans v. United Bank, Inc., 775 S.E.2d 500,
509 (W. Va. 2015) (internal quotation marks omitted).
The covenant requires “honesty in fact and the
observance of reasonable commercial standards of fair
dealing in the trade.” Barn-Chestnut, Inc. v. CFM Dev.
Corp., 457 S.E.2d 502, 508 (W. Va. 1995) (quoting
Ashland Oil, Inc. v. Donahue, 223 S.E.2d 433, 440 (W.
Va. 1976)) (discussing the covenant in the context of
agreements governed by the Uniform Commercial
Code).
Despite the Supreme Court of Appeals of West
Virginia’s broad statement in Evans that the covenant
applies to every contract, Defendants imply that it is
inapplicable here, noting in passing that “West
Virginia courts have yet to apply the duty of good faith
and fair dealing to a lender/borrower relationship in
West Virginia.” Opening Br. at 34 n.11 (citing Quicken
Loans, Inc. v. Brown, 737 S.E.2d 640, 652 n.26 (W. Va.
2012)). Even assuming Defendants have preserved
this issue, 16 we find their argument unpersuasive.

“A party waives an argument by failing to … develop its
argument—even if its brief takes a passing shot at the issue.”
Grayson O Co. v. Agadir Int’l LLC, 856 F.3d 307, 316 (4th Cir.
16

26a
The case on which Defendants rely, Quicken Loans
v. Brown, provides little guidance on the matter. In
fact, in Brown, the Supreme Court of Appeals of West
Virginia noted only that the “[p]laintiff also filed a
claim for breach of the covenant of good faith and fair
dealing, which the trial court found ‘has not been
applied to a lender/borrower relationship in West
Virginia’ and therefore was not addressed by the
court.” Brown, 737 S.E.2d at 652 n.26. The Court
provided no further analysis.
Nevertheless, in more recent lender/borrower cases,
the state Supreme Court has affirmed dismissal on
the grounds that the plaintiffs’ “failure to allege a
breach of contract was fatal to their claim for a breach
of the implied covenant of good faith and fair dealing.”
Evans, 775 S.E.2d at 509; see also Brozik v. Parmer,
No. 16-0238, 2017 WL 65475, at *17 (W. Va. Jan. 6,
2017) (same). If the implied covenant was simply
inapplicable to lender/borrower relationships, there
would have been no need for the Court to engage in
such analysis.
To be sure, Evans and Brozik do not explicitly hold
that the implied covenant of good faith and fair
dealing does apply to lender/borrower contracts. But
given the presumption under West Virginia law that
an implied covenant of good faith and fair dealing
applies to every contract, we will not exclude
lender/borrower cases from the ambit of that covenant
in the absence of some affirmative direction from West
Virginia courts to do so—particularly in light of the
2017) (internal quotation marks and alterations omitted) (citing
Brown, 785 F.3d at 923).

27a
implication in Evans and Brozik that the covenant
could apply in such cases when properly pleaded.
2.
Defendants are on stronger footing with their
second argument. They contend that, even if the
implied covenant can apply to lender/borrower
contracts, West Virginia courts do not recognize a
“freestanding claim of breach of the implied covenant
of good faith and fair dealing where there is no breach
of contract” and thus that Plaintiffs’ claim under the
covenant fails for lack of any breach of contract.
Opening Br. at 34.
Defendants are correct that West Virginia law does
not allow an independent claim for breach of the
implied covenant unrelated to any alleged breach of
contract. Evans, 775 S.E.2d at 509. Thus, the
Supreme Court of Appeals of West Virginia has
repeatedly held that plaintiffs cannot pursue a claim
for breach of the implied covenant where they failed
to allege breach of contract. See id.; Brozik, 2017 WL
65475, at *17 (same); see also Gaddy Eng’g Co. v.
Bowles Rice McDavid Graff & Love, LLP, 746 S.E.2d
568, 578 (W. Va. 2013) (affirming summary judgment
on good faith and fair dealing claim where trial court
had “proper[ly] grant[ed] … summary judgment to the
contract-based claims”).
But here, Plaintiffs do not pursue a stand-alone
claim of breach of the implied covenant of good faith
and fair dealing. Rather, their complaint clearly
alleges a claim of breach of contract and cites the

28a
implied covenant as relevant to that claim. That is
proper under West Virginia law.
However, while Plaintiffs and the district court are
correct that Quicken Loans was obligated to “obtain a
fair, valid and reasonable appraisal of the property,”
that is only relevant for determining whether there
was a breach. J.A. 409; see Evans, 775 S.E.2d at 509
(courts may consider the implied covenant of good
faith and fair dealing when “evaluating a party’s
performance of th[e] contract” (quoting Stand Energy
Corp. v. Columbia Gas Transmission Corp., 373 F.
Supp. 2d 631, 644 (S.D.W. Va. 2005))). There must
also have been resulting damages for Plaintiffs’
breach-of-contract claim to succeed. See Sneberger,
776 S.E.2d at 171. Accordingly, on remand, the
district court may only grant summary judgment to
Plaintiffs on the breach-of-contract claim if it
concludes that (1) Quicken Loans breached its
contracts with the class members, an analysis which
may take into consideration how the covenant of good
faith and fair dealing impacts the evaluation of
Quicken Loans’ performance under the contracts; and
(2) the class members suffered damages as a result.
In sum, we conclude that a contract was formed
between each class member and Quicken Loans. On
remand, the district court should consider whether
Plaintiffs have demonstrated an absence of genuine
issues of material fact as to the other elements of a
breach-of-contract claim. In conducting this analysis,
the district court may consider the implied covenant
of good faith and fair dealing to the extent that it is

29a
relevant for evaluating Quicken Loans’ performance
of the contracts. 17 Evans, 775 S.E.2d at 509.
IV.
We reach a different conclusion when it comes to
Plaintiffs’ claim under the West Virginia Consumer
Credit and Protection Act (the “Act”). Although the
claim is similar to the contract claim—in that both are
based on Defendants’ alleged misbehavior in the
appraisal process—there is a key difference between
the two:
while breach of contract requires a
demonstration of damages, the Act does not. Indeed,
the Supreme Court of Appeals of West Virginia has
made plain that the Act is to be construed broadly and
that it is intended to fill gaps in consumer protection
left by the common law, such as in breach-of-contract
actions.
Prior to finalizing loan agreements with the class
members, Defendants sought to pressure appraisers
to inflate their appraisals of the class members’
homes. For all class members, Defendants provided
appraisers with estimated home values, and they at
least sometimes followed up on appraisals that fell
short of these targets with phone calls designed to
persuade appraisers to reconsider their valuations.
The record makes clear that, regardless of any
legitimate objective Defendants had in providing the
borrowers’ estimates of value, they also provided
Because we vacate the district court’s decision to grant
summary judgment on Plaintiffs’ contract claim, we also vacate
the court’s award of damages for that claim. Accordingly, we do
not reach Defendants’ arguments regarding the district court’s
order of damages related to breach of contract.
17

30a
those estimates to an unscrupulous end: inflating
appraisals.
The record demonstrates that this
pressure tainted the appraisal process, and it is
beyond dispute that the appraisal process was central
to the formation of the loan agreements. Moreover,
Defendants did not reveal this practice to Plaintiffs.
Given the centrality of appraisals in loan formation,
Defendants’ concealment of the scheme to inflate
appraisals was unconscionable behavior that
contributed to Plaintiffs’ decisions to enter the loan
agreements. Thus, we affirm the district court’s
holding that Plaintiffs are entitled to summary
judgment on their unconscionable-inducement claim.
A.
As noted, we review the district court’s
interpretation of state law and grant of summary
judgment de novo, see Schwartz, 922 F.3d at 563;
Seabulk Offshore, 377 F.3d at 418, and summary
judgment is only appropriate when there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law,
Bostic, 760 F.3d at 370.
Additionally, “[b]ecause federal jurisdiction in this
matter rests in diversity, our role is to apply the
governing state law.” Stahle v. CTS Corp., 817 F.3d
96, 99-100 (4th Cir. 2016) (footnote omitted). In
deciding questions of state law, we first turn to the
state’s highest court and “giv[e] appropriate effect to
all [the] implications” of its decisions. Id. at 100
(quoting Assicurazioni Generali, S.p.A. v. Neil, 160
F.3d 997, 1002 (4th Cir. 1998)). But “[i]f we are
presented with an issue that [the state]’s highest

31a
court has not directly or indirectly addressed, we must
anticipate how it would rule.” Liberty Univ., Inc. v.
Citizens Ins. Co. of Am., 792 F.3d 520, 528 (4th Cir.
2015). “In making that prediction, we may consider
lower court opinions in [the state], the teachings of
treatises, and ‘the practices of other states.’” Twin
City Fire Ins. Co. v. Ben Arnold-Sunbelt Beverage Co.
of S.C., 433 F.3d 365, 369 (4th Cir. 2005) (quoting
Wade v. Danek Med., Inc., 182 F.3d 281, 286 (4th Cir.
1999)).
B.
The West Virginia Consumer Credit and Protection
Act authorizes a court to act when a loan agreement
was “unconscionable at the time it was made” or
“induced by unconscionable conduct.” W. Va. Code
§ 46A-2-121(a)(1). The Act permits courts to “refuse
to enforce the agreement” as well as to order actual
damages and a penalty. Id. § 46A-2-121(a)(1); see id.
§ 46A-5-101(1). The statute “protect[s] consumers …
by providing an avenue of relief for consumers who
would otherwise have difficulty proving their case
under a more traditional cause of action”—such as a
common-law contract claim. Barr v. NCB Mgmt.
Servs., Inc., 711 S.E.2d 577, 583 (W. Va. 2011)
(quoting State ex rel. McGraw v. Scott Runyan
Pontiac-Buick, Inc., 461 S.E.2d 516, 523 (1995)).
Because the “[A]ct is clearly remedial in nature,” the
Supreme Court of Appeals of West Virginia has
instructed that courts “must construe the statute
liberally so as to furnish and accomplish all the
purposes intended.” Id. (quoting McGraw, 461 S.E.2d
at 523).

32a
Unconscionable inducement under the Act is
broader
in
scope
than
both
substantive
unconscionability and the “traditional cause of action”
of common-law fraudulent inducement.
Id.; see
McFarland v. Wells Fargo Bank, N.A., 810 F.3d 273,
284 (4th Cir. 2016); Brown, 737 S.E.2d at 658. The
Supreme Court of Appeals of West Virginia hinted at
both conclusions in Quicken Loans v. Brown. In that
case, a borrower complained that Quicken Loans
unconscionably induced a loan by, among other
things, including an estimated home value in its
appraisal request form. See Brown, 737 S.E.2d at 648
& n.8. The estimated home value was $262,500, and
the appraiser—Dewey Guida, who also performed the
appraisal of the Aligs’ home in this case—valued it at
$181,700. Id. The home’s actual value was $46,000.
Id. That Guida’s appraisal was massively inflated
should have been apparent to any observer, barring
an extreme shift in the market, as the plaintiff had
refinanced the mortgage on the property for between
roughly $40,000 and $67,000 in the years immediately
before obtaining the loan at issue. Id. at 647.
Nevertheless, Quicken Loans persuaded the
plaintiff in a rushed closing process to refinance her
home and assume a loan of $144,800—with a massive
balloon payment to boot. Id. at 649-50. The trial court
found that Quicken Loans engaged in common-law
fraudulent
inducement
and
unconscionable
inducement under the Act by, among other things,
negligently conducting the appraisal review. Id. at
652, 657. The Supreme Court of Appeals of West

33a
Virginia affirmed, 18 though it did not specifically
reach the issue of the appraisal because it concluded
that the balloon payment and Quicken Loans’ false
promises to the plaintiff were sufficient to support
common-law fraudulent inducement. Id. at 652, 656,
658. Moreover, the Supreme Court concluded that
that common-law violation alone was enough to find a
statutory violation under the Act for unconscionable
inducement. Id. at 658. Finally, the Supreme Court
agreed with the lower court that the contract was
substantively unconscionable, despite Quicken Loans’
contention that the plaintiff received “benefits” from
the loan. Id. at 658; see id. at 659.
This Court extrapolated from Brown’s reasoning in
McFarland v. Wells Fargo Bank, predicting that the
Act “is to be read as diverging from th[e] traditional
understanding” of unconscionability. McFarland, 810
F.3d at 284. We noted that the Supreme Court of
Appeals of West Virginia had “sustained findings of
‘unconscionability in the inducement’ based entirely
on conduct predating acceptance of the contract and
allegations going to the fairness of the process,
without regard to substantive unconscionability.” Id.
Accordingly, we concluded that the Act “authoriz[es] a
claim for unconscionable inducement that does not
require a showing of substantive unconscionability.” 19
Id.
West Virginia’s state-court system has no intermediate
appellate courts.
19 By contrast, the other cause of action under the Act—where
the agreement was “unconscionable at the time it was made”—
“requires a showing of both substantive unconscionability, or
unfairness
in
the
contract
itself,
and
procedural
18

34a
Further, it is clear from Brown that an
unconscionable-inducement claim is not defeated by a
showing that the plaintiff benefitted from the
resulting loan. Brown, 737 S.E.2d at 651, 658-59
(holding the defendant liable for statutory
unconscionable inducement despite the fact that
“[w]ith the loan proceeds, [the p]laintiff paid off her
previous mortgage and consolidated debt; received
$40,768.78, with which she purchased a new vehicle
(for $28,536.90); [and] retired other existing debt”).
Thus, unconscionable inducement is simply
“unconscionable conduct that causes a party to enter
into a loan.” McFarland, 810 F.3d. at 285. Courts are
to analyze such claims “based solely on factors
predating acceptance of the contract and relating to
the bargaining process,” that is, “the process that led
to contract formation.” Id. at 277-78. Procedural
unfairness alone is insufficient—while procedural
unconscionability can be shown by demonstrating
severe discrepancies in the parties’ bargaining
positions, “it appears that [the unconscionableinducement analysis] will turn not on status
considerations that are outside the control of the
defendant,
but
instead
on
affirmative
misrepresentations or active deceit.” Id. at 286
(emphases added). McFarland’s analysis on this point
was prescient: a few months after the decision was
filed, the West Virginia legislature amended the
statute to include “affirmative misrepresentations,
active deceit[,] or concealment of a material fact” as
examples of “unconscionable conduct.” 2016 W. Va.
unconscionability, or unfairness in the bargaining process.”
McFarland, 810 F.23d at 277.

35a
Acts. ch. 41 (codified at W. Va. Code § 46A-2-121). In
other words, unconscionable inducement requires
that the defendant have taken some unconscionable
action within its control to forward the loan process.
Based on binding precedent from this Court and the
state Supreme Court, then, some key principles guide
our analysis. We are to construe the Act liberally. Its
purpose is to protect consumers, especially where the
common law cannot provide them with relief.
Unconscionable inducement does not require
substantive unconscionability in the loan itself, and
any benefit the plaintiff received from that loan is
irrelevant.
Instead, unconscionable inducement
relates only to contract formation. However, to prove
unconscionable inducement, a plaintiff must show
more than procedural unconscionability: he or she
must demonstrate unconscionable behavior on the
part of the defendant, such as an affirmative
misrepresentation or active deceit.
C.
This leaves us to “anticipate how [the Supreme
Court of Appeals of West Virginia] would rule”
regarding one key question. Liberty Univ., 792 F.3d
at 528. By definition, the word “inducement” implies
that the affirmative misrepresentation or active
deceit in some way caused the plaintiff to enter the
loan. Black’s Law Dictionary defines “inducement”
generally as “[t]he act or process of enticing or
persuading another person to take a certain course of
action,” and, specific to contracts, as “[t]he benefit or
advantage that causes a promisor to enter into a
contract.” Inducement, Black’s Law Dictionary (11th

36a
ed. 2019). To resolve this appeal, we must predict the
level of causality that the Supreme Court of Appeals
of West Virginia would require.
We predict that plaintiffs alleging unconscionable
inducement in the form of active deceit or concealment
may succeed on their claims by proving that the
defendants omitted information that corrupted a key
part of the process leading to loan formation.
Additionally, we predict that plaintiffs alleging
unconscionable inducement based on affirmative
misrepresentations must demonstrate that they
relied
on
the
defendants’
affirmative
misrepresentations in entering the loan. However,
both predictions are based on West Virginia precedent
that relates to other causes of action potentially
calling for a higher level of causality than section 46A2-121 requires. In other words, our predictions come
with the caveat that we think it possible that the
Supreme Court of Appeals of West Virginia would
reduce the causality required even further for claims
under section 46A-2-121. We need not press on into
this uncharted territory of state law, however,
because we may affirm the district court’s judgment
even under these more cautious predictions.
Discussing common-law fraudulent concealment in
Quicken Loans v. Brown, the Supreme Court of
Appeals of West Virginia held that “it is not necessary
that the fraudulent concealment should be the sole
consideration or inducement moving the plaintiff. If
the concealment contributed to the formation of the
conclusion in the plaintiff’s mind, that is enough.”
Brown, 737 S.E.2d at 654 (emphasis added) (internal
quotation marks and alterations omitted).
And

37a
Brown makes clear that an act that constitutes
common-law fraudulent inducement also constitutes
unconscionable inducement under the Act. See id. at
658. Accordingly, for claims based on concealment, it
“is enough” for a plaintiff to show that the defendant’s
concealment “contributed to the formation” of the
plaintiff’s decision to enter the loan. 20 Id. at 654.
Moreover, in White v. Wyeth, the Supreme Court of
Appeals of West Virginia evaluated a different section
of the Act that protects consumers when they
purchase or lease goods or services. The court
reasoned that “when consumers allege that a
purchase was made because of an express or
affirmative misrepresentation, the causal connection
between the deceptive conduct and the loss would
necessarily include proof of reliance on those overt
representations.” White v. Wyeth, 705 S.E.2d 828, 837
(W. Va. 2010) (emphases added). However, “[w]here
concealment, suppression or omission is alleged, and
proving reliance is an impossibility, the causal
connection between the deceptive act and the
ascertainable loss is established by presentation of
It is possible that the Supreme Court of Appeals of West
Virginia would hold that the necessary showing of causality is
even further reduced under the Act. Notably, Brown was
discussing common-law fraudulent concealment. But because
the Act is intended to fill the gaps left by the common law, Barr,
711 S.E.2d at 583, unconscionable inducement under the Act
ought to be easier for plaintiffs to prove than common-law
fraudulent inducement. We decline to make a prediction as to
exactly what standard the state Supreme Court would apply,
however, because we conclude that it is appropriate to affirm
summary judgment for Plaintiffs even under Brown’s more
exacting standard.
20

38a
facts showing that the deceptive conduct was the
proximate cause of the loss.” Id. (emphases added).
Importantly, the provision of the Act analyzed in
White explicitly requires a showing of causation for a
consumer to sue a merchant or service provider. W.
Va. Code § 46A-6-106(a) (providing a private cause of
action to a consumer who “purchases or leases goods
or services and thereby suffers an ascertainable loss
… as a result of the use or employment by another
person of a method, act or practice prohibited” by the
Act (emphasis added)).
Here, by contrast, the
relevant provision has no comparable language
explicitly requiring causation for a plaintiff to sue a
lender, except insofar as causation is implied by the
concept of inducement. W. Va. Code § 46A-2-121(a)(1)
(providing a cause of action where the court finds a
consumer loan “to have been induced by
unconscionable
conduct”).
Therefore,
logic
necessitates that, at most, the same standard
regarding reliance articulated in White for section
46A-6-106(a) would apply to section 46A-2-121(a)(1):
proof of subjective reliance is necessary for actions
based on affirmative representations, but not for
actions based on concealment. 21

Indeed, we think it possible that the state Supreme Court
would conclude that reliance would be unnecessary for either
affirmative representations or concealment in actions under
section 46A-2-121(a)(1). Crucially, the court’s reasoning in White
was dependent on the specific language in section 46A-6-106(a).
White, 705 S.E.2d at 833 (noting that the certified question
before it was the proper interpretation of the “as a result of”
language in section 46A-6-106(a)). And the current version of the
Act specifically recognizes that some lawsuits against creditors
21

39a
As a point of clarification, we recognize that White’s
language about deceptive conduct needing to be the
“proximate cause of the loss”—or even the “but for”
cause, White, 705 S.E.2d at 837—appears to impose a
more stringent requirement for the showing of
causation than does Brown’s language about the
concealment merely needing to “contribute[] to the
formation of the conclusion in the plaintiff’s mind,”
Brown, 737 S.E.2d at 654. Here, between the two,
Brown governs. Brown is more recent, and it dealt
directly with inducement to enter a loan, whereas
White related to a different statutory provision.
Accordingly, we discuss White not for its causal
language, but for its discussion of whether a plaintiff
alleging concealment must prove reliance.
In summary, to assess a claim of unconscionable
inducement under the Act, we look to the defendant’s
conduct, not the bargaining strength of the parties or
the substantive terms of the agreement. For claims
based on affirmative misrepresentations, plaintiffs
must demonstrate that they subjectively relied on
that conduct. For claims based on concealment,
or debt collectors will be class actions—but there is no
comparable provision in the part of the Act at issue in White.
Compare W. Va. Code Ann. § 46A-5-101(1), with id. § 46A-6-106.
As Defendants themselves argue, it becomes much more difficult
to resolve as a class action a claim requiring individualized proof
of the class members’ mindsets. See Opening Br. at 38; see also
Gariety v. Grant Thornton, LLP, 368 F.3d 356, 362 (4th Cir.
2004). We do not mean to imply that a class could never be
certified under other provisions of the Act; that question is not
before us. But we think it significant that the legislature
explicitly contemplated that actions against creditors or debt
collectors could employ the class-action vehicle, which suggests
that no individualized inquiry is required.

40a
however, a plaintiff need only show that the
defendant’s conduct was unconscionable and that this
unconscionable conduct contributed to the formation
of the plaintiff’s decision to enter the loan. In other
words, we predict that the state Supreme Court would
find that a plaintiff who proves unconscionable
conduct in the form of concealment will recover unless
the conduct was sufficiently attenuated from or
irrelevant to the loan’s formation such that it did not
contribute to the formation of the plaintiff’s decision
to enter the loan.
D.
Turning to Defendants’ conduct in this case, and
viewing the evidence in the light most favorable to
Defendants, we agree with the district court that
Defendants sought to pressure appraisers to match
targeted appraisal values and concealed this practice
from Plaintiffs—a process that, in combination,
contributed to Plaintiffs’ decisions to enter the loan
agreements. Under the standard outlined above, this
conduct rises to the level of unconscionable
inducement under the Act.
The record clearly shows that Defendants sought to
increase appraisal values by providing borrowers’
estimates of home value to its appraisers and
pressuring appraisers to match those values.
Defendants’ internal emails refer to receiving “a lot of
calls from appraisers stating that they can’t reach our
requested value.” District Ct. Docket No. 2062 at 39
(emphasis added). One appraiser, Guida, testified
that “if [the appraisal] wasn’t at the estimated value,
[he] would get a call” from TSI asking him to

41a
reevaluate the appraisal. S.J.A. 669. In light of this
testimony, the only reasonable inference is that the
“requested value” in the email refers to the borrower’s
estimate of value. Internal emails also reveal that
Quicken Loans had a team dedicated to “push[ing]
back on appraisers questioning their appraised
values,” and that Quicken Loans’ usual process
involved “arguing over value appeal orders and
debating values with bankers and appraisers.” S.J.A.
711.
Moreover, Guida increased the appraised value of
the Aligs’ home by $3,000 after receiving documents
from Defendants asking him to revisit the appraisal.
Guida’s revised appraisal of the Aligs’ home was
between 19.5% and 26% higher than their actual
home value. Of course, home valuation is to some
degree an art, not a science; some variability is to be
expected. But Defendants themselves have suggested
that “a deviation of 10% between values is common
and accepted in the industry.” J.A. 277 (emphasis
added). 22
While the record contains testimony from several
appraisers that they were not influenced by the
estimated values, it is unclear how many of the
appraisals at issue were conducted by those
The record is devoid of evidence regarding the actual home
values of other class members. Accordingly, we cannot evaluate
whether the appraisals for most class members were inflated. As
noted above, that may preclude Plaintiffs’ contract claim, which
requires a showing of damages. But it does not preclude a
statutory unconscionable-inducement claim, which does not
require a showing of substantive unconscionability regarding the
loan terms.
22

42a
appraisers. And regardless of whether the appraisers
who conducted the class members’ appraisals believed
themselves to have been influenced, the record
suggests that they were. Guida’s appraisal of the
Aligs’ home provides a particularly stark example.
But additionally, testimony from a Quicken Loans
executive supports that the average difference
between the estimated value and the appraisal value
for all class loans was within five percent. In other
words, the appraisals closely tracked the borrowers’
estimates of value. This uncontroverted fact can be
reconciled with the appraisers’ testimony because it is
a well-established psychological phenomenon that an
initial value can have an anchoring effect, influencing
later estimates without the estimator’s realization. 23
Studies have shown this to be true even for experts
like real estate agents (for home prices) and judges
(for sentencing decisions). 24
Viewed in the light most favorable to Defendants,
the record contains evidence that Defendants may
have provided the estimates of value in part for
legitimate reasons: helping appraisers determine
E.g., Jon D. Hanson & Douglas A. Kysar, Taking
Behavioralism Seriously:
Some Evidence of Market
Manipulation, 112 Harv. L. Rev. 1420, 1440-41 & n.82 (1999)
(describing the anchoring effect).
24 E.g., Mark W. Bennett, Confronting Cognitive “Anchoring
Effect” and “Blind Spot” Biases in Federal Sentencing: A Modest
Solution for Reforming A Fundamental Flaw, 104 J. Crim. L. &
Criminology 489, 498 (2014) (discussing a study showing how
“anchoring works at the subconscious level” for real estate agents
estimating home values); see also United States v. ParralDominguez, 794 F.3d 440, 448 & n.9 (4th Cir. 2015) (noting the
anchoring effect of the Sentencing Guidelines in the context of
criminal sentencing).
23

43a
whether to accept an assignment and, if accepted,
assess an appropriate fee for the assignment. There
is some dispute about whether appraisers actually
used the estimates in that way. But there is no
genuine dispute that Defendants also provided the
estimates as a target—or, in their word, “requested”—
value. Nor is there any genuine dispute that, at least
some of the time, their efforts worked.
It is also clear that during the class period, this
practice was common, but discouraged. Though it was
not expressly forbidden by West Virginia law at the
time, federal authorities indicated as early as 1996
that providing a target value to appraisers was
improper,
warning
“employees
of
financial
institutions” against “pressuring appraisers to raise
their value conclusions to target values.” S.J.A. 861.
And the record suggests Defendants were aware that
the practice of providing borrowers’ estimates of value
was inappropriate. They ceased doing so in at least
one state that began applying more legal pressure.
Yet in West Virginia, Defendants continued to forge
ahead. They only stopped the practice entirely in
2009, “around the time” the Home Valuation Code of
Conduct forbid it. J.A. 235. It was unethical for
Defendants to attempt to pressure or influence
appraisers—yet the record establishes that this was
Defendants’ goal. 25
At oral argument, Defendants relied heavily on a provision
of the West Virginia Code that instructs that lenders “may rely
upon a bona fide written appraisal of the property made by an
independent third-party appraiser” which is “prepared in
compliance” with the Uniform Appraisal Standards. W. Va. Code
§ 31-17-8(m)(8). Their theory was that, under the Uniform
25

44a

Appraisal Standards, it was not unethical for an appraiser to
complete an appraisal after receiving an estimated value from
the lender—and that this should absolve Defendants of any
wrongdoing.
As an initial matter, Defendants waived this argument by
raising it only in passing in their opening brief. Grayson, 856
F.3d at 316. In any event, it is without merit. Defendants are
correct that, while the 2008-2009 Uniform Appraisal Standards
indicated that appraisers could not ethically accept an appraisal
assignment requiring a specific amount as a condition, the record
supports that the mere receipt by an appraiser of the borrower’s
estimate of value did not violate the Uniform Appraisal
Standards. However, the Uniform Appraisal Standards also
indicated that appraisers should respond to lenders who
provided the borrower’s estimate of value with a clarifying
statement that they could not accept the assignment if the
estimate was provided as a condition. There is no evidence in the
record that the appraisers made any such statements here.
Putting that issue aside, section 31-17-8(m)(8) cannot be used
by lenders to justify unconscionable conduct. Section 31-178(m)(8) forbids lenders from “making any primary or subordinate
mortgage loan” that is secured in a principal amount exceeding
the fair market value of the property. In enacting that
prohibition, however, the legislature gave lenders a safe harbor:
they could rely on an appraiser’s valuation of the home to avoid
violating this rule. Reading the statute to allow lenders to
attempt to influence appraisers so long as they stick within the
limits of the Uniform Appraisal Standards—to wield this safe
harbor shield as a sword—would defeat the purpose of section
31-17-8(m)(8), not to mention section 46A-2-121(a)(1).
Moreover, the state legislature used significant limiting
language in crafting section 31-17-8(m)(8), specifying that the
appraisal must be “bona fide” and that the appraiser must be “an
independent third-party.” And under section 31-17-8(m)(2),
lenders are prohibited from “[c]ompensat[ing], … coerc[ing,] or
intimidat[ing] an appraiser for the purpose of influencing the
independent judgment of the appraiser with respect to the value
of real estate” on which a mortgage loan is based. The language
of section 31-17-8(m) thus makes clear that the legislature was

45a
Indeed, Defendants appear to recognize that their
conduct was improper. On appeal, they focus their
energy on arguing that their attempts to influence
appraisers were unsuccessful and, therefore, did not
induce Plaintiffs to enter the loans. They note
testimony from several appraisers that seeing
borrowers’ estimates of value did not influence them.
Defendants set the causational bar too high. As
discussed, for claims related to concealment,
unconscionable inducement under the Act turns not
on Plaintiffs’ subjective reliance on the concealed
conduct but on Defendants’ conduct itself. Plaintiffs
need demonstrate only that Defendants’ conduct was
unconscionable and that it “contributed to the
formation” of their decisions to enter the loan
agreements. Brown, 737 S.E.2d at 654. We conclude
that Plaintiffs have satisfied this standard. 26
concerned about the very sort of behavior at issue here—namely,
lenders embarking on campaigns to sway appraisers.
26 Defendants argue that concealment is only actionable where
there is a duty to disclose—and they appear to argue that the
absence of a statutory duty is dispositive. As an initial matter,
the absence of a statutory duty does not mean there is no duty.
In the tort context, for example, “[t]he ultimate test of the
existence of a duty to use care is found in the foreseeability that
harm may result if it is not exercised.” Glascock v. City Nat’l
Bank of W. Va., 576 S.E.2d 540, 544 (W. Va. 2002) (internal
quotation marks omitted). And, where a lender “possesse[s]
information of no interest to ‘society in general,’ but of great
interest to the [borrowers],” and the lender “ha[s] reason to know
of the ‘potential consequences of the wrongdoing,’ that is,
withholding the information,” a special relationship exists and
the lender has a duty to disclose the information. Id. at 545; see
id. at 546; cf. McCauley v. Home Loan Inv. Bank, F.S.B., 710 F.3d
551, 559 (4th Cir. 2013) (“A lender that informs a borrower about

46a
The appraisal process is closely related to loan
formation for loans secured by the collateral of real
property. In other words, any conduct impacting the
appraisal process necessarily contributes to loan
formation. An appraisal provides both the mortgagor
and mortgagee with a baseline value from which the
parties can negotiate the terms of the loan. The
appraisal value helps determine the final loan amount
and terms, and an impartial appraisal gives both
how much her property is worth, whether required to do so or
not, is under an obligation not to misrepresent that value.”);
Ranson v. Bank of Am., N.A., No. CIV.A. 3:12-5616, 2013 WL
1077093, at *6 (S.D.W. Va. Mar. 14, 2013) (“[A] duty to provide
accurate loan information is a normal service in a lenderborrower relationship.”).
Moreover, there is no evidence that a duty to disclose is an
element of an action for unconscionable inducement by
concealment under the Act. Defendants are correct that
common-law fraudulent concealment requires the plaintiff to
show the existence of a duty to disclose. Brown, 737 S.E.2d at
654. But, again, the Act is intended to provide consumers with a
cause of action where the common law does not. Barr, 711 S.E.2d
at 583. And research has not revealed a single West Virginia
case interpreting the Act that has required a duty to disclose.
Indeed, in Brown, the Supreme Court of Appeals of West Virginia
referred to a duty to disclose only in discussing the plaintiff’s
common-law claim for fraudulent concealment. Brown, 737
S.E.2d at 654. And the trial court in Brown—the only other West
Virginia court to review the case—made no mention of a duty to
disclose in this context at all. Brown v. Quicken Loans, No. 08C-36, 2010 WL 9597654, at *8 (W. Va. Cir. Ct. Mar. 2, 2010).
In light of the principle that the Act provides a cause of action
where the common law runs dry, we conclude that, even
assuming Plaintiffs must show that Quicken Loans had a duty
to disclose, the duty arises from the Act itself. In other words,
the Act provides an avenue for seeking relief when a lender
conceals a fact despite having an ethical obligation to disclose it,
such that the failure to disclose the fact was unconscionable.

47a
parties confidence that the loan is tied to the home’s
true contemporary market value.
Appraisal procedures are particularly important in
refinancing agreements. In home purchases, the loan
amount is tied directly to the purchase price, which is
tempered by bargaining between adversarial parties
represented by competing real estate agents. Here,
though, both parties had some incentive to estimate a
high home value: Plaintiffs may have wanted to
receive more money they could use for other purposes,
cf. McFarland, 810 F.3d at 280, and Quicken Loans
may have desired to obtain higher loan values to
improve its position when reselling those loans, see
Brown, 737 S.E.2d at 652 n.25; cf. McCauley v. Home
Loan Inv. Bank, F.S.B., 710 F.3d 551, 559 n.5 (4th Cir.
2013). But an inflated home value posed risks to both
parties, too. See McFarland, 810 F.3d at 280-81.
Amidst these various dangers and incentives—and
stepping into the middle of a transaction between
parties with unequal bargaining power—the
impartial appraiser was the only trained professional
available to objectively evaluate the value of the
home. Thus, conduct designed to influence the
appraisal process is not causally attenuated from the
class members’ decisions to enter the loans. Put
another way, the appraisal process is sufficiently
central to the refinancing agreement that any conduct
designed to affect the appraisal process necessarily
contributed to the Plaintiffs’ conclusions to enter the
loans.
And where, as here, that conduct was
unconscionable, it is actionable under the Act.
The evidence shows that appraisers were made
aware of target values and pressured to reevaluate

48a
their appraisals if they fell below those amounts.
Appraisers, thus, had in mind the target value when
they assessed or reassessed Plaintiffs’ home values
and, at least sometimes, adjusted their appraisals in
response—even if they did so only subconsciously.
And as those appraisals were central components in
determining the terms of each loan, there is no
genuine dispute that they—and, more importantly,
their guise of impartiality— contributed to Plaintiffs’
decisions to enter those loans. Moreover, because
Defendants’ behavior was unethical, it was
unconscionable under the Act. Therefore, Plaintiffs
have established their claim for unconscionable
inducement. 27
E.
We close our discussion of unconscionable
inducement by emphasizing the circumscribed nature
of our holding—a limitation that is necessary when we
are wading somewhat into uncharted waters of state
law, albeit with significant guidance from West
Virginia’s highest court. See id. at 284.
Defendants’ challenged actions were of a
particularly questionable character and pertained to
an aspect of the loan process that is particularly
essential. The loans in question were secured by the
collateral of the borrowers’ homes—by far the most
significant investment, in terms of sheer value, that
most Americans will make in their lifetimes, but also
property that is necessary as shelter and, for many,
Defendants do not challenge on appeal the statutorydamages award for Plaintiffs’ unconscionable-inducement claim.
27

49a
carries great personal significance as a home. We
think it plain that reasonable borrowers would not
risk their significant investments, shelters, and
homes without compelling reason.
Again, we
emphasize that there is no evidence in the record
suggesting that, when the class members estimated
their home values, they knew that those values would
be passed on to appraisers or used to pressure
appraisers to increase appraisal values. Indeed, it is
reasonable to suppose that the borrowers each
assumed that the appraisal provided an unbiased
valuation of their homes on which they could rely as
they planned their financial futures.
Yet Defendants did not respect this process.
Instead, they flexed their power as the party
arranging the appraisal in an attempt to influence the
impartial third parties upon whose advice Plaintiffs
appropriately relied. Plaintiffs thought they were
playing a fair game of poker, albeit one where the
Defendants were dealing the cards. Plaintiffs did not
know that Defendants were also stacking the deck.
Our holding thus should not be interpreted to open
the floodgates to a deluge of litigation challenging any
possible means by which a lender could attempt to
better position itself in a negotiation. Parties to
agreements can, of course, take some measures to
protect and further their interests without coming
close to violating the Act. But where a lender induces
a borrower to enter a loan through deceptive practices
that relate to the heart of the loan-formation process,
thereby compromising the integrity and fairness of
that process, West Virginia law provides the borrower
with a remedy. We decline to accept Defendants’

50a
invitation to ignore that legislative cure for their
misbehavior. After all, “[i]t would be dispiriting
beyond belief if courts defeated [a legislature’s]
obvious attempt to vindicate the public interest with
interpretations that ignored the purpose, text, and
structure of th[e] Act at the behest of those whose
abusive practices the legislative branch had meant to
curb.” Krakauer, 925 F.3d at 663.
V.
Plaintiffs’ final claim, against both Quicken Loans
and TSI, was for conspiracy.
Defendants’ only
argument on appeal related to that claim is that “[t]he
district court’s summary-judgment decision on
Plaintiffs’ civil-conspiracy claim … was derivative of
its ruling on the [unconscionable-inducement] count.”
Opening Br. at 31. And since Defendants believe
reversal to be appropriate for the statutory claim, they
argue the same for the conspiracy claim. Because we
affirm the district court’s decision to grant summary
judgment to Plaintiffs on their statutory claim, this
argument fails. And by not making any other
arguments regarding this claim, Defendants have
waived any such arguments on appeal. See Grayson
O Co. v. Agadir Int’l LLC, 856 F.3d 307, 316 (4th Cir.
2017). Accordingly, we also affirm the district court’s
grant of summary judgment to Plaintiffs on the
conspiracy claim.
VI.
For the foregoing reasons, we affirm the district
court’s decisions to grant class certification, grant
summary judgment to Plaintiffs on their conspiracy

51a
and unconscionable-inducement claims, and award
statutory damages. However, we vacate the district
court’s grant of summary judgment to Plaintiffs on
their breach-of-contract claim and the related
damages award, and we remand that claim for further
proceedings consistent with this opinion.
AFFIRMED IN PART, VACATED IN PART,
AND REMANDED.
NIEMEYER, Circuit Judge, dissenting:
Phillip and Sara Alig and Daniel and Roxanne Shea
refinanced the mortgages on their homes in 2007 and
2008, respectively, with loans from Quicken Loans
Inc. to consolidate their debts and reduce their
payments. In the standard application form that they
signed to apply for the loans, they provided, among
other things, an estimated value of their homes and
the amount that they wished to borrow. To qualify the
loans, Quicken Loans obtained appraisals from
independent, professional appraisers, who were
provided with the borrowers’ home-value estimates.
This was, at the time, a customary and accepted
industry practice. While the Aligs and the Sheas
provided their estimates unconditionally, indicating
that the estimates could be used by Quicken Loans,
its agents, and its servicers, they were not informed in
particular that their estimates would be provided to
the appraisers.
At the closings, the Aligs and Sheas received the
borrowed money and, as they had agreed, paid for the
costs of the appraisals — $260 in the Aligs’ case and
$430 in the Sheas’. As planned, the two couples then

52a
consolidated their debts to their financial benefit.
There is no dispute that they received exactly what
they had bargained for and that they were highly
satisfied with the transactions.
After industry standards changed in 2009 so that
lenders could no longer provide appraisers with
borrowers’ home-value estimates and years after their
loans closed, the Aligs and Sheas commenced this
class action against Quicken Loans. They alleged that
the practice that Quicken Loans followed in 2007 and
2008 of providing appraisers with borrowers’ homevalue estimates without their knowledge was
“unconscionable conduct” that “induced” their loan
transactions, in violation of the West Virginia
Consumer Credit and Protection Act, W. Va. Code §
46 A-2-121(a)(1) (making unenforceable consumer
loans that are “induced by unconscionable conduct”).
They also claimed that the practice constituted a
breach of contract. With their action, the Aligs and
Sheas sought to represent a class of other West
Virginia residents who had also refinanced their
mortgages with Quicken Loans before 2009 — a class
involving nearly 3,000 loans. The district court
certified the class, agreed with the Aligs and Sheas on
both claims, and entered summary judgment against
Quicken Loans for over $10 million. And in a startling
opinion, the majority now largely affirms the district
court’s conclusion.
To impose liability on Quicken Loans for what was
an industry-wide practice to provide relevant
information to appraisers and that harmed the Aligs
and Sheas not one iota is fundamentally unjust; it is,
as we have previously observed, “not the borrower but

53a
the bank that typically is disadvantaged by an undercollateralized loan.” McFarland v. Wells Fargo Bank,
N.A., 810 F.3d 273, 280 (4th Cir. 2016). Imposing
liability here thus lacks common sense. Moreover, it
stands statutory liability on its head.
West Virginia law creates lender liability for
“unconscionable conduct” that “induces” the borrower
to enter into a consumer loan transaction. Yet here,
there is no factual or legal basis to call the challenged
practice “unconscionable,” a term that West Virginia
courts have equated with fraudulent conduct. Nor is
there any evidence that the borrowers were “induced
by” the practice to enter into the loan transactions. By
their own allegations, the Aligs and Sheas were
unaware of the practice, and there is simply no
evidence that if they had been made aware of it, they
would not have proceeded with the transactions on the
same terms. They were interested in receiving a loan
in the amount they had applied for and at the cost that
was fully disclosed to them for the purpose of
consolidating their debts.
In affirming a $10-million liability in these
circumstances, the majority opinion stands totally out
of step with the interests of both parties to the
transactions. This is an unjust punishment indeed for
a company that followed a practice that was both
customary and legal and only later modified to avoid
potentially influencing appraisers. And regardless of
the change in 2009, there is no evidence that the
appraisers on these loans were influenced by the
borrowers’ estimates or that any kind of fraud was
committed.

54a
I conclude that the practice followed in 2007 and
2008 of providing appraisers with the borrowers’
estimates of home value without disclosing that
practice to the borrowers was plainly not
unconscionable conduct under virtually any
understanding of the term and certainly not under the
standard imposed by West Virginia Code § 46A-2-121.
There was nothing unscrupulous or akin to fraud
involved in the transactions. The practice that the
Aligs and Sheas challenge was related only to lenders’
dealings with appraisers who were retained to protect
the lenders from undercollateralized loans; the
practice was accepted by the industry at the time; the
practice did not affect — nor would it have affected if
disclosed — the Aligs and Sheas’ conduct in pursuing
the loans; and the practice caused the Aligs and Sheas
no damage.
I also conclude that the Aligs and Sheas were not
induced by the practice to enter into the loan
transactions. They did not know of it, and there is
simply no evidence that had the practice been
disclosed to them, they would have proceeded any
differently.
I would reverse and remand with instructions to
enter judgment for Quicken Loans and its agent, Title
Source, Inc.
I
The practices followed by borrowers and lenders in
refinancing home mortgages were and are well
understood, and they are governed by numerous
regulations designed to serve both borrowers and

55a
lenders. The evidence in this case showed that
Quicken Loans followed the accepted practices both
before 2009 and after, and the Aligs and Sheas have
pointed to no deviation from them, much less deceit.
A refinancing transaction typically begins with the
prospective borrower filling out a Uniform Residential
Loan Application (Fannie Mae Form 1003), which
requires the lender to provide, among other things,
information about their income and debts, their
assets, and the amount and basic terms of the loan
being sought. In one portion of the application, the
borrowers are specifically requested to fill in a
schedule of real estate owned, providing the real
estate’s “present market value,” as well as the
mortgages and liens on it. The form expressly
authorizes use of the application’s information by the
lender, its “agents,” and its “servicers,” providing that
the borrower “agrees and acknowledges that … the
Lender and its agents, … [and] servicers … may
continuously rely on the information contained in the
application.”
Lenders
use
the
application’s
information to identify loan programs for which the
borrowers would be eligible, to qualify the borrowers
for loans with a demonstration of adequate income
and collateral, to obtain credit information regarding
the borrowers, and to retain appraisers to appraise
the borrowers’ homes.
Before 2009, lenders commonly provided the
borrowers’ home-value estimates to appraisers who
were engaged to provide appraisals in connection with
mortgage refinancings. The testimony in the record
shows that this “was a common and acceptable
practice for mortgage lenders.” The information

56a
helped appraisers determine whether they had the
right licensure to complete the appraisal, decide
whether to accept the assignment, and determine
what fee to charge for the appraisal. And the practice
was considered appropriate under the Uniform
Standards of Professional Appraisal Practice
(“USPAP”) issued by the Appraisal Standards Board.
Indeed, under guidance published by the Board,
appraisers were expressly allowed to receive
borrowers’ estimates. The Board recognized that the
mere receipt of such information was not inconsistent
with the appraisers’ obligation to perform their
appraisals with “impartiality, objectivity, and
independence.” But an appraiser was not authorized
to accept an engagement that was conditioned on
reporting a predetermined opinion of value.
Appraisals were (and continue to be) generally
reported on a Uniform Residential Appraisal Report
(Fannie Mae Form 1004).
When submitting
appraisals on that form, the appraiser certifies that
he or she performed the appraisal “in accordance with
the requirements of the” USPAP.
Quicken
Loans
followed
these
customary
procedures during the pre-2009 period, using the
Fannie Mae forms. It would upload information about
a prospective borrower, including the borrower’s
estimate of home value, into a computer system that
would then transmit the information to Title Source,
Inc., an affiliated appraisal management company
that obtained appraisals from independent appraisers
and provided other loan settlement services both to
Quicken Loans and other mortgage lenders. Title
Source used the information it received from Quicken

57a
Loans to generate an appraisal request form, which
included the “Applicant’s Estimated Value.” The form
was sent through an automated system to
professional appraisers and appraisal companies in
the area where the property was located. The
appraisers in this case then reported their appraisals
on Fannie Mae Form 1004.
In 2009, with the issuance of the Home Valuation
Code of Conduct, a new rule went into effect that,
among other things, prohibited both lenders and
appraisal management companies from providing any
estimated home values to appraisers in connection
with refinance transactions, including the borrowers’
own estimates. With the issuance of this new rule,
Quicken Loans and Title Source stopped including
borrowers’ estimated home values on appraisal
request forms. But the refinancings by the Aligs and
the Sheas were completed under the former practice,
before the new rule went into effect.
Phillip and Sara Alig purchased their home in
Wheeling, West Virginia, in 2003 for $105,000,
financing their purchase with a mortgage.
In
December 2007, they sought to refinance their
mortgage and consolidate their debts with a loan from
Quicken Loans. On the Uniform Residential Loan
Application form, they indicated that the “present
market value” of their home was $129,000, and this
estimate was thereafter included on the appraisal
request form that Title Source sent to a local
appraiser who was retained to determine what the
fair market value of the Aligs’ home was. The
appraiser at first determined that value to be
$122,500. Title Source asked the appraiser, however,

58a
to “revisit [the] appraisal for [a] possible value
increase to $125,500” based on an “adjusted sales
price of comps.” The appraiser agreed that, in view of
“the comps” (which included nearby home sales of
$124,000 and $132,000), it was appropriate to
increase the appraisal to $125,500. The appraiser
submitted his report on the uniform form (Fannie Mae
Form 1004), certifying that he had conducted the
appraisal in accordance with the USPAP standards
and that his compensation was not conditioned on his
reporting “a predetermined specific value.” In
addition, he testified that receiving homeowners’
estimated values did not influence his appraisals in
any way. Quicken Loans thereafter agreed to lend the
Aligs $112,950 at a fixed interest rate of 6.25%, and at
closing, which took place in December 2007, the Aligs
used the proceeds to pay off a car loan and credit card
debt, saving them $480 per month for almost a year
thereafter. Included in the closing costs that the Aligs
paid with the refinancing was $260 for the cost of the
appraisal.
Similarly, Daniel and Roxanne Shea purchased
their home in Wheeling, West Virginia, in 2006 for
$149,350, financing their purchase with two mortgage
loans from Quicken Loans. In June 2008, they sought
to refinance their mortgages with a loan from Quicken
Loans to consolidate their debts. On the Uniform
Residential Loan Application form, they indicated
that the “present market value” of their home was
$170,000, and this information was included on the
appraisal request form that Title Source sent to a local
appraiser. That appraiser appraised the Sheas’
property at $158,000, using Fannie Mae Form 1004.
He testified later that the “Applicant’s Estimated

59a
Value” was nothing more than what the borrowers
assumed their house was worth and so was
“irrelevant” to his task of determining market value
using “comparables.” He also stated that if a potential
client had attempted to condition his payment on his
assessing a house to be worth a certain minimum
value, he would have refused to do the job. Quicken
Loans agreed to lend the Sheas $155,548 at a fixed
interest rate of 6.625%, which consolidated their
previous mortgage loans. One of the consolidated
loans had a balloon-interest provision and the other
had an interest rate of 12.4%. As part of the closing
costs, the Sheas paid $430 for the cost of the appraisal.
There is no evidence that either the Aligs or the
Sheas were dissatisfied with their refinancing
transactions with Quicken Loans. Indeed, they rated
their experience at the highest level (“excellent” or 5
out of 5), and both couples improved their cash-flow
circumstances. Nonetheless, after the 2009 rule
change by which lenders were no longer permitted to
provide the borrowers’ home-value estimates to
appraisers, the Aligs and Sheas decided to sue
Quicken Loans and Title Source for the practice
followed in their pre-2009 refinancing transactions.
In their complaint, they alleged that Quicken Loans
had “sought to influence appraisers” by providing
them with “suggested or estimated values on
appraisal request forms.” They also stated that
Quicken Loans had not informed them of this practice
and claimed that, by so “compromising the integrity of
the appraisal process,” the practice had “rendered
[their] appraisals unreliable and worthless.” The Aligs
and Sheas did not allege, however, that they would
not have refinanced their home mortgages with

60a
Quicken Loans on the same terms had they known
that their home-value estimates had been sent to the
appraisers. But, using the statutory language, they
alleged in their complaint that their loans were
“induced by unconscionable conduct,” in violation of
West Virginia Code § 46A-2-121(a)(1), which is part of
the West Virginia Consumer Credit and Protection
Act. They also alleged that by “providing value
estimates to appraisers” without disclosing the
practice to them, Quicken Loans breached its
contractual obligation to obtain “a fair and unbiased
appraisal.” Finally, they alleged that Quicken Loans
and Title Source engaged in an unlawful civil
conspiracy that rendered Title Source equally liable
for the unconscionable inducement and breach of
contract claims alleged.
Following discovery, the plaintiffs filed a motion to
certify their action as a class action on behalf of “[a]ll
West Virginia citizens who refinanced mortgage loans
with Quicken, and for whom Quicken obtained
appraisals through an appraisal request form that
included an estimate of value of the subject property.”
There were 2,769 such loans.
Shortly thereafter, the parties filed cross-motions
for summary judgment, and the district court, by
memorandum opinion and order dated June 2, 2016,
both certified the proposed class and granted
summary judgment to the plaintiffs on the three
claims.
The court found as a matter of law “that the act of
sending an estimated … value to an appraiser in
connection with a real estate mortgage loan

61a
refinancing” without disclosing the practice to
borrowers was “unconscionable conduct” within the
meaning of § 46A-2-121. It reasoned that the
“estimated values were used by Quicken as a means
of communicating targets to its appraisers.” The court
also concluded as a matter of law that the
unconscionable conduct induced the plaintiffs’ loan
agreements. Noting that “[a] violation exists when
‘the agreement or transaction … [has been] induced
by unconscionable conduct,’” the court explained its
view that the focus of the statute “is plainly on the
lender or creditor’s conduct,” rather than “the
consumer’s state of mind.”
On the contract claim, the district court explained
that the plaintiffs and Quicken Loans had executed a
contract at the beginning of the loan process, entitled
“Interest Rate Disclosure and Deposit Agreement,”
which provided that immediately upon receiving the
borrowers’ loan application and deposit, Quicken
Loans would begin processing the application by,
among other things, obtaining an appraisal. That
agreement also noted that while Quicken Loans
aimed to have the borrowers’ application approved by
the anticipated closing date, it could not be
responsible for delays in loan approval due to, among
other things, “the untimely receipt of an acceptable
appraisal.” The court concluded that this agreement
was intended to “facilitate the loan application
process by having the lender, Quicken, obtain an
‘acceptable’ appraisal, which, at a minimum, would
require Quicken to deal honestly with its borrowers
and in keeping with the prevailing standards of
reasonableness.” But because “providing a target
figure to an appraiser is a practice that is universally

62a
condemned and serves no legitimate purpose,” the
court concluded that Quicken Loans had breached its
obligation to obtain an “acceptable” appraisal and had
violated its “duty to deal honestly” by “withholding
knowledge of the true nature of the appraisal.”
On the civil conspiracy claim, the court held that
Quicken Loans and Title Source “consistently acted in
concert to accomplish their unlawful purposes,” such
that they were jointly liable for the “scheme.”
In a later order, the court awarded (1) statutory
damages of $3,500 per loan for the unconscionable
inducement claim, for a total of $9,691,500, and (2)
approximately $969,000 for the breach of contract
claim, which represented the aggregate amount of
fees paid for appraisals that “were rendered worthless
by Quicken’s breach.” The total judgment thus
exceeded $10.6 million.
From the final judgment dated December 14, 2018,
Quicken Loans and Title Source (hereafter collectively
“Quicken Loans”) filed this appeal.
II
On the statutory claim, the district court held that
Quicken Loans’ practice of obtaining appraisals
through appraisal request forms that included the
borrowers’ estimate of their properties’ value without
specifically disclosing that practice to the borrowers
constituted “unconscionable inducement under W. Va.
Code § 46A-2-121.” Quicken Loans contends, however,
that the court’s ruling was doubly flawed because (1)

63a
the plaintiffs “offered no evidence of inducement” and
(2) Quicken Loans “did nothing unconscionable.”
Quicken Loans’ argument thus directs our focus to
the meaning of two terms — “induce” and
“unconscionable” — as they are used in imposing
liability when a consumer loan transaction is “induced
by unconscionable conduct.” W. Va. Code § 46A-2121(a)(1) (emphasis added). I start with the term
“induce.”
A
The relevant portion of the West Virginia Consumer
Credit and Protection Act provides that “[w]ith
respect to a transaction which is or gives rise to a …
consumer loan, if the court as a matter of law finds …
[t]he agreement or transaction … to have been
induced by unconscionable conduct …, the court may
refuse to enforce the agreement.” W. Va. Code § 46A2-121(a)(1) (emphasis added).
Beginning with the text, it is clear that to have an
agreement “induced by” unconscionable conduct
requires that the conduct of one party have
contributed to the agreement’s formation in the sense
that it was material, or would have been material, to
the other party’s decision to enter into the agreement.
Thus, if one party engaged in “unconscionable
conduct” at some point in the process of the
agreement’s formation, but the other party would
have agreed to the same transaction regardless, it
cannot fairly be said that the unconscionable conduct
induced the agreement. This much is clear from the
text alone because “induce” and “inducement” have

64a
well recognized legal meanings, as even the majority
acknowledges. See ante at 32. For instance, Black’s
Law Dictionary’s primary definition of inducement is
“[t]he act or process of enticing or persuading another
person to take a certain course of action.” Black’s Law
Dictionary 894 (10th ed. 2014) (emphasis added); cf.
Mountain State College v. Holsinger, 742 S.E.2d 94,
100 (W. Va. 2013) (relying on the definition of
“consumer credit sale” in Black’s Law Dictionary
when interpreting the Consumer Credit and
Protection Act). In addition to this general definition,
Black’s Law Dictionary also recognizes several
specialized meanings of “inducement.” A contract’s
“inducement,” for example, is the “benefit or
advantage that causes a promisor to enter into a
contract.” Black’s Law Dictionary, supra, at 894
(emphasis added). And even more telling, Black’s Law
Dictionary defines “[f]raud in the inducement” as
“[f]raud occurring when a misrepresentation leads
another to enter into a transaction with a false
impression of the risks, duties, or obligations
involved.” Id. at 776 (emphasis added).
West Virginia courts have long given the word
“induce” this same meaning when applying the State’s
tort law. See, e.g., Traders Bank v. Dils, 704 S.E.2d
691, 696 (W. Va. 2010) (“The critical element of a
fraudulent inducement claim is an oral promise that
is used as an improper enticement to the
consummation of another agreement. The fact that
the agreement is reduced to writing … does not negate
the occurrence of a precedent oral promise that was
the motivating factor for the making of such
agreement” (emphasis added)).
Although the
fraudulent representation or concealment need not be

65a
“the sole consideration or inducement moving the
plaintiff,” it must at least have “contributed to the
formation of the conclusion in [the plaintiff’s] mind”
for an inducement to have occurred. Horton v. Tyree,
139 S.E. 737, 739 (W. Va. 1927) (second emphasis
added).
The West Virginia Supreme Court of Appeals’
decision in Quicken Loans, Inc. v. Brown, 737 S.E.2d
640 (W. Va. 2012), serves as a telling example of how
that court understands the meaning of “induce” —
specifically, the centrality of the effect of the alleged
misconduct
on
the
individual
plaintiff’s
decisionmaking process. In Brown, the court held that
the plaintiff had proved that the lender “fraudulently
induced [her] to enter into [a] loan” to refinance her
home mortgage by “failing to disclose [an] enormous
balloon payment.” Id. at 652. It explained that “[i]t
[was] undisputed that the reason [the plaintiff] sought
to refinance was to consolidate her debt and to reduce
her monthly payments — in short, to save money.” Id.
at 654. Thus, “[c]oncealing such an enormous balloon
payment from [the plaintiff] was designed to mislead
her and to induce her into entering into the loan and,
in fact, that is precisely what occurred.” Id. (emphasis
added).
Similarly, the court concluded that a
fraudulent misrepresentation by the lender “that it
would refinance the loan in three to four months was
clearly material because, absent that promise, [the
plaintiff] would not have otherwise entered into the
loan.” Id. at 655 (emphasis added). On the flip side,
however, the court held that the plaintiff had failed to
prove that the lender’s misrepresentation of a $2,100
fee as being paid to secure a lower interest rate had
induced her to enter into the refinancing, agreeing

66a
there was insufficient evidence “that if the loan
discount had been accurately described on the closing
documents, [the plaintiff] would not have
consummated the loan.” Id. at 656.
There is no indication that the West Virginia
Supreme Court of Appeals would understand
“induced by” in § 46A-2-121 to have any meaning
other than this settled one. See Napier v. Bd. of Educ.
of Cnty. of Mingo, 591 S.E.2d 106, 110 (W. Va. 2003)
(“When presented with a matter of statutory
interpretation, this Court typically first looks to the
precise language employed by the Legislature in order
to determine the meaning of the controverted
statute.… If the text, given its plain meaning,
answers the interpretive question, the language must
prevail and further inquiry is foreclosed” (cleaned
up)). To the contrary, in Brown itself, the court
signaled the similarity between a statutory
unconscionable inducement claim under § 46A-2-121
and a common law fraudulent inducement claim,
reasoning that because the plaintiff had established
the latter, she had also established the former.
Brown, 737 S.E.2d at 658.
Moreover, in Brown, the court also explained that
when interpreting § 46A-2-121, it “found the drafters’
comments to the [Uniform] Consumer Credit Code
[“UCCC”] to be highly instructive,” as “the
unconscionability provisions of [the UCCC] are
identical to West Virginia Code § 46A-2-121(a) and
(b).” 737 S.E.2d at 656-57. Significantly, an early
version of the UCCC only provided for
nonenforcement of an agreement respecting a
consumer credit sale, consumer lease, or consumer

67a
loan if the agreement was “unconscionable at the time
it was made.” Unif. Consumer Credit Code 1968 §
5.108(1). In the 1974 version, however, the provision
was expanded to include unconscionable inducement.
See Unif. Consumer Credit Code 1974 § 5.108(1). And
in explaining this amendment, the UCCC’s
accompanying comments stated:
Subsection[] (1) … [is] derived in significant part
from UCC Section 2-302. Subsection (1), as does
UCC Section 2-302, provides that a court can
refuse to enforce or can adjust an agreement or
part of an agreement that was unconscionable on
its face at the time it was made. However, many
agreements are not in and of themselves
unconscionable according to their terms, but they
would never have been entered into by a consumer
if unconscionable means had not been employed to
induce the consumer to agree to the contract. It
would be a frustration of the policy against
unconscionable contracts for a creditor to be able
to utilize unconscionable acts or practices to
obtain an agreement. Consequently subsection
(1) also gives to the court the power to refuse to
enforce an agreement if it finds as a matter of law
that it was induced by unconscionable conduct.
Unif. Consumer Credit Code 1974 § 5.108 cmt. 1
(emphasis added). These comments — which, again,
the West Virginia Supreme Court of Appeals has
specifically recognized as being “highly instructive” in
interpreting § 46A-2-121, see Brown, 737 S.E.2d at
657 — only further confirm that a contract is induced
by unconscionable conduct when such conduct is used
to help secure the consumer’s agreement to the

68a
contract. Indeed, relying on the UCCC comments
quoted above, we recognized as much in McFarland,
where we stated that § 46A-2-121 supports “two
distinct causes of action when it comes to consumer
loans: one for unconscionability in the loan terms
themselves, and one for unconscionable conduct that
causes a party to enter into a loan.” 810 F.3d at 285
(emphasis added).
Tellingly, the Aligs and Sheas have not even
attempted to argue that they presented sufficient
evidence to prove that the allegedly unconscionable
conduct at issue here induced them to refinance their
mortgages with Quicken Loans. Rather, they stake
their position on the proposition that all that is
required to establish a lender’s liability under § 46A2-121 is simply that unconscionable conduct was part
of the process leading to the agreement’s creation,
regardless of whether it had any effect on “the
formation of the conclusion in the plaintiff’s mind.”
Brown, 737 S.E.2d at 654.
Their posited
interpretation, however, is at odds with not only the
statute’s text and case law construing “induce,” but
also the provision’s purpose of ensuring that
consumers are protected when a lender has used
“unconscionable acts or practices to obtain an
agreement” from them, even if the terms of that
agreement are not themselves unconscionable. Unif.
Consumer Credit Code 1974 § 5.108 cmt. 1.
Here, the plaintiffs have simply failed to establish
that their loan agreements were “induced by” Quicken
Loans’ failure to disclose that the home-value
estimates that they themselves had provided had
been included on the appraisal request forms. In

69a
other words, they failed to prove that Quicken Loans’
lack of disclosure was a “motivating factor for [their]
making of” the loan agreement, Traders Bank, 704
S.E.2d at 696; or that it “contributed to” their decision
to enter into the loan, Brown, 737 S.E.2d at 654; or
that it “cause[d] [them] to enter into [the] loan,”
McFarland, 810 F.3d at 285. This failure should have
entitled Quicken Loans to judgment as a matter of law
on the statutory claim.
To avoid the plaintiffs’ obvious failure, the majority
opinion manufactures an approach alien to West
Virginia law.
It reasons that even though
“‘inducement’
implies
that
the
affirmative
misrepresentation or active deceit in some way caused
the plaintiff to enter the loan,” ante at 32 (emphasis
added), it can nonetheless find this element satisfied
by “predict[ing] that the state Supreme Court would
find that a plaintiff who proves unconscionable
conduct in the form of concealment will recover unless
the conduct was sufficiently attenuated from or
irrelevant to the loan’s formation that it did not
contribute to the formation of the plaintiff’s decision to
enter the loan,” id. at 35-36 (emphasis added). Such a
prediction is unprecedented and has no rational
foundation. It fundamentally fails to take into
account that to establish that the lender’s
concealment of something induced the plaintiff’s
agreement requires proof that the disclosure of that
information would have changed their decision. See
Brown, 737 S.E.2d at 655-56; cf. White v. Wyeth, 705
S.E.2d 828, 837 (W. Va. 2010).
Because the record contains no evidence that it
would have made any difference to the Aligs or the

70a
Sheas to have learned that their estimates had been
provided to the appraisers — the plaintiffs having
indeed foresworn the need to make such a showing —
I would vacate the district court’s summary judgment
on the statutory claim and remand with instructions
to grant summary judgment to the defendants.
B
To prove a claim under § 46A-2-121, the Aligs and
Sheas would not only have to prove inducement but
also establish that the inclusion of their home-value
estimates on the appraisal request forms without
disclosure to them amounted to “unconscionable
conduct” as a matter of law. W. Va. Code § 46A-2121(a)(1). In asserting that they established that
element, they argue that providing appraisers with
their estimates of home value “bias[ed] the result” of
the appraisals, but that Quicken Loans had presented
the appraisals to them as if they were “independent
estimates.” They characterize these posited facts as
the “‘equivalent to’ an affirmative misrepresentation.”
Surprisingly, the majority opinion simply accepts the
plaintiffs’ argument.
The plaintiffs’ elaboration of facts purporting to
demonstrate unconscionable conduct, however, is
sheer speculation.
The record shows nothing
malignant about the specific practice at issue here —
a practice that was common in the lending industry
and entirely consistent with the ethical standards for
appraisers under the USPAP. Certainly, the record
supports no claim that this conduct amounted to
fraud. Yet, in interpreting § 46A-2-121(a)(1), the West
Virginia Supreme Court of Appeals has expressly

71a
“equated” “conduct that is ‘unconscionable’ … with
fraudulent conduct.” One Valley Bank of Oak Hill, Inc.
v. Bolen, 425 S.E.2d 829, 833 (W. Va. 1992); see also
Mountain State College, 742 S.E.2d at 102 n.9 (same,
quoting One Valley Bank of Oak Hill, 425 S.E.2d at
833).
The unvarnished facts of record show that the Aligs
estimated the value of their home at $129,000 and
that the appraiser, despite having knowledge of their
estimate, gave an appraisal of $125,500, certifying
that the appraisal represented his impartial,
objective, and independent judgment based on
comparable sales. Likewise, the Sheas estimated the
value of their home at $170,000, and the appraiser,
despite having knowledge of their estimate, gave an
appraisal of $158,000, again certifying that the
appraisal represented his impartial, objective, and
independent judgment based on comparable sales. He
testified affirmatively that his appraisal was not
influenced by the Sheas’ estimate and that if he
believed that he had been retained to satisfy their
estimate, he would not have undertaken the
engagement.
Testimony was also presented that the practice of
providing the borrowers’ estimates to appraisers
served the legitimate purposes of helping price the
appraisal project and assigning it to an appraiser with
the right qualifications. And virtually every appraiser
who testified said that the inclusion of the borrowers’
home-value estimate on the order form engaging their
services did not affect their appraisals. The Uniform
Standards of Professional Appraisal Practice allowed
the appraisers to receive a borrower’s estimate so long

72a
as it was recognized that such estimate was only
informational and “not a condition for [the] placement
of [the] assignment.”
It defies common sense to suppose that, had the
Aligs and Sheas been told that the home-value
estimates in their loan applications would be provided
to the appraisers, they would have been outraged by
the practice. Indeed, their loan applications suggest
otherwise, as they agreed that Quicken Loans and its
agents or servicers could rely on the information. It is
quite telling that the Aligs and Sheas only challenged
the practice several years later, after the adoption of
the Home Valuation Code of Conduct, when
regulators changed the rules in recognition of the
practice’s potential for pernicious systemic effects.
But it certainly does not follow that Quicken Loans’
adherence to the prior practice can — standing alone
— be said to amount to conduct so “unconscionable”
that it would permit a court to “refuse to enforce” the
consumer’s refinance loan under § 46A-2-121 (a)(1).
Its conduct was neither unscrupulous nor fraudulent,
and disclosure of it would not have changed a thing.
The district court at least should have recognized
that it was engaging in unsupported findings of fact
that were rebutted by the evidence presented by
Quicken Loans, thus precluding summary judgment.
But based on the record before the court, it is apparent
that, as a matter of law, the Aligs and Sheas have not
shown that the practice that Quicken Loans followed
in 2007 and 2008 in processing their refinancing loans
was “unconscionable.”

73a
III
Finally, I would also vacate the district court’s
summary judgment in favor of the plaintiffs on their
contract claim and remand with instructions to grant
summary judgment to Quicken Loans.
The Aligs and the Sheas’ breach of contract claim is
based on the one-page Interest Rate Disclosure and
Deposit Agreement that Quicken Loans entered into
with prospective borrowers who were applying for
loans. As relevant here, that document provided:
Lender will begin processing your application
(which may include ordering an appraisal, credit
report, title commitment and other necessary
items) immediately upon the submission of your
application and deposit.…
With your deposit …, you authorize Lender to
begin processing your loan application and
advance out-of-pocket expenses on your behalf.…
If your application is approved: At the closing,
Lender will credit the amount of your deposit on
your closing statement toward the cost of your
appraisal and credit report. Any additional
money will be credited to other closing costs. If
your application is denied or withdrawn for any
reason: Lender will refund your deposit less the
cost of your appraisal and/or credit report.
The agreement thus contemplated that, in the course
of processing the prospective borrowers’ mortgage
loan applications, Quicken Loans would obtain an
appraisal of the subject property and that the
borrower would pay for that appraisal. And in this

74a
case, Quicken Loans did, as agreed, obtain appraisals
in connection with the Aligs and Sheas’ refinancing
transactions, and the Aligs and Sheas did, at closing,
pay for those appraisals.
The Aligs and Sheas contend — as the district court
ruled — that they did not get the benefit of this
bargain. They maintain that, by operation of the
implied covenant of good faith and fair dealing,
Quicken Loans was obligated to obtain a fair, valid,
and reasonable appraisal and that, because they were
not told that their home-value estimates had been
included on the appraisal order forms, they were
“deprived of the reasonable, fair, and unbiased
appraisals that they paid for.” The majority agrees as
to Quicken Loans’ contractual obligation to the
borrowers to obtain a fair, valid, and reasonable
appraisal, although it remands the claim for further
proceedings on whether that contract was breached
and whether damages resulted.
Even accepting that the Interest Rate Disclosure
and Deposit Agreement should be read as requiring
Quicken Loans to obtain fair and unbiased appraisals,
the mere provision of the borrower’s estimated value
to the appraiser could not categorically render each
appraisal unfair and biased, so as to give rise to a
breach of contract claim. Indeed, the evidence in this
case showed that when completing their appraisal
reports, each appraiser certified that he “performed
[the] appraisal in accordance with the requirements of
the Uniform Standards of Professional Appraisal
Practice,” and this certification was consistent with
the USPAP even when the appraiser received the
“owner’s estimate of value.” It is an erroneous exercise

75a
of judicial hindsight to now conclude from the simple
fact that Quicken Loans, like others in the industry,
included borrowers’ estimates on appraisal request
forms that the resulting certified appraisals were
categorically and necessarily biased and unfair in
breach of contract.
*

*

*

The judgment entered against Quicken Loans in
this case is manifestly inconsistent with West
Virginia law. As important, it is palpably unjust. A
thoughtful change in industry practice must not be
taken as an invitation to file such opportunistic, and
plainly wanting, litigation.

76a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST
VIRGINIA
Wheeling
PHILIP ALIG, SARA J.
ALIG, ROXANNE SHEA and
DANIEL V. SHEA,
individually and on behalf of a
class of persons,
Plaintiffs,

Civil Action
No. 5:12-CV-114
Judge Bailey

v.
QUICKEN LOANS INC., and
TITLE SOURCE, INC., dba
Title Source Inc. of West
Virginia, Incorporated,
Defendants.

ORDER RESOLVING MOTIONS
Pending before this Court are the following motions:
1. Plaintiffs’ Motion for Class Certification [Doc.
169];
2. Defendant Hyett’s
Judgment [Doc. 172];

Motion

for

Summary

77a
3. Plaintiffs’ Motion
Judgment [Doc. 173-1];
4.

for

Partial

Summary

Motion for Summary Judgment [Doc. 174];

5. Defendants Quicken Loans Inc.’ and Title
Source, Inc.’s Motion to Exclude the Opinions and
Testimony of Plaintiffs’ Experts, Matthew Curtin,
Pursuant to Rule 702 and Daubert [Doc. 176];
6. Defendants Quicken Loans Inc.’s and Title
Source, Inc.’s Motion to Exclude the Opinions and
Testimony of Plaintiffs’ Expert, Stephen McGurl,
Pursuant to Rule 702 and Daubert [Doc. 178];
7. Defendants Quicken Loans Inc.’s and Title
Source, Inc.’s Motion In Limine to Exclude Evidence
of Appraisers Petition [Doc. 201];
8. Defendants Quicken Loans Inc.’s and Title
Source, Inc.’s Motion In Limine to Exclude Evidence
or Argument Related to The Home Valuation Code of
Conduct or Dodd Frank Act [Doc. 203];
9. Plaintiffs’ Motion to Strike Portions of the
Declaration of Sherry Dukic which Are Inconsistent
with Deposition Testimony [Doc. 209].
Hyett’s Motion for Summary Judgment
This Court finds it appropriate to first address the
defendants’ motions for summary judgment, for the
reason that, if granted, the remaining motions may be
mooted. In response to the Motion filed by defendant
Richard Hyett [Doc. 172], the plaintiffs state that the
Sheas and Mr. Hyett have reached a settlement of all

78a
claims and request that the Court deny the Motion as
moot [Doc. 196]. Inasmuch as the motion does appear
to be moot, this Court will deny the Motion as moot
and, by separate order, has dismissed the claims
against defendant Hyett.
Quicken and Title Source’s Motion for
Summary Judgment
I.

Providing a Value to an Appraiser

The Motion filed by Quicken Loans and Title Source,
Inc. are not so easily resolved. In their motion, the
remaining
defendants
contend
that
under
McFarland v. Wells Fargo Bank, 810 F.3d 273 (4th
Cir. 2016), the plaintiffs’ claims are no longer viable.
The defendants argue that providing the appraiser
with the prospective borrowers’ own opinion as to
property value is not unconscionable as a matter of
law and in no way constitutes an attempt to influence
the appraiser’s opinion. The defendants also posit
that under McFarland unconscionable inducement
requires a higher standard of proof of fraud.
This Court views this Motion as a rehash of the
arguments made in connection with Defendants
Quicken Loans Inc. and Title Source, Inc.’s Motion for
Partial Judgment on the Pleadings [Doc. 72] and
Defendant Quicken Loans Inc.’s Motion to Strike
Class Allegations [Doc. 74], with the exception of the
arguments that the information conveyed to the
appraisers was the borrowers’ estimate of value and
that McFarland altered the landscape.

79a
In response to the previous motions, this Court
noted that the Fourth Circuit succinctly summarized
the plaintiffs’ allegations as follows:
Plaintiffs complain that Quicken Loans originated
unlawful loans in West Virginia and that
Defendant Appraisers, which includes both the
named appraisers and the unnamed class of
appraisers, were complicit in the scheme.
Plaintiffs allege that,
before
Defendant
Appraisers conducted an appraisal, Quicken
Loans would furnish them with a suggested
appraisal value.
Then, after purportedly
conducting the appraisal, Defendant Appraisers
arrived at the same appraisal value as the
suggested appraisal value. The problem with that
scheme, according to Plaintiffs, is that the
borrower would then close on a loan that was
underwater from the beginning.
Quicken Loans v. Alig, 737 F.3d 960, 963 (4th Cir.
2013).
Other courts have discerned the problem with the
practice of providing a “target number” to an
appraiser:
Appraisals are, essentially, an estimate of a
property’s market value as of a given date. A central
component of all residential appraisals is the selection
of comparable properties with which to assess the
value of the subject property (“comparables”).
Appraisers are supposed to select the best
comparables—which
typically
means
the
geographically closest properties with the most
similar characteristics, such as lot size, house size,

80a
style, and number of bathrooms—that have been the
subject of sales transactions within the past year.
Appraisers also consider market conditions, including
housing supply and demand in the property’s
neighborhood.
…
While accuracy and good faith should be the
watchwords of appraisers, it is easy for appraisers to
inflate their appraisals through their selection and
analysis of comparables. For instance, an appraiser
can choose a comparable from a nicer neighborhood,
ignore key features of a comparable’s sales price, such
as thousands of dollars of assistance with closing costs
or escrowed repair funds that are not associated with
the value of the property, or ignore more recent
comparables that reflect a local market’s turn for the
worse. An appraiser might also mislabel the number
of stories in a comparable, or fail to follow up on
evidence that a property had been flipped, raising
doubt about the sales price’s reflection of market
value.
For these reasons, the URAR [Uniform
Residential Appraisal Report] is supposed to include
sufficient information about each selected comparable
and its relevant characteristics to permit meaningful
review.
Appraisers may inflate their appraisals because of
pressure from loan officers. An officer may mention
the desired appraisal value he is seeking, ask for the
appraiser to call back if she cannot hit a specific value,
or send out appraisal assignments to multiple
appraisers with the explanation that the assignment
will be given to the first one who can find the target

81a
value. Appraisers can be made to understand that
their ability to receive future assignments depends
upon delivery of the desired results.
During the overheated housing market at issue
here, residential appraisers felt intense pressure to
inflate appraisals. Defendants’ appraisal expert,
Hedden, observed that such pressure was simply part
of what appraisers were faced with “on a regular
basis.”
Defendants’
appraiser
witnesses
acknowledged that they and other appraisers with
whom they worked experienced pressure to provide
“predetermined appraisal values.”
In a national survey of appraisers conducted in late
2006, 90% of the participating appraisers indicated
that they felt some level of “uncomfortable pressure”
to adjust property valuations. This was an increase of
35% from a survey conducted three years earlier.
Fed. Housing Fin. Agency v. Nomure Holding
America, Inc., 104 F.Supp.3d 441 (S.D. N.Y. 2015).
In Spears v. Wash. Mut., Inc., 2009 WL 605835
(N.D. Cal. March 9, 2009), the Court noted the
allegations of the complaint:
Plaintiffs bring this class action on behalf of all
consumers in California who received home loans
from WMB on or after June 1, 2006 with
appraisals obtained through EA or LSI.
According to the first amended complaint, home
purchases in the United States have traditionally
been financed through a third-party lender who
retains a security interest in the property until

82a
the loan is repaid. In order to ensure that the
secured lender will recoup the value of the loan if
the borrower defaults, the lender generally
requires that the property be professionally
appraised. Plaintiffs allege that in June of 2006
WMB, with EA and LSI, began a scheme to inflate
the appraised values of homes receiving loans in
order to sell the aggregated security interests in
the financial markets at inflated prices.
According to the complaint, banks like WMB
changed from a business model in which they held
the mortgage loans until repaid to one where they
sold the loans to financial institutions. This
“paradigm shift” created an incentive for the bank
to seek higher appraisals in higher volume.
The complaint describes a scheme in which
WMB allegedly conspired to inflate the appraised
value of property underlying their mortgage
loans. In 2006 WMB retained EA and LSI to
administer WMB’s appraisal program. EA and
LSI have since performed almost all of WMB’s
appraisals, and WMB’s borrowers have become
EA and LSI’s largest source of business. WMB
created a list of “preferred appraisers,” selected by
WMB’s origination staff, that it requested to
perform appraisals for WMB borrowers.
2009 WL 605385, at *1.
In the trial court case in Brown v. Quicken Loans,
Inc., Ohio County Circuit Court No. 08-C-36, Judge
Recht issued his findings of fact and conclusions of law
[Doc. 15-1]. With respect to the appraisal issue, Judge
Recht found: (1) that the appraisal was conducted by
Mr. Guida, who was formerly a defendant in this case;

83a
(2) that at the time the assignment was made, the
defendants provided Guida with an estimated value of
the property; (3) that there was no legitimate purpose
being served by providing the appraiser with an
estimated value of the property; (4) that the estimated
value given to the appraiser was $262,500, nearly
$200,000 more than the highest sale in the applicable
area; (5) that Guida appraised the property at
$181,700; (6) that the property was retrospectively
appraised at $46,000; and (7) that the appraisal gave
the plaintiff a false sense as to her ability to repay the
loan.
Judge Recht found that, as a matter of law, the loan
was induced by unconscionable conduct due to, inter
alia, negligently conducting the appraisal review and
failing to realize the highly inflated appraisal. The
Judge also found that the loan contained
unconscionable terms, including being based upon an
appraisal of $181,700 when the proper fair market
value was $46,000.
On appeal, the West Virginia Supreme Court of
Appeals found that based upon the appraisal and
other factors, the trial court was correct in finding
unconscionability. The Court did reverse a portion of
the remedy imposed by the Judge. Quicken Loans,
Inc. v. Brown, 230 W.Va. 306, 737 S.E.2d 640 (2012).
Syllabus Point 3 to the decision states:
3. ‘“The legislature in enacting the West Virginia
Consumer Credit and Protection Act, W.Va. Code
46A-1-101 et seq., in 1974, sought to eliminate the
practice of including unconscionable terms in
consumer agreements covered by the Act. To

84a
further this purpose the legislature, by the
express language of W.Va. Code, 46A-5-101(1),
created a cause of action for consumers and
imposed civil liability on creditors who include
unconscionable terms that violate W.Va. Code,
46A-2-121 in consumer agreements.” Syl. pt. 2,
U.S. Life Credit Corp. v. Wilson, 171 W.Va. 538,
301 S.E.2d 169 (1982).’ Syl. pt. 1, Orlando v.
Finance One of West Virginia, Inc., 179 W.Va.
447, 369 S.E.2d 882 (1988).” Syl. Pt. 3, Arnold v.
United Companies Lending Corp., 204 W.Va.
229, 511 S.E.2d 854 (1998), overruled, in part, on
other grounds, Dan Ryan Builders, Inc. v.
Nelson, 230 W.Va. 281, 737 S.E.2d 550 (2012).
230 W.Va. 306, 737 S.E.2d at 644.
The fact pattern in Herrod v. First Republic
Mortgage Corp., 218 W.Va. 611, 625 S.E.2d 373
(2005) is similar. According to the West Virginia
Supreme Court, “[f]ollowing the home visit, the loan
brokers prepared an appraisal request form on which
Mr. Young provided two figures suggesting
alternative values of $118,000 and $137,000 for the
Herrod home. The form was transmitted by facsimile
to Mr. Jack Weaver who worked for a real estate
appraisal company known as Craddock’s Last Stand
in Parkersburg, West Virginia. Purportedly, there
was an arrangement between Mr. Weaver and First
Security whereby Mr. Weaver would provide inflated
appraisals in connection with loans being pursued by
First Security. When the appraisal report came back,
the Herrod home was valued at $118,000.” 218 W.Va.
at 614, 625 S.E.2d at 376.

85a
The Court added in footnote 11 that “[t]he
arrangement purportedly involved the use of two
figures on the appraisal request form; one being a
“deal breaker” and the other a so-called “Christmas
figure.” Mr. Weaver would instruct one of his
appraisers to inspect the property and then someone
in the home office would complete the report by
providing the comparables necessary to obtain the
value sought by the loan broker.
Similarly, in Carroll v. JPMorgan Chase Bank,
N.A., 2013 WL 17328, *1 (S.D. W.Va. Jan. 16, 2013)
(Copenhaver, J), the plaintiff alleged that the
defendant “solicited Plaintiff and her husband to
refinance their home, and in connection therewith
Aegis intentionally obtained an inflated appraisal—as
was its practice—which wrongfully valued the home
to be worth at least $290,000.”
In Hatcher v. Bank of America, 2013 WL
1776091, * 1 & 4 (S.D. W.Va. April 25, 2013)
(Copenhaver, J), the defendant is alleged to have
arranged for an appraisal with an inflated suggested
value in excess of the property’s true value, as was its
normal procedure.
Chief Judge Chambers of the Southern District of
West Virginia also refused to dismiss a claim of
unconscionability where the allegations included the
overvaluation of plaintiff’s home. Petty v.
Countrywide Home Loans, Inc., 2013 WL 1837932,
*4 (S.D. W.Va. May 1, 2013). In accord is Heavener
v. Quicken Loans, Inc., 2013 WL 2444596 (N.D.
W.Va. June 5, 2013) (Groh, CJ).

86a
In its Order Denying Defendant Quicken Loans
Inc.’s Motion to Strike Class Allegations [Doc. 105],
this Court noted that the then state of West Virginia
law required a finding of both substantive and
procedural unconscionability, but noted that certain
members of the Court were questioning whether both
were required. The Fourth Circuit, in McFarland,
resolved the issue finding that only procedural or
substantive unconscionability is required.
This Court finds that the estimated value may have
been provided by the borrower is a distinction without
a difference. According to Quicken, when a borrower
applied for a loan, information was entered into
Quicken’s loan origination system, including an
estimated home value, for purposes of developing a
loan proposal. [Doc. 206-1, Exh. A, Lyon Dep.]. The
estimated value, along with a borrower’s contact
information, would be uploaded into Quicken’s
computer system AMP and then sent automatically to
Quicken’s sister company, TSI. [Doc. 206-1, Exh. B,
Randall Dep. & Exh. C, Rankin Dep.]. TSI in turn
would use this information, including the estimate of
value, to generate an appraisal request form. [Doc.
206-1, Exh. C, Rankin Dep.]. The request form along
with the estimated value would be passed to the
appraiser selected from a pre-approved list of
appraisers through a proprietary internet based
system, known as Appraisal Port. [Doc. 206-1, Exh.
C, Rankin Dep. & Exh. A, Lyon Dep.].
It is actually unclear who really provided the
estimated value. For example, both the Aligs and
Sheas denied having provided such a figure to the
lender. [Doc. 206-1, Exh. D., Alig Dep. & Exh. E, Shea

87a
Dep.]; see also [Doc. 206-2, Exh. F., Mem. of Op. &
Order in Brown v. Quicken Loans (Findings of Fact
& Conclusions of Law) (Feb. 25, 2010) at ¶ 18 (“It is
unclear as to who provided the Anticipated Property
Value.”); [Doc. 206-2, Exh. G, Lyon Trial Testimony
Vol. 5 (Oct. 9, 2009) at 84:15-85:4 (“I do not know if
[the applicant’s estimated value] came from [the
consumer] or came from [Quicken’s mortgage
banker])].
While the factual issue of who really supplied the
estimated value to the appraiser might be sufficient
in and of itself to defeat the defendants’ motion for
summary judgment, for the purposes of this order, the
Court will accept that the value was supplied to
Quicken by the borrower.
A borrower’s estimated value is not materially or
logically distinguishable from a “target appraisal
value” or “predetermined value”. This Court is not
aware of any industry source or other authority that
has drawn such a distinction. In fact, John Brenan,
the corporate designee for the Appraisal Foundation,
actually testified that one of the functions of a
borrower’s estimated value was to serve as a “target
value”. [Doc. 193-7 at 231:3-234:12.]
No matter who supplied the estimated value, this
Court cannot imagine any logical basis for sending an
estimated value to the appraiser other than to
influence his or her opinion.
This is supported by e-mails written by Quicken’s
executives that were uncovered by the Department of

88a
Justice in a recent investigation of Quicken, one of
which stated:
FNMA [Fannie Mae] is being dragged into a
lawsuit in the state of New York over lender
pressure on appraisals. I don’t think the media
and any other mortgage company (FNMA, FHA,
FMLC) would like the fact we have a team who is
responsible to push back on appraisers
questioning their appraised values.
[Doc. 206-2, Exh. I, Email from C. Bonkowski to H.
Lovier, cc: M. Lyon (Dec. 13, 2007)].
In another e-mail uncovered by the Department of
Justice,
senior
management
at
Quicken
acknowledged in November of 2007 that its sister
company, TSI, was receiving “a lot of calls from
appraisers stating that they can’t reach our requested
value.” Senior management’s directive was to simply
ask the appraisers “for the max increase available.”
[Doc. 206-2, Exh. J, Email from D. Thomas to E.
Czyzak, et. al., cc: D. Wright (Nov. 27, 2007)].
The defendant appraiser in Quicken Loans v.
Brown, 230 W.Va. 306, 737 S.E.2d 640 (2012), and
former defendant here, Dewey Guida, recently
conceded after surrendering his appraisal license that
Quicken was regularly and actively attempting to
influence his appraisals. Appraiser Guida testified on
January 12, 2016, that any time his appraised value
came in lower than the owner’s estimated value, he
received a telephone call from TSI asking that he
change his figures. [Doc. 169-2, Guida Dep. at 44:28]. Guida went on to characterize the providing of an
“owner’s estimated value” as a “tip-off” [Doc. 169-2 at

89a
40, 42-45, 104-105, 107-109]. This same scenario
played out in the Alig 2007 loan, where Guida
acquiesced to the requested value increase that was
needed to qualify that loan. [Doc. 169-2 at 95:7-96:18,
99:5-100:18].
After an amendment to statute made Ohio’s
Consumer Sales Act applicable to mortgage lenders
effective January 1, 2007, the Ohio Attorney General’s
office wasted no time and filed a number of lawsuits
targeting the practice of lenders and brokers
influencing appraisers by placing a “borrower’s
estimated value” on the appraisal order. Ohio courts
uniformly concluded that the act of providing an
estimated value for a property in connection with a
mortgage loan is an unconscionable act or practice in
violation of Ohio law because it is an attempt to
improperly influence the appraiser’s independent
judgment. See, e.g., State ex rel. Dann v. Premiere
Service Mortgage Corp., Case No. CV-2007-06-2173
(Butler Cty. Apr. 30, 2008); State ex rel. Rogers v.
Ace Mortgage Funding, LLC, Case No. A0705054
(Hamilton Cty. Sept. 23, 2008); State ex rel. Cordray
v. First Ohio Banc & Lending, Inc., Case No. 07CV-259 (Belmont Cty. Nov. 24, 2009); State ex rel.
Cordray v. Apex Mortgage Services, LLC, Case No.
07-CV-261 (Belmont Cty. Mar. 10, 2009), [collectively
Doc. 206-3, Exh. O].
It is undisputed that Quicken did not inform
borrowers of its appraisal practices. TSI’s third party
software, Appraisal Port, is designed to “ensure[] that
information exchanged between [TSI] and the
appraiser is not accessible to any third party.” [Doc.
2062, Exh. K, Petkovski Decl. at ¶ 5 (emphasis

90a
added)]. Moreover, Quicken did not produce a single
appraisal request form and discarded them after
providing the form to the appraiser. [Doc. 206-2, Exh.
L, Petkovski Dep. at 59:18-60:8].
Quicken first contends that passing an “applicant’s
estimated value” on appraisal engagement letters was
not improper. However, in February, 2010, Judge
Recht concluded in an Ohio County, West Virginia
case styled Brown v. Quicken Loans Inc., Civ.
Action No. 08-C-36, that “[n]o legitimate purpose is
served by providing an appraiser with an estimated
value of a property. The only purpose could be to
inflate the true value of the property.” [Doc. 206-2,
Exh. F]. This finding supported multiple liability
conclusions. See also, Herrod v. First Republic
Mortgage Corp., 218 W.Va. 611, 617-618, 625 S.E.2d
373, 379-380 (2005) (reversing a trial court’s grant of
summary judgment to a mortgage lender where an
appraiser was provided with an estimated value).
Efforts to regulate this practice go back more than
20 years. For example, in 1996, the Federal Housing
Commissioner issued appraisal standards to be
followed in all HUD-approved mortgage transactions.
Under these standards, the appraiser was required to
certify that the appraisal was not “based on a
requested minimum valuation, [or] a specific
valuation or range of values.” 1 In 2005, all the major
federal agencies with lending oversight joined in and
[Doc. 206-7, Exh. LL, pp. 30-32, Mortgagee Letter 96-26,
dated May 21, 1996 and authored by Nicholas P. Retsinas,
Assistant Secretary for Housing, on behalf of the Federal
Housing Commissioner].
1

91a
issued an “Interagency Statement,” advising in
pertinent part: “the information provided [to the
appraiser] should not unduly influence the appraiser
or in any way suggest the property’s value.” 2
(Emphasis added).
Quicken argues that USPAP does not forbid the
practice. Quicken ignores the fact that USPAP does
not apply to lenders. Lending standards regarding
appraiser independence are separate and stronger
than standards set by the appraisal industry. [Doc.
206-7, pp. 13-21, Exh. JJ, Brenan Dep. at Dep. at
280:15-281:8;
290:8-292:4
(agreeing
lender
restrictions pertaining to estimated values go “beyond
what USPAP requires.”)].
John Brenan did not endorse the use of estimated
values under USPAP. Instead, he acknowledged that
estimated values are potentially a problem and can be
used by the lender as a means to provide a target
figure. ( Id. at 233:5-235:16). If a lender provided an
estimated value, the appraiser was advised in
Advisory Opinion 19 of USPAP [See Doc. 206-7, pp. 2328, Exh. KK] to communicate directly with the lender
to insure a full understanding that the appraiser was
not “hitting a target” figure. Id. The better practice,
however, and the one insuring the appraiser’s
Office of the Comptroller of the Currency, Board of Governors
of the Federal Reserve System, Federal Deposit Insurance
Corporation, Office of Thrift Supervision, National Credit Union
Administration, Frequently Asked Questions on the Appraisal
Regulations and the Interagency Statement on Independent
Appraisal and Evaluation Functions, March 22, 2005. Available
http://www.occ.gov/news-issuances/bulletins/2005/bulletinat
2005-6a.pdf.
2

92a
independence, was to remove the estimate entirely.
[See id. at 241:20-242:18].
While several of the appraisers that testified in this
matter denied giving in to the attempts of Quicken
and other lenders at influencing them, even the
defendant appraisers agree an applicant’s estimated
value is not a relevant data point. In fact, the
testifying appraisers distanced themselves from such
figures as taboo and all agreed that this information
is in no way necessary to performing an appraisal.
[See, e.g., Doc. 206-5, Exh. Y, Guida Dep. at 107:23108:7; Doc. 206-7, Exh. II, Hyett Dep. at 353:7-21;
355:4-11 (figure was not relevant and serves no
purpose); Doc. 206-3, Exh. N, Sneddon Dep. at 181:13182:25 (estimated values on order forms are
“inappropriate,” and Advisory Opinion 19 tells
appraisers that they are “delving into” a “dangerous
area” and “there might be a problem” with such a
form).] Plaintiffs’ appraisal expert, John Kelly,
testified that USPAP required him to refuse
assignments that contained an estimated value. [Doc.
206-3, Exh. M, Kelly Dep. at 69:6-15; see also Doc. 2067, Exh. MM, Lyon Dep. at 52:15 - 53:6 (agreeing
estimated values were not necessary)]. In addition,
appraisers like Jody Hill, who only worked for local
lenders such as Wesbanco Bank and Main Street
Bank, were not subject to such a practice. [Doc. 2066, Exh. FF, Hill Dep. at 14:19-15:6, 100:22-103:23.]
Quicken
next
attempts
to
argue
that
unconscionability is equivalent to fraudulent
inducement and requires proof by clear and
convincing evidence. The McFarland Court declined
to make that finding, nor did the legislature choose to

93a
equate the two concepts. Quicken further contends
that it took no affirmative acts to deceive plaintiffs or
conceal any material facts from them or that its
failure to disclose this practice caused plaintiffs to
enter into the loan contracts. This Court cannot
agree.
Quicken “affirmatively” passed on the
estimated values to TSI, who in turn passed them to
appraisers, while failing to disclose this conduct from
plaintiffs. Finally, Quicken erroneously argues that
there is no remedy for this conduct.
W.Va. Code § 46A-2-121 broadly addresses the
subject of unconscionability in consumer contracts.
Both the plain language of the statute and the courts
interpreting the statute are clear that W.Va. Code
§ 46A-2-121
recognizes
two
species
of
unconscionability, general unconscionability and
inducement by unconscionable conduct. Importantly,
the inducement by unconscionable conduct claim is
predicated solely on the process leading up to contract
formation and entirely independent of any showing of
substantive unconscionability. McFarland, 810 F.3d
at 283.
In McFarland, like here, plaintiff alleged that the
defendant lender had inflated his home appraisal.
810 F.3d at 277. However, as counsel for Wells Fargo
repeatedly stressed: 3
There is no evidence whatsoever that the
appraisal was “fraudulent” or that the appraiser
was provided with an estimated value. Nor is
there evidence that Wells Fargo or U.S. Bank had
3

The defendants here are represented by the same counsel.

94a
any knowledge that the appraisal was anything
other than a bona fide appraisal on which they
could rely. In short, this case does not involve the
sort of unscrupulous conduct the West Virginia
legislature sought to prevent by enacting the
WVCCPA.
Appellee Br. in McFarland (Appeal No. 14-2126,
Doc. 33 at 26.)
The Fourth Circuit was also persuaded by the West
Virginia Supreme Court’s decision in Quicken Loans
I, supra, where the court “sustained findings of
‘unconscionability in the inducement’ based entirely
on conduct predating acceptance of the contract and
allegations going to the fairness of the process,
without regard to substantive unconscionability: a
‘false promise’ of refinancing, the sudden introduction
of a balloon payment at closing, a negligently
conducted appraisal review, and other similar
factors.” 810 F.3d at 284 (citing Quicken I, 230 W.Va.
323-324, 737 S.E.2d at 657-58). The Court further
noted that unconscionable inducement was not
equivalent to procedural unconscionability and should
turn on a defendant’s misconduct, such as
“affirmative representations,” and “active deceit.” 810
F.3d at 286. The Court left “to West Virginia law the
precise contours of an unconscionable inducement
claim”. Id.
According to Quicken, “the Fourth Circuit equated
unconscionable
inducement
with
fraudulent
inducement.” [Doc. 175, at 18.] Ignoring most of
McFarland’s analysis, Quicken simply leaps to the
conclusion that an unconscionable inducement claim

95a
under W.Va. Code § 46A-2-121 is nothing more than a
straw man for fraud.
This Court does not understand McFarland the
same way. First of all, McFarland makes it clear
that it is the conduct of the lender that is relevant,
rather than the status of the plaintiff. 810 F.3d at
286. The conduct forming the basis of the claim here
is passing a tip off figure to an appraiser without a
borrower’s knowledge or consent. McFarland did not
delve deeply into the nature of unconscionable
conduct, leaving that process to West Virginia’s
courts. However, we can gain some understanding of
what unconscionable conduct means through the facts
of the Brown and McFarland cases.
In Brown, the plaintiffs alleged that the lender,
Quicken, engaged in a pattern of unconscionable
conduct with the intent of inducing them into
accepting an underwater mortgage loan. The West
Virginia Supreme Court agreed:
With regard to unconscionability in the
inducement, the circuit court in the present case
concluded that the unconscionable conduct of
Quicken included “[t]he false promise of
refinancing; [i]ntroducing a balloon payment
feature at closing; [f]ailing to properly disclose the
balloon payment; [f]alsely representing that the
plaintiffs were buying the interest rate down; and
[n]egligently conducting the appraisal review and
failing to realize the highly inflated appraisal
from Guida[.]”
230 W.Va. at 323, 737 S.E.2d at 657.

96a
The Supreme Court affirmed, concluding that “there
is no merit to Quicken’s contention that it did not
violate West Virginia Code 46A-2-121 in this regard.”
230 W.Va. at 324, 737 S.E.2d at 658. Thus, the Court
expressly found that Quicken’s conduct before and
during the closing was unconscionable in nature.
Quicken’s conduct in Brown fell into two broad
categories—false statements and withholding facts
from the plaintiffs. McFarland did not attempt to
precisely define unconscionable inducement, but it did
expressly identify two of the potential hallmarks of
unconscionable conduct, misrepresentations and
deceit. McFarland did not define unconscionable
inducement to mean fraud. In fact, the lender in
McFarland specifically argued that “unconscionable
inducement requires a heightened showing akin to
fraud” in arguing against certification of plaintiff’s
question regarding an unconscionable inducement
claim. (Appeal 14-2126, Def. Opp. to Pl. Motion to
Certify Questions, Doc. No. 65-1 at 8 (Nov. 23, 2015)).
McFarland apparently rejected the invitation to
equate unconscionable inducement with fraud, and
the word “fraud” never appears in its discussion of the
unconscionable inducement issue.
Instead,
McFarland offers misrepresentation and deceit as
examples of conduct that could constitute
unconscionable inducement--examples drawn from
the facts of the Brown case itself.
Quicken points to a footnote in Mt. State College
v. Holsinger, 230 W.Va. 678, 742 S.E.2d 94 (2013),
for the proposition that unconscionable inducement
can be equated to fraudulent conduct. It is settled
that “language in a footnote generally should be

97a
considered obiter dicta and that if [the West Virginia
Supreme Court of Appeals] is to create a new point of
law, it will do so in a syllabus point and not in a
footnote. ” Valentine v. Sugar Rock, Inc., 234
W.Va. 526, 532, 766 S.E.2d 785, 791 (2014) (quotation
omitted).
Unconscionable inducement could, of
course, be satisfied by demonstrating fraudulent
conduct, but that is not to say that this case stands for
the proposition that only fraudulent conduct will
satisfy the unconscionability standard.
The facts here supporting a finding of
unconscionable conduct, as in Brown, are simple and
clear. Quicken influenced the appraisers to meet a
passed on value, and it did so while failing to disclose
the practice to plaintiffs. The CCPA must be liberally
construed so as to effect its remedial purposes. Barr
v. NCB Mgmt. Servs., Inc., 227 W.Va. 507, 711
S.E.2d 577 (2011). It makes no sense to extend the
CCPA in the fashion proposed by Quicken so as to
limit borrowers’ rights to those that already exist at
common law. There is ample evidence in the record
that passing on an estimated value is an
unconscionable practice that was part of the
inducement for plaintiffs’ loans.
Quicken’s conduct here also falls within the two
examples, misrepresentation and/or deceit, of
unconscionable conduct given by McFarland. Deceit
is by its nature broad in scope and would encompass
Quicken’s conduct in the instant matter. Deceit is
defined
as
“a
fraudulent
or
deceptive
misrepresentation, artifice, or device used by one or
more persons to deceive or trick another.” Black’s Law
Dictionary (5th Ed. 1979). Deceit, then, would not

98a
only cover Quicken’s attempts to prejudice or
influence appraisers but also Quicken’s withholding of
such practice from borrowers. As it did in the Brown
case, Quicken possessed knowledge of the true facts of
the Aligs’ loan, namely that it was actively attempting
to compromise the appraisal process. Specifically,
pressure was being brought to bear on the appraiser,
who was expected to meet or exceed a target figure
that Quicken itself had provided not once but twice (in
the case of the Aligs). By concealing these facts,
Quicken meant to “deceive or trick” the plaintiffs.
Quicken’s conduct was therefore unconscionable even
if the definition of unconscionability was limited to the
two examples given by McFarland.
We see this in Brown’s treatment of the balloon
note. Quicken did not secrete the balloon note or say
anything at the closing to deflect the borrower’s
attention from it. Instead, the balloon note simply
appeared within the settlement package that was
presented to the borrowers for signing. Quicken knew
it was there. The borrowers did not know what they
were walking into. As Brown noted, “fraud is the
concealment of truth just as much as it is the
utterance of a falsehood.” 230 W.Va. at 320, 737
S.E.2d at 654. Nothing further was required to prove
that the loan was, in fact, unconscionably induced as
a result of concealing the balloon note.
The same logic applies here. To repeat, Quicken had
full knowledge of its practice of providing estimated
values to its appraisers for purposes of influencing
their appraisals. Quicken’s Rule 30(b) witness and
internal documents confirm beyond any doubt that
estimated values were used by Quicken as a means of

99a
communicating targets to its appraisers. Quicken
knew these facts. The plaintiffs did not. Under the
analytical framework of both McFarland and
Brown, this constituted unconscionable inducement.
Defendants set up four additional arguments why
their conduct is not actionable. First, defendants
argue there is no proof their unconscionable conduct
actually induced the plaintiffs to enter into their loan
agreements. It is important to again note the
statutory language. A violation exists when “the
agreement or transaction … [has been] induced by
unconscionable conduct.” W.Va. Code § 46A-2-121.
The focus is plainly on the lender or creditor’s conduct.
The statute says nothing of the consumer’s state of
mind.
If the “transaction” itself is induced or
furthered by the lender’s unconscionable conduct, that
is enough for a violation.
Apparently, Quicken is not taking the extreme
position that there is no remedy for conduct that is
unconscionable per se. Indeed, Quicken acknowledges
in its Memorandum in Support of Summary
Judgment that a practice that is illegal would be per
se unconscionable. [Doc. 175 at n. 18 (citing Dijkstra
v. Carenbauer, 2014 WL 791140 (N.D. W.Va. Feb.
26, 2014)]. In Dijkstra, this Court granted summary
judgment to the plaintiff and found the closing of a
loan without an attorney present to be unconscionable
per se on account of West Virginia common law and an
opinion of the Committee on Unauthorized Practice of
Law. Dijkstra, 2014 WL 791140, at **4-5. The
plaintiffs here are asking the Court to do what it did
in Dijkstra: to find that based on West Virginia
common law and other persuasive authority identified

100a
above the lender’s practices constitute unconscionable
inducement.
Under West Virginia law there is no requirement to
show reliance in claims involving concealment.
Logically, it would be impossible to even make such a
showing: How can anyone prove that they relied on a
fact that was concealed from their knowledge? Even
the higher standard for fraudulent concealment would
not require proof of reliance, but instead involves only
“concealment of facts by one with knowledge, or the
means of knowledge, and a duty to disclose, coupled
with an intention to mislead or defraud.” Livingston
v. K-Mart Corp., 32 F.Supp.2d 369, 374 (S.D. W.Va.
1998) (Haden, J.) citing Pocahontas Min. Co. Ltd.
P’ship v. Oxy USA, Inc., 202 W.Va. 169, 175, 503
S.E.2d 258, 264 (1998) (in turn explaining that
“[o]bviously, one who is defrauded [by fraudulent
concealment] cannot possibly take any affirmative
action to indicate reliance, since he knows nothing of
the deception”); see also Adair v. EQT Prod. Co.,
2013 WL 5429882, at *39 (W.D. Va. Sept. 5, 2013)
(“the doctrine of fraudulent concealment does not
focus on the actions or knowledge of the plaintiffs, but
on the actions of the defendant.”).
Quicken’s second argument is that “appraisals are
obtained for the benefit of the lender, not the
borrower.” [Doc. 175, at 22]. In other words, as
borrowers, plaintiffs were not justified in relying on
the appraisal because it was obtained by the bank and
for the bank. This is not borne out by the record.
Quicken itself represents to borrowers that “[t]he
appraisal will protect you from owing more on your
loan than your home is worth, which is known as

101a
being underwater.” The certification by the appraisers
here explicitly states that others, including the
borrower, can rely on the appraisal and its figures. In
November 2005, Fannie Mae explained that the
certification appearing on all of its appraisal forms
was revised to reflect the fact that borrowers “should
be able to rely on the accuracy of an appraisal report
prepared by a state-licensed or state-certified
appraiser and the appraiser should be held
accountable for the quality of that appraisal because
their reliance is customary and reasonable.” [Doc.
206-7, Exh. NN at 3]. Finally, it should be noted this
court itself addressed the same issue in a prior order,
finding that the plaintiffs’ negligence claim against
one of the appraisers, i.e., Hyett, was viable because
the plaintiffs were justified in relying on the appraisal
he prepared. [Doc. 61].
Quicken’s third argument is that it took no
“affirmative action” with respect to concealing the
passing of the estimated value. But in the same
paragraph, it acknowledges that Quicken passed the
estimated value on to TSI, who, in turn, included the
estimated value on the appraiser engagement letters.
[Doc. 175, at 20-21]. In fact, TSI’s third party
software, Appraisal Port, is designed to “ensure[] that
information exchanged between [TSI] and the
appraiser is not accessible to any third party,
including the lender.” [Doc. 206-2, Exh. K, Petkovski
Decl. at ¶ 5].
Quicken’s fourth argument is that the plaintiffs did
not suffer any damage or detriment. Specifically,
Quicken argues that plaintiffs must show that
plaintiffs and other class members were actually

102a
harmed by this practice by receiving an upside down
mortgage. This standard is contrary to the stated
purpose of this claim, which is to provide a cause of
action in situations where damages in the form of a
substantively unconscionable loan are not present.
For that reason, the WVCCPA provides that a person
who has been subjected to unconscionable conduct
may recover actual damages and the right to recover
of $1,000 per violation. West Virginia Code § 46A-5101. See Syl. pt. 2, Vanderbilt Mortg. & Fin., Inc.
v. Cole, 230 W.Va. 505, 740 S.E.2d 562 (2013) (“under
W.Va. Code § 46A-5-101(1) (1996), an award of civil
penalties is not conditioned on an award of actual
damages.”). Actual damages are therefore not a
necessary component of the claim. In this respect this
case is no different from Dijkstra, where this Court
did not require plaintiff to prove that each individual
class member had suffered actual damages due to a
witness only closing.
The defendants are also not entitled to summary
judgment on the plaintiffs’ contract claims. West
Virginia law implies in every commercial contract a
covenant requiring the parties to act in good faith.
See, e.g., Barn-Chestnut, Inc. v. CFM Dev. Corp.,
193 W.Va. 565, 572, 457 S.E.2d 502 (1995). The duty
of good faith imposes real obligations that are
grounded in honest dealing and compliance with
standards of commercial reasonableness: “The test of
good faith in a commercial setting is … honesty in fact
and the observance of reasonable commercial
standards of fair dealing in the trade.” BarnChestnut, 193 W.Va. at 572, 457 S.E.2d at 509
(interior quotes omitted).

103a
The plaintiffs and Quicken executed a contract at
the beginning of the loan application process known
as an “Interest Rate Disclosure and Deposit
Agreement.” [Doc. 206-5, Exh. X]. Quicken argues
that no part of the contract imposes any obligation on
Quicken to obtain an acceptable appraisal. Under the
language of the contract, Quicken undertakes to
“[o]btain an appraisal.” At the end of the process the
lender must make a proper accounting of the deposit
and credit it “toward the cost of your appraisal.”
The agreement also specifically refers to an
“acceptable” appraisal. This language is significant.
What exactly is an “acceptable” appraisal? Because
the contract is silent on the subject, it must, under
settled law, be interpreted against the lender and in
favor of the borrower. See, e.g., Auber v. Jellen, 196
W.Va. 168, 469 S.E.2d 104 (1996) (ambiguous contract
provisions, “especially those having the qualities of a
contract of adhesion,” must be construed against the
drafter). Furthermore, because this involves how
Quicken must perform under the contract, the implied
covenant also comes into play.
All of this demonstrates that the agreement in
question is meant to facilitate the loan application
process by having the lender, Quicken, obtain an
“acceptable” appraisal, which, at a minimum, would
require Quicken to deal honestly with its borrowers
and in keeping with the prevailing standards of
reasonableness. Quicken has admitted that the
borrower has an expectation of a fair, unbiased, and
reasonable proposal. [Doc. 206-1, Exh. B, Randall II
Dep. at 99:18-100:5]. In refusing to dismiss this Count
in its October 2015 Order, this Court stated: “What is

104a
clear is that the plaintiffs each deposited a sum of
money with Quicken, and, in turn, Quicken agreed to
obtain an appraisal of the property and process the
loan application. This Court finds that it was a
necessary corollary of obtaining an appraisal that the
defendant would obtain a fair, valid and reasonable
appraisal of the property.” (Order Denying in Part &
Granting in Part Motion for Partial Summ. J. at 7)
[Doc. 107].
Inasmuch as providing a target figure to an
appraiser is a practice that is universally condemned
and serves no legitimate purpose, an appraisal
obtained by that process cannot conceivably be an
“acceptable” one. Nor could an appraisal obtained by
such a scheme be fair, valid or reasonable.
Furthermore, withholding knowledge of the true
nature of the appraisal violates Quicken’s duty to deal
honestly.
According to Quicken, however, the language
requiring an “acceptable” appraisal “appears in the
disclosure portion of the document.
Under no
plausible construction can this language be read as a
promise by Quicken Loans to do anything.” [Doc. 175,
at 25]. The language is clearly contractual in nature-it imposes specific duties that must be fulfilled in
connection with the deposit and the processing of the
appraisal. For example, the lender undertakes to
“begin processing your application ... immediately
upon the submission of your application and deposit.”
The borrower “agree[s] to cooperate in the application
process.” In addition, the borrower “agree[s] to notify
lender of any changes in any information submitted.”

105a
These are not disclosures; they are part and parcel of
the contractual undertaking.
Quicken also tries to dismiss the reference to an
“acceptable” appraisal, claiming that “receipt of an
acceptable appraisal clearly means an appraisal
acceptable to the lender, not the borrower, to support
the loan.” [Doc. 175, at 25 (emphasis in original)]. But
this is nothing more than Quicken’s own, self-serving
interpretation. The contract itself is silent. Any
appraisal Quicken obtained was intended for the
benefit of both the lender and the borrower.
The Motion will be denied as to this issue.
II.

Flat Fee for Courier Services

The plaintiffs also claim that the imposition of a flat
rate for courier fees is excessive and therefore
unconscionable. Title Source charged plaintiffs a $45
flat fee for express mail and courier services provided
in connection with the closings. [Docs. 174-12, 174-17
& 174-20]. The express mail/courier fee was not paid
directly to any third party because it is charged for
services provided by multiple entities. [Doc. 174-28, ¶
6]. Defendants claim to have set the $45 fee after
conducting a market analysis to determine what other
lenders in the industry charged for similar services
and the average number and cost of services provided
per transaction. [Doc. 174-28].
The $45 fee compensates defendants for express
mail and courier services actually performed,
including, but not limited to: (i) mailing the executed
closing package back to Title Source via next day air

106a
delivery; (ii) sending via overnight delivery or wiring
the payoffs for the borrower’s preexisting mortgage(s),
third party debts, judgments, liens, taxes,
homeowner’s insurance, and/or cash-out proceeds to
the borrower; (iii) delivering the executed deed of trust
to the county for recording; and (iv) employee time in
tracking deliveries, preparing documents for mailing,
and scanning in executed documents. [Doc. 174-28, ¶
7; Doc. 174-13, Exh. A at 11].
The number and type of services provided to each
borrower - which is not known until after closing varies based on the borrowers’ individual
circumstances. [Doc. 174-13, ¶ 3-4, Exh. A at 12-13].
For UPS services, Title Source receives a monthly
discount that fluctuates based on volume for that
month. [Doc. 174-31, p. Dep. 32]. Plaintiffs’ expert,
Stephen McGurl, admitted that the exact cost of UPS
services, without the end-of-month discount, is more
than double the amount of the discounted charge.
[Doc. 174-32, 134-35]. In other words, had Title
Source charged the exact UPS fee at the time of the
shipments, plaintiffs would likely have paid well over
$45.
The express mail/courier fee of $45 is disclosed to
borrowers before closing on the good faith estimate
(GFE) and again on the HUD-1 settlement statement.
[Doc. 174-28, ¶ 5; Exhs. 12, 17, 20.]. Plaintiffs
received and signed these documents, agreeing to the
fee in advance of closing. [Id.]. None of the plaintiffs
questioned or disputed the fee.

107a
Plaintiffs do not dispute that Title Source actually
provided courier services to plaintiffs in connection
with their loan closings and disbursements. The
evidence shows that Title Source arranged for at least
four express mail/courier services for each of the
plaintiffs’ loans, including sending the return
package, deed of trust to the county for recording,
payoffs for liens, and cash to borrowers. [Doc. 175, at
20]. In addition, Title Source employees provided
services in connection with these deliveries, such as
printing labels, tracking packages and confirming
delivery. [Doc. 174, at 19]. Plaintiffs have presented
no evidence that the $45 fee is anything other than
reasonable in light of the services actually provided by
Title Source.
Likewise, plaintiffs do not dispute that it is
impossible to know, prior to closing, exactly what
charges will be incurred for express mail/courier
services. One may not know the exact cost of mailing
something in advance - it depends on the service used,
the number of packages, the size of the packages, the
weight of the packages, the locations to which the
packages
are
mailed,
and
other
pricing
considerations.
Given the impossibility of
determining costs before closing, it is standard in the
industry - and permitted by RESPA - to charge a flat
fee for express mail/courier services. See, e.g., Price
v. Landsafe Credit, Inc., 2006 WL 3791391 *7 (S.D.
Ga. Dec. 22, 2006) (“Courts have rejected challenges
to the reasonableness of flat-fee price structures, even
though cross-subsidization between customers is
inherent in such an arrangement.”).

108a
Plaintiffs rely upon Dijkstra v. Carenbauer, 2014
WL 791140 (N.D. W.Va. Feb. 26, 2014) to support
their claim. In Dijkstra, however, the amount of the
notary’s fee was set by statute.
There is no
comparable statute in this case.
This Court will grant summary judgment on this
claim.
Class Certification
With regard to the issue of class certification, the
plaintiff seeks certification of two classes. This
Court’s ruling on the issue of courier fees obviates the
need for the second class. With respect to the first
class, plaintiff seeks a class defined as follows:
All West Virginia citizens who refinanced
mortgage loans with Quicken, and for whom
Quicken obtained appraisals through an
appraisal request form that included an estimate
of value of the subject property.
According to plaintiffs, this case is ideally suited for
class certification because it will allow resolution of
distilled factual and legal issues through this superior
mechanism. Presenting the legal issues on behalf of a
class will allow the Court to determine, in one fell
swoop on a class wide basis whether it is unlawful in
West Virginia for a lender to provide appraisers with
target figures. Plaintiffs’ class certification proposal
thus allows for the “consolidation of recurring
common issues” which “make up the heart of
Plaintiffs’ case,” Gunnells v. Healthplan Servs.,
Inc., 348 F.3d 417, 426 (4th Cir. 2003) (quoting
Central Wesleyan v. W.R. Grace & Co., 6 F.3d 177,

109a
185 (4th Cir. 1993)), and are therefore ideal for
resolution through the class action mechanism.
“A district court ‘has broad discretion in deciding
whether to certify a class, but that discretion must be
exercised within the framework of Rule 23.’”
Lienhart v. Dryvit Sys., Inc., 255 F.3d 138, 146 (4th
Cir. 2001), quoting In re American Med. Sys., Inc.,
75 F.3d 1069, 1079 (6th Cir. 1996). “[P]laintiffs bear
the burden … of demonstrating satisfaction of the
Rule 23 requirements and the district court is
required to make findings on whether the plaintiffs
carried their burden ….” Thorn v. Jefferson-Pilot
Ins. Co., 445 F.3d 311, 317 (4th Cir. 2006), quoting
Gariety v. Grant Thornton, LLP, 368 F.3d 356, 370
(4th Cir. 2004).
In an action such as this, class certification may be
granted only if the plaintiff satisfies the requirements
of
numerosity,
commonality,
typicality,
representativeness, predominance, and superiority of

110a
Rule 23(a)4 and (b)(3) 5 are met. Lienhart, 255 F.3d at
146.
“[N]umerosity requires that a class be so large that
‘joinder of all members is impracticable.’ Fed.R.Civ.P.
23(a)(1).
Commonality requires that ‘there are
questions of law or fact common to the class.’
Fed.R.Civ.P. 23(a)(2). The common questions must be
dispositive and over-shadow other issues.” Id., citing
Stott v. Haworth, 916 F.2d 134, 145 (4th Cir. 1990).
“In a class action brought under Rule 23(b)(3), the
4

Rule 23(a) provides:

(a) Prerequisites. One or more members of a class may sue
or be sued as representative parties on behalf of all members only
if:
(1) the class is so numerous that joinder of all members is
impracticable;
(2) there are questions of law or fact common to the class;
(3) the claims or defenses of the representative parties are
typical of the claims or defenses of the class; and
(4) the representative parties will fairly and adequately
protect the interests of the class.
5 Rule 23(b)(3) provides:
(b) Types of Class Actions. A class action may be
maintained if Rule 23(a) is satisfied and if:
(3) the court finds that the questions of law or fact common to
class members predominate over any questions affecting only
individual members, and that a class action is superior to other
available methods for fairly and efficiently adjudicating the
controversy. The matters pertinent to these findings include:
(A) the class members’ interests in individually controlling
the prosecution or defense of separate actions;
(B) the extent and nature of any litigation concerning the
controversy already begun by or against class members;
(C) the desirability or undesirability of concentrating the
litigation of the claims in the particular forum; and
(D) the likely difficulties in managing a class action.

111a
‘commonality’ requirement of Rule 23(a)(2) is
‘subsumed under, or superseded by, the more
stringent Rule 23(b)(3) requirement that questions
common to the class “predominate over” other
questions.’” Id., at n.4, quoting Amchem Prods., Inc.
v. Windsor, 521 U.S. 591, 609 (1997).
“Typicality requires that the claims of the named
class representatives be typical of those of the class; ‘a
class representative must be part of the class and
possess the same interest and suffer the same injury
as the class members.’ General Tel. Co. of
Southwest v. Falcon, 457 U.S. 147, 156 (1982)
(internal
quotation
marks
omitted).
Representativeness
requires
that
the
class
representatives ‘will fairly and adequately protect the
interests of the class.’ Fed.R.Civ.P. 23(a)(4).… [T]he
final three requirements of Rule 23(a) ‘tend to merge,
with commonality and typicality “serv[ing] as
guideposts for determining whether … maintenance
of a class action is economical and whether the named
plaintiff’s claim and the class claims are so
interrelated that the interests of the class members
will be fairly and adequately protected in their
absence.”’ Broussard v. Meineke Discount Muffler
Shops, Inc., 155 F.3d 331, 337 (4th Cir. 1998)
(quoting Falcon, 457 U.S. at 157 n. 13).” Id. at 14647.
“In contrast to actions under Rule 23(b)(1) and
(b)(2), Rule 23(b)(3) actions are ‘[f]ramed for
situations in which class-action treatment is not
clearly called for,’ but ‘may nevertheless be convenient
and desirable.’ Amchem Prods., Inc. v. Windsor,
521 U.S. 591, 615 (1997) (internal quotation marks

112a
omitted).
In addition to the four Rule 23(a)
requirements, Rule 23(b)(3) actions such as this one
must meet two requirements: predominance and
superiority. Predominance requires that ‘[common]
questions of law or fact … predominate over any
questions affecting only individual members.’
Fed.R.Civ.P. 23(b)(3). The predominance inquiry
‘tests whether proposed classes are sufficiently
cohesive to warrant adjudication by representation.’
Amchem, 521 U.S. at 623. Superiority requires that
a class action be ‘superior to other methods for the fair
and efficient adjudication of the controversy.’
Fed.R.Civ.P. 23(b)(3).” Id. at 147.
Plaintiffs are asking this Court to determine
whether passing an owner’s estimate of value
constitutes unconscionable conduct under West
Virginia Code § 46A-2-121. [Doc. 1-1, p. 5, Count IV].
Plaintiffs also ask this Court to address whether
Quicken breached the parties’ contracts by depriving
plaintiffs and Class Members of the benefit of their
bargain -specifically, of a fair and unbiased appraisal
- based on the alleged improper appraiser influence.
[Id., Count VII].
These questions present common legal issues which
this Court already had occasion to analyze earlier in
this order and earlier in this litigation in the context
of denying Quicken’s motion to strike class
allegations. [See Doc. 105, Order Denying Def. Motion
to Strike Class Allegations (Oct. 15, 2015)]. In that
Order, this Court observed that other courts have
discerned the problem with Quicken’s practice of
providing a “target number” to the appraiser in
connection with the loan, and discussed several

113a
decisions under West Virginia law regarding claims
for inflated appraisals. [Doc. 105, at 7-13].
It was not the first time this Court had an
opportunity to study appraisal influence. In a similar
case, this Court recognized the plausible “inference”
created when a bank provides appraisers with
suggested or estimated values of homes:
Taken as true, these allegations create an
inference that [lenders’] practice of providing
estimated values of homes was for the purpose of
influencing
the
appraiser’s
independent
judgment.
It certainly is plausible that an
appraiser would seek to meet a client’s suggested
outcome in order to receive future business from
the client.
[Doc. 169-12, DiLoreti v. Countrywide Home
Loans, Inc., No. 5:14-cv-76 (N.D. W.Va. Nov. 14,
2014), Order Granting Bank Defendants’ Motion in
Part and Denying in Part and Denying Funari’s
Motion for Judgment on the Pleadings, at 7].
Plaintiffs propose that if this Court finds that
passing estimated values to appraisers does
constitute unconscionable conduct or a breach of
contract, the case will then proceed to Phase II.
During Phase II, plaintiffs propose to ask the Court to
address whether a statutory penalty should be
awarded for any violation of the WVCCPA, and if so,
in what amount. Under West Virginia Code § 46A-5101, a Court may award a statutory penalty if it finds
that the defendants engaged in “unconscionable
conduct.” Plaintiffs also ask the Court to address
whether a refund of the appraisal fees paid by class

114a
members is warranted under the CCPA or due to the
breach of contract.
Finally, in Phase III, plaintiffs suggest that the
Court address any individualized questions and
permit class members who believe they have
additional individual damages due to defendants’
conduct to present those damages. Trial courts have
great discretion to conduct and manage litigation in
an efficient and equitable manner. Manual for Comp.
Litig., at Introduction, 10.13 (4th ed. 2005).
Particularly in the context of a class action, Rule 23
“allows district courts to devise imaginative solutions
to problems created by … [determining] individual
damages issues.” Carnegie v. Household Int’l, Inc.,
376 F.3d 656, 661 (7th Cir. 2004); see also In re
Scientific Atlantic Inc., Sec. Litig., 571 F.Supp.2d
1315, 1343 (N.D. Ga. 2007) (quoting Carnegie for this
proposition and certifying class upon finding, “even if
the Court ultimately concludes that aggregate
damages models are not sufficiently reliable for use in
this case, the Court is convinced that other viable
alternatives exist to address any individual damages
issues that may arise.”).
Accepted methods of
assessing the individual issues relating to class
members include:
(1) bifurcating liability and damage trials with the
same or different juries; (2) appointing a
magistrate judge or special master to preside over
individual damages proceedings; (3) decertifying
the class after the liability trial and providing
notice to class members concerning how they may
proceed to prove damages; (4) creating subclasses;
or (5) altering or amending the class.

115a
Id. (citing In re Visa Check/MasterMoney
Antitrust Litig., 280 F.3d 124, 141 (2d Cir. 2001)).
This Court used a similar process to resolve a
similar class action in Dijkstra v. Carenbauer, No.
5:11-cv-152 (N.D. W.Va.). Specifically, in Dijkstra,
the Court made liability findings on the class claims
and awarded statutory and disgorgement damages on
a class-wide basis, and then allowed for individual
class members to come forward with any claims of
actual damages beyond those compensable on a classwide basis. [Dijkstra Orders at Docs. 210 & 242].
The defendant in Dijkstra filed two separate
petitions for appeal, challenging this Court’s
certification decisions. Both were rejected. (See
U.S.C.A. Case No. 13-107, petition denied Feb. 6, 2013
[Dijkstra Doc. 129]; U.S.C.A. Case No. 14-386,
petition denied July 31, 2014 [Dijkstra Doc. 256]).
I.

Numerosity:

“Rule 23(a)(1) requires that the class be of sufficient
size that joinder of all members is ‘impracticable.’ In
determining whether joinder is impracticable, a court
should analyze the factual circumstances of the case
rather than relying on numbers alone. Cypress v.
Newport News Gen. & Nonsectarian Hosp. Ass’n,
375 F.2d 648 (4th Cir. 1967). Factors to be considered
are ‘the estimated size of the class, the geographic
diversity of class members, the difficulty of identifying
class members, and the negative impact of judicial
economy if individual suits were required.’
Christman v. American Cyanamid Co., 92 F.R.D.
441, 451 (N.D. W.Va. 1981); McGlothlin v. Connors,
142 F.R.D. 626, 632 (W.D. Va. 1992).” In re Serzone

116a
Prods. Liab. Litig., 231 F.R.D. 221, 237 (S.D. W.Va.
2005) (Goodwin, J.).
“Impracticable does not mean impossible.” Hewlett
v. Premier Salons, Int’l, Inc., 185 F.R.D. 211, 215
(D. Md. 1997) (Chasanow, J.)(quoting Robidoux v.
Celani, 987 F.2d 931, 935 (2d Cir. 1993)). “When a
class is extremely large, the numbers alone may allow
the court to presume impracticability of joinder.
Buford v. H & R Block, Inc., 168 F.R.D. 340, 348
(S.D. Ga. 1996) (citing Finnan v. L.F. Rothschild &
Co., Inc., 726 F.Supp. 460, 465 (S.D. N.Y. 1989);
Riordan v. Smith Barney, 113 F.R.D. 60, 62 (N.D.
Ill. 1986)). There is no bright line test for determining
numerosity; the determination rests on the court’s
practical judgment in light of the particular facts of
the case. Id. (citing Deutschman v. Beneficial
Corp., 132 F.R.D. 359, 371 (D. Del. 1990)).” Id.
There is no set minimum number of potential class
members that fulfills the numerosity requirement.
See Holsey v. Armour & Co., 743 F.2d 199, 217 (4th
Cir. 1984) (citing Kelley v. Norfolk & Western Ry.
Co., 584 F.2d 34 (4th Cir. 1978)). However, where the
class numbers twenty-five or more, joinder is usually
impracticable. Cypress v. Newport News General
& Nonsectarian Hosp. Ass’n, 375 F.2d 648, 653 (4th
Cir. 1967) (eighteen class members sufficient).
Quicken has already admitted that, based on the
allegations in the First Amended Complaint, “the
number of members of all proposed plaintiff classes
well exceeds 100.” [Doc. 1].
The numerosity
requirement is therefore satisfied.

117a
II.

Commonality:

Rule 23(a)(2) requires a showing of the existence of
“questions of law or fact common to the class.” Rule
23(b)(3) requires that questions of law or fact common
to the class predominate over any questions affecting
only individual members. The Fourth Circuit has
held that “[i]n a class action brought under Rule
23(b)(3), the ‘commonality’ requirement of Rule
23(a)(2) is ‘subsumed under, or superseded by, the
more stringent Rule 23(b)(3) requirement that
questions common to the class “predominate over”
other questions.’” Lienhart v. Dryvit Sys., Inc., 255
F.3d 138, 147 n. 4 (4th Cir. 2001)(quoting Amchem,
521 U.S. at 609). Because this is a class action
brought under Rule 23(b)(3), this Court will analyze
the two factors together in the predominance section
of this opinion. See In re LifeUSA Holding Inc., 242
F.3d 136, 144 (3d Cir. 2001) (analyzing the two factors
together).
III.

Typicality:

“To satisfy the typicality requirement under Rule
23(a)(3), the ‘claims or defenses of the representative
parties [must be] typical of the claims or defenses of
the class.’ Fed.R.Civ.P. 23(a)(3). ‘A sufficient nexus is
established [to show typicality] if the claims or
defenses of the class and class representatives arise
from the same event or pattern or practice and are
based on the same legal theory.’ In re Terazosin
Hydrochloride Antitrust Litig., 220 F.R.D. 672,
686 (S.D. Fla. 2004) (quoting Kornberg v. Carnival
Cruise Lines, Inc., 741 F.2d 1332, 1337 (11th Cir.
1984)); see also In re Diet Drugs, 2000 WL 1222042

118a
at *43 (E.D. Pa. Aug. 28, 2000).
The class
representatives and class members need not have
suffered identical injuries or damages.
United
Broth. of Carpenters v. Phoenix Assoc., Inc., 152
F.R.D. 518, 522 (S.D. W.Va. 1994); see also Mick v.
Ravenswood Aluminum Corp., 178 F.R.D. 90, 92
(S.D. W.Va. 1998).” In re Serzone Prods. Liab.
Litig., 231 F.R.D. 221, 238 (S.D. W.Va. 2005)
(Goodwin, J.).
“The typicality requirement has been observed to be
a redundant criterion, and some courts have
expressed doubt as to its utility. Buford, 168 F.R.D.
at
350
(citing
Sanders
v.
Robinson
Humphrey/American Express, Inc., 634 F.Supp.
1048, 1056 (N.D. Ga. 1986), aff’d in part, rev’d in part
on other grounds sub nom., Kirkpatrick v. J.C.
Bradford & Co., 827 F.2d 718 (11th Cir. 1987), cert.
denied, 485 U.S. 959 (1988)). Some courts treat
typicality as overlapping with commonality, see
Zapata [v. IBP, Inc.], 167 F.R.D. at 160; cf. Falcon,
457 U.S. at 157 n. 13 (noting that typicality and
commonality ‘tend to merge’); other courts equate
typicality with adequacy of representation. Buford,
168 F.R.D. at 350 (citing Alfus v. Pyramid
Technology Corp., 764 F.Supp. 598, 606 (N.D. Cal.
1991)). Typicality determines whether a sufficient
relationship exists between the injury to the named
plaintiff and the conduct affecting the class, so that
the court may properly attribute a collective nature to
the challenged conduct. Zapata, 167 F.R.D. at 160
(citing 1 Newberg on Class Actions § 3.13). A
plaintiff’s claim may differ factually and still be
typical if ‘it arises from the same event or practice or
course of conduct that gives rise to the claims of other

119a
class members, and if his or her claims are based on
the same legal theory.’ Id. (quoting 1 Newberg on
Class Actions § 3.13). So long as the plaintiffs and the
class have an interest in prevailing in similar legal
claims, then the typicality requirement is satisfied.
Buford, 168 F.R.D. at 351 (citing Meyer v. Citizens
and Southern Nat’l Bank, 106 F.R.D. 356, 361
(M.D. Ga. 1985)). The existence of certain defenses
available against plaintiffs that may not be available
against other class members has been held not to
preclude a finding of typicality. See id. (citing
International Molders’ and Allied Workers’
Local Union No. 164 v. Nelson, 102 F.R.D. 457, 463
(N.D. Cal. 1983)). The burden of showing typicality is
not meant to be an onerous one, but it does require
more than general conclusions and allegations that
unnamed individuals have suffered discrimination.
Kernan, 1990 WL 289505, at *3 (citing Paxton v.
Union Nat’l Bank, 688 F.2d 552, 556 (8th Cir. 1982),
cert. denied, 460 U.S. 1083 (1983)).” Hewlett v.
Premier Salons, Int’l, Inc., 185 F.R.D. 211, 216 (D.
Md. 1997) (Chasanow, J.).
In this case, the claims of each of the putative class
members arise from the same pattern or practice on
the part of the defendants - the provision of a target
value to its selected appraiser without the knowledge
of the borrower. This Court finds that the requested
class satisfies the typicality requirement.
IV.

Adequacy of Representation:

“The final requirement of Rule 23(a) is set forth in
subsection (4), which requires that ‘the representative
parties will fairly and adequately protect the interests

120a
of the class.’ Fed.R.Civ.P. 23(a)(4).
This
determination requires a two-pronged inquiry: (1) the
named plaintiffs must not have interests antagonistic
to those of the class; and (2) the plaintiffs’ attorneys
must be qualified, experienced and generally able to
conduct the litigation. Hewlett v. Premier Salons
Int’l, Inc., 185 F.R.D. 211, 218 (D. Md. 1997).”
Serzone, 231 F.R.D. at 238.
The defendants do not contest plaintiffs’ counsel’s
ability to conduct the litigation, nor does this Court.
The defendants have not pointed out any interests
that the named plaintiffs have that are antagonistic
to the interests of the proposed class.
Accordingly, this Court finds that the named
plaintiffs and their counsel are able to fairly and
adequately protect the interests of the class.
V.

Predominance

The first factor under Rule 23(b)(3) requires that the
questions of law or fact common to all class members
predominate over questions pertaining to individual
members. In re Serzone Prods. Liab. Litig., 231
F.R.D. at 239. Common questions predominate if
class-wide adjudication of the common issues will
significantly advance the adjudication of the merits of
all class members’ claims.
“The predominance inquiry ‘tests whether proposed
classes are sufficiently cohesive to warrant
adjudication by representation.’” Lienhart, 255 F.3d
at 147 (quoting Amchem Prods., Inc. v. Windsor,

121a
521 U.S. 591, 623 (1997)); Gariety v. Grant
Thornton, LLP, 368 F.3d 356, 362 (4th Cir. 2004).
In this case, the issues common to all class members
predominate over any individual questions. There is
no dispute that the defendants provided a target value
to the appraisers which they selected. The liability
phase of this case presents the following issues, which
are common to all potential class members:
(1) whether defendants’ practice of passing owners’
estimates of value constitutes unconscionable
inducement under the CCPA;
(2) whether defendants’ breached the parties’
contracts;
(3) whether class members are entitled to
statutory penalties for each violation of the
West Virginia Consumer Credit and Protection
Act; and
(4) whether borrowers should receive a refund of
the appraisal fees that they paid.
The
common
questions
discussed
above
predominate. To put this into perspective, either it
was permissible for Quicken to send appraisal request
forms with target numbers or not. See Dijkstra v.
Carenbauer, supra, 2014 WL 791140, at *14
(granting affirmative judgment on class procedural
unconscionability claim when defendant lender used
non-attorneys to close loans and charged illegal
notary fees).

122a
If Quicken violated the law, plaintiffs will ask this
Court to award statutory damages and set an amount.
These resolutions will largely dispose of this
litigation. Surely these determinations are much
more straightforward than other certified classes of
which the Fourth Circuit has approved. See, e.g.,
Brown v. Nucor Corp., 785 F.3d 895 (4th Cir. 2015)
(vacating district court’s decertification of Title VII
class of black steelworkers and remanding with
instructions to certify the class in light of the
“inherent cohesiveness of the class”); Gray v. Hearst
Communs., Inc., 444 Fed. Appx. 698, 702 (4th Cir.
2011) (affirming certification of advertisers’ class
claims for breach of contract, breach of the implied
covenant of good faith and fair dealing, and unfair and
deceptive
trade
practices
against
directory
distributors upon finding that “the common question
regarding [defendant’s] distribution obligation
predominates over any individual issues because the
putative class members all assert injury from the
same action (i.e. failure by [defendant] to follow its
standard distribution practice), and determination of
whether
[defendant]
breached
its
standard
distribution obligation will resolve in one stroke an
issue that is central to the validity of the class
members’ breach of contract claims”); Central
Wesleyan v. W.R. Grace & Co., 6 F.3d 177, 188 (4th
Cir. 1993) (affirming conditional certification of a
nationwide class of colleges and universities with
asbestos in their buildings despite the “daunting
number of individual issues”, including the ability of
each college to prove liability, differing statutes of
limitation, differing asbestos products and exposures,
present in the case).

123a
Courts nationwide frequently recognize that cases
involving fee overcharging are appropriate for class
treatment. See Mahon v. Chicago Title Ins. Co.,
296 F.R.D. 63 (D. Conn. 2013) (certifying class of
persons overcharged for title insurance in connection
with refinance transactions, explaining that “[t]he
statutorily filed premium rates must be applied
uniformly” and that in “each transaction, (i) the
putative class member paid the premium
charged/collected by [defendant] in exchange for a
title insurance policy; (ii) [defendant] was required by
law to charge a premium in accordance with its filed
rates; (iii) the putative class member paid the
premium charged by [defendant], which was an
overcharge; and (iv) the putative class member was
damaged by being overcharged for the title
insurance); Spano v. Boeing Co., 294 F.R.D. 114
(S.D. Ill. 2013) (certifying ERISA class with various
subclasses alleging imposition of excessive fees,
noting several times that certification was
appropriate because plaintiffs had alleged that all
class members had complaints concerning the
excessive fees); Markocki v. Old Republic Nat’l
Title Ins. Co., 2015 WL 3421401 (E.D. Pa. May 27,
2015) (declining to decertify class claim under Real
Estate Settlement Procedures Act where common
question was whether defendant split a charge for
settlement services not actually performed, and
question predominated over any individual issues).
The issues common to the class predominate over
any individual issues here. The central issue is
whether passing an estimated value constitutes
unconscionable conduct or a breach of the parties’
contract. The Court can award class-wide damages in

124a
the form of statutory penalties and a refund of any
fees paid.
These common questions are broad and apply to all
potential class members.
Accordingly, the
predominance requirement is met.
VI.

Superiority

“The superiority test of Rule 23(b)(3) requires the
court to find that the class action instrument would be
better than, not just equal to, other methods of
adjudication. The four factors listed in this subsection
(interest in controlling individual prosecutions,
existence of other related litigation, desirability of
forum, and manageability) are simply a guideline to
help the court determine the benefit of the proposed
class action.
Advisory Committee’s Notes to
Fed.R.Civ.P. 23.” Hewlett v. Premier Salons,
Intern., Inc., 185 F.R.D. 211, 220 (D. Md. 1997).
A.

Interest in controlling individual
prosecutions

“The first factor identified in the rule is ‘the interest
of members of the class in individually controlling the
prosecution or defense of separate actions.’
Fed.R.Civ.P. 23(b)(3)(A). ‘This factor has received
minimal discussion in Rule 23(b)(3) actions.’ Buford,
168 F.R.D. at 361 (quoting 1 Newberg on Class Actions
§ 4.29). According to the drafters of the rule:
The interests of individuals in conducting
separate lawsuits may be so strong as to call for
denial of a class action. On the other hand, these

125a
interests may be theoretic[al] rather than
practical; the class may have a high degree of
cohesion and prosecution of the action through
representatives would be quite unobjectionable, or
the amounts at stake for individuals may be so
small that separate suits would be impracticable.
Advisory Committee’s Notes to Fed.R.Civ.P. 23.”
Hewlett, at 220-21.
This case falls into the latter category, considering
the likely relatively small potential individual
recoveries, and fact that no other cases appear to have
been filed.
B.

Existence of other related litigation

“Under Rule 23(b)(3)(B), the court should consider
the ‘extent and nature of any litigation concerning the
controversy already commenced by or against
members of the class.’ This factor is intended to serve
the purpose of assuring judicial economy and reducing
the possibility of multiple lawsuits. 7A Federal
Practice and Procedure § 1780, at pp. 568-69. ‘If the
court finds that several actions already are pending
and that a clear threat of multiplicity and a risk of
inconsistent adjudications actually exist, a class
action may not be appropriate since, unless the other
suits can be enjoined, which is not always feasible, a
Rule 23 proceeding only might create one more
action.…
Moreover, the existence of litigation
indicates that some of the interested parties have
decided that individual actions are an acceptable way
to proceed, and even may consider them preferable to
a class action. Rather than allowing the class action
to go forward, the court may encourage the class

126a
members who have instituted the Rule 23(b)(3) action
to intervene in the other proceedings.’ Id. at 569-70.”
Hewlett, at 221.
This factor is, in this case, a non-factor, since this
Court has been made aware of no other lawsuits
against the defendants concerning this issue.
C.

Desirability of forum

Rule 23(b)(3)(C) requires the court to evaluate the
desirability of concentrating the litigation in a
particular forum. Because all of the potential class
members are residents of the State of West Virginia,
because the class representative and class counsel live
here, and because defendant has counsel here, this
forum is as good as any.
D.

Manageability

“The last factor that courts must consider in relation
to superiority is the difficulty that may be
‘encountered in the management of the class action.’
Fed.R.Civ.P. 23(b)(3)(D).
‘Of all the superiority
factors listed in Rule 23, manageability has been the
most hotly contested and the most frequent ground for
holding that a class action is not superior.’ Buford,
168 F.R.D. at 363 (quoting 1 Newberg on Class Actions
§ 4.32). Some courts have said, however, ‘[t]here
exists a strong presumption against denying class
certification for management reasons.’ Id. (citing In
re Workers’ Compensation, 130 F.R.D. 99, 110 (D.
Minn. 1990); In re South Central States Bakery
Prod. Antitrust Litig., 86 F.R.D. 407, 423 (M.D. La.
1980)).” Hewlett, at 221.

127a
“The manageability inquiry includes consideration
of the potential difficulties in identifying and notifying
class members of the suit, calculation of individual
damages, and distribution of damages. Six Mexican
Workers v. Arizona Citrus Growers, 904 F.2d 1301,
1304 (9th Cir. 1990); Maguire v. Sandy Mac, Inc.,
145 F.R.D. 50, 53 (D. N.J. 1992); Kernan [v. Holiday
Universal, Inc.], 1990 WL 289505 at *7 [D. Md. Aug.
14, 1990]; In re Folding Carton Antitrust Litig., 88
F.R.D. 211, 216 (N.D. Ill. 1980).” Hewlett, at 221-22.
In Gunnells v. Healthplan Servs., Inc., 348 F.3d
417 (4th Cir. 2003), the Fourth Circuit stated:
First, it appears likely that in the absence of class
certification, very few claims would be brought
against TPCM, making “the adjudication of [the]
matter through a class action ... superior to no
adjudication of the matter at all.” See 5 Moore’s
Federal Practice § 23.48[1] (1997). Thus, class
certification will provide access to the courts for
those with claims that would be uneconomical if
brought in an individual action. As the Supreme
Court put the matter, “[t]he policy at the very core
of the class action mechanism is to overcome the
problem that small recoveries do not provide the
incentive for any individual to bring a solo action
prosecuting his or her rights.” Amchem, 521 U.S.
at 617 (citation omitted).
348 F.3d at 426.
In this case, the plaintiff’s claims are easily
susceptible to resolution on a classwide basis. The
plaintiff has already obtained basic class list
information, and Quicken can readily supply

128a
additional details regarding the identity of class
members.
In the event that the class would become
unmanageable, this Court can decertify the class.
Gunnells v. Healthplan Servs., Inc., 348 F.3d at
426 (4th Cir. 2003); Central Wesleyan College v.
W.R. Grace & Co., 6 F.3d 177, 184 (4th Cir. 1993).
Likewise, in the unlikely event that damages issues
would require individual inquiry, the damage issues
may be bifurcated. “Rule 23 contains no suggestion
that the necessity for individual damage
determinations destroys commonality, typicality, or
predominance, or otherwise forecloses class
certification. In fact, Rule 23 explicitly envisions class
actions
with
such
individualized
damage
determinations.
See Fed.R.Civ.P. 23 advisory
committee’s note (1966 Amendment, subdivision
(c)(4)) (noting that Rule 23(c)(4) permits courts to
certify a class with respect to particular issues and
contemplates possible class adjudication of liability
issues with ‘the members of the class ... thereafter ...
required to come in individually and prove the
amounts of their respective claims.’); see also 5
Moore’s Federal Practice § 23.23[2] (1997) (‘[T]he
necessity of making an individualized determination
of damages for each class member generally does not
defeat commonality.’). Indeed, ‘[i]n actions for money
damages under Rule 23(b)(3), courts usually require
individual proof of the amount of damages each
member incurred.’ Id. at § 23.46[2][a] (1997)
(emphasis added).
When such individualized
inquiries are necessary, if ‘common questions
predominate over individual questions as to liability,

129a
courts generally find the predominance standard of
Rule 23(b)(3) to be satisfied.’ Id.” Gunnells, at 42728.
“Courts have routinely rejected this argument,
concluding, as we have in previous cases, that the
need for individualized proof of damages alone will not
defeat class certification. See Central Wesleyan, 6
F.3d at 189; Hill v. W. Elec. Co., Inc., 672 F.2d 381,
387 (4th Cir. 1982) (‘Bifurcation of ... class action
proceedings for hearings on ... damages is now
commonplace.’); Chisolm v. TranSouth Fin. Corp.,
184 F.R.D. 556, 566 (E.D. Va. 1999) (collecting cases).”
Gunnells, at 429 (emphasis in original).
Quicken contends that its statute of limitations
defense presents a barrier to certification. The statute
of limitations for the WVCCPA claims is provided by
West Virginia Code § 46A-5-101(1), which states that
no action may be brought more than one year after the
due date of the last scheduled payment. W.Va. Code
§ 46A-5-101(1). Both the West Virginia Supreme
Court and the Fourth Circuit have confirmed that this
means that “the statute of limitation begins to run on
the date under the parties’ agreement providing for
the final periodic payment of the debt.” Syl. pt. 6,
Tribeca Lending Corp. v. McCormick, 231 W.Va.
455, 745 S.E.2d 493 (2013); see also Delebreau v.
Bayview Loan Serv., LLC, 680 F.3d 412, 415 (4th
Cir. 2012).
The statute of limitations for the
conspiracy claim is determined by the nature of the
underlying conduct on which the conspiracy claim is
based. Syl. pt. 3, Dunn v. Rockwell, 225 W.Va. 43,
689 S.E.2d 255 (2009). Breach of contract claims have
a ten year statute of limitations. W.Va. Code § 55-2-6.

130a
The statute of limitations for the RMLA claim is two
years from the date of closing. W.Va. Code § 55-2-12;
Fluharty v. Quicken Loans, Inc., 2013 WL 5963060
(N.D. W.Va. Nov. 7, 2013). Quicken has presented no
compelling reason why the group of class members
whose claims fall within any of these statutes of
limitation cannot be determined.
Quicken’s argument that individualized statute of
limitations issues preclude class certification, [Doc.
185 at 17-20], ignores one important truth: while it is
plaintiffs’ burden to meet the requirements of Rule 23,
Thorn v. Jefferson-Pilot Life Ins. Co., 445 F.3d
311, 321 (4th Cir. 2006), it is defendant’s burden to
establish a statute of limitations defense. Hanshaw
v. Wells Fargo Bank, 2015 WL 5345439, at fn. 5
(S.D. W.Va. Sept. 11, 2015) (Johnston, J.)(citing
Burgess v. Infinity Fin. Employment Servs., LLC,
2012 WL 399178, at *5 (S.D. W.Va. Feb. 7, 2012)).
It is therefore defendants’ burden to demonstrate
that any loan in the class is time barred, and Quicken
argues that it cannot do so because it sells the
mortgage loans after origination and does not have
records about them after that time. [Doc. 185 at 19].
None of the cases on which defendants rely, [Id. at 18],
present a situation, like here, where a defendant in a
proposed class action failed to produce evidence
supporting its own affirmative defense because of its
own record keeping practices. See, e.g. Hunter v. Am.
Gen. Life & Acc. Ins. Co., 2004 WL 5231631, *12
(D.S.C. Dec. 2, 2004) (individualized statute of
limitations issues arose because of questions about
when class members had inquiry notice.)

131a
It is not plaintiffs’ obligation to discover facts about
Quicken’s defense. In the absence of any such
evidence, this argument must fail. See Sensormatic
Sec. Corp. v. Sensormatic Elec. Corp., 455
F.Supp.2d 399, 425 (D. Md. 2006) (defendant failed to
meet burden of proof on statute of limitations defense
when it presented insufficient proof of when plaintiff
was on notice of alleged tort); In re Falwell, 434 B.R.
779, 786 (Bankr. W.D. Va. 2009) (refusing to sustain
objection based on statute of limitation when
defendant provided no evidence in support.)
In the event defendants produce evidence about the
loans, determining which loans fall within the
applicable period would ultimately prove to be a
ministerial exercise. Plaintiffs do not dispute that the
statute of limitations under § 46A-5-101 is affected by
certain circumstances of the loan such as acceleration.
See, e.g., Delebreau v. Bayview Loan Serv., LLC,
680 F.3d 412, 416 (4th Cir. 2012). This is a simple
task which Quicken could perform, but has not. For
example, electronic information exists from Fannie
and Freddie on defaults, accelerations, discharges,
and payoffs.
Defendants did not ask for this
information [Doc. 193-12, at 50:2-18), but it could be
used to identify and match with those loans. Similar
information is held by MERS. [Id. at 54:8-17].
Moreover, the bulk of its loans were sold to
Countrywide, JP Morgan, Bank of America or Wells
Fargo. [Id. at 49:15-25]. Quicken could certainly
request or subpoena records from these entities.
Quicken has not availed itself of these readily
available sources. Further, all the deeds of trust were
recorded, so determining whether the statutes of
limitation are affected by early repayment or

132a
foreclosure is simply a matter of searching public
records to identify those loans that have not been
either paid and released or foreclosed upon one year
prior to the filing of the Complaint.
According to plaintiffs, this exercise is what the
parties successfully performed in Dijkstra. In that
case, the Court certified the class after requesting and
receiving briefing specifically on the statute of
limitations issue. After certification and judgment,
the parties worked collaboratively to identify which
class members’ loans fit into the certified class
definitions based on the limitation period. Like
Quicken here, the defendant in Dijkstra was an
internet lender, and that defendant, LendingTree, in
the same position as Quicken, was able to perform this
ministerial task.
Finally, even if the defendants could present
evidence regarding the class loans, plaintiffs have
demonstrated that the practice of passing on
estimated values to appraisers was unknown and not
disclosed by defendants to borrowers, therefore tolling
the statute. This was precisely the case last year in a
Third Circuit decision affirming class certification. In
re Comm. Bank of N. Va. Mortg. Lending Prac.
Litig., 795 F.3d 380, 400-405 (3d Cir. 2015). In
Community Bank, the defendant argued that
equitable tolling was a “highly individualized inquiry
that is not susceptible to common proof” and that
“inquiries
about
equitable
tolling”
would
predominate. 795 F.3d at 400. The court disagreed,
finding that plaintiffs had shown an “independent act
of concealment with respect to each loan” because
material facts had been misrepresented in the HUD-

133a
1 settlement statements used in closing the loans of
each class member. Id. at 402. The court therefore
found that common issues predominated over
individual issues as to whether applicable statutes of
limitation on class members’ claims were equitably
tolled due to concealment. Id. at 403; see also In re
Urethane Antitrust Litig., 251 F.R.D. 629, 639-40
(D. Kan. 2008) (predominance and superiority
requirements satisfied upon allegations that
manufacturers engaged in a horizontal price-fixing
conspiracy when key issues of antitrust impact and
fraudulent concealment were susceptible to common
proof on a class-wide basis.) As in Community Bank,
plaintiffs and the class members assert a common
theory of concealment which would uniformly toll all
of their claims.
Because this Court can easily determine whether
the discovery rule applies class-wide to toll class
members’ claims, defendant’s statute of limitations
argument presents no barrier to certification. See
Hamilton v. Pilgrim’s Pride Corp., 314 F.Supp.2d
630, 635 (N.D. W.Va. 2004) (under West Virginia law,
the discovery rule tolls the statute of limitation until
a claimant knows or by reasonable diligence should
know that he has been injured and who is
responsible).
This was the conclusion of the Southern District of
California in Cohen v. Trump, 303 F.R.D. 376, 387
(S.D. Cal. 2014). In Cohen, the court granted class
certification of mail and wire fraud claims based on
advertising for a real-estate investment seminar, over
defendant Trump’s arguments that individualized
determinations on statute of limitations defense

134a
would be necessary. The plaintiff had countered that
the action was a “prototypical case where a statute of
limitations defense does not undermine class
certification because all of the facts that Trump claims
satisfy the discovery rule are the same as to all Class
members.” 303 F.R.D. at 387. The court agreed and
recognized that discovery facts “apply to nearly all of
the putative class members and constitute common
proof” regarding discovery of alleged injury. Id.; see
also Kennedy v. United Healthcare of Ohio, Inc.,
206 F.R.D. 191, 199 (S.D. Ohio 2002) (finding
superiority and manageability satisfied and certifying
class when evidence of discovery of claim “may be
amenable to a common proffer.”).
Rule 23(g) requires that a court certifying a class
also appoint class counsel. The Rule directs a court to
consider several factors, including “[t]he work counsel
has done in identifying or investigating potential
claims in the action; [c]ounsel’s experience in handling
class actions, other complex litigation, and claims of
the type asserted in the action; [c]ounsel’s knowledge
of the applicable law; and [t]he resources counsel will
commit to representing the class.” Fed. R. Civ. P.
23(g)(1)(C)(i).
Proposed class counsel are qualified and able to
represent the class. Bailey & Glasser in particular is
well-versed in class action litigation. [See Doc. 16916]. Jason Causey and the attorneys of Bordas &
Bordas are also experienced consumer class action
litigators. [Id.].

135a
For the reasons stated above, Plaintiffs’ Motion for
Class Certification [Doc. 169] will be granted. This
Court will conditionally certify the following class:
All West Virginia citizens who refinanced
mortgage loans with Quicken, and for whom
Quicken obtained appraisals through an
appraisal request form that included an estimate
of value of the subject property.
Plaintiffs’ Motion for Partial Summary
Judgment
In their Motion, the plaintiffs seek summary
judgment on the following issues:
(1)

whether the act of sending an estimated or
“target” value to an appraiser in connection with
a real estate mortgage loan refinancing was
unconscionable inducement under W.Va. Code §
46A-2-121 (Count IV);

(2)

whether the act of sending an estimated or
“target” value to an appraiser in connection with
a real estate mortgage loan refinancing was a
breach of the implied covenant contained in
Quicken’s contract with the borrower (Count
VII);

(3)

whether Quicken’s routine assessment of $45
courier fees which did not reflect the actual cost
of the services provided constitutes unauthorized
charges under the West Virginia Consumer
Credit and Protection Act (“WVCCPA”) and West
Virginia Residential Mortgage Lender, Broker

136a
and Servicer Act (“RMLA”) such that affirmative
summary judgment on Counts III (RMLA), and
VI (Unauthorized Charges) is warranted; and
(4)

whether Defendants Quicken and TSI acted in
concert to perform these acts such that there is
no genuine dispute of fact remaining as to
plaintiffs’ conspiracy claim (Count I).

This Court will not reiterate and rehash the law and
facts discussed above. With respect to the following
this Court finds that, unless otherwise stated, there is
no genuine issue as to any material fact and that a
party is entitled to judgment as a matter of law.
1. This Court finds that the act of sending an
estimated or “target” value to an appraiser in
connection with a real estate mortgage loan
refinancing was unconscionable inducement under
W.Va. Code § 46A-2-121;
2. This Court finds that the act of sending an
estimated or “target” value to an appraiser in
connection with a real estate mortgage loan
refinancing was a breach of the implied covenant of
good faith and fair dealing contained in Quicken’s
contract with the borrowers;
3. This Court finds that Quicken’s routine
assessment of $45 courier fees which did not reflect
the exact, actual cost of the services provided does not
constitute an unauthorized charge under the West
Virginia Consumer Credit and Protection Act
(“WVCCPA”) and West Virginia Residential Mortgage
Lender, Broker and Servicer Act (“RMLA”); and

137a
4. This court finds that defendants Quicken and
TSI acted in concert to perform the acts above such
that there is no genuine dispute of fact remaining as
to plaintiffs’ conspiracy claim (Count I).
This Court has not heretofore discussed the
conspiracy aspect of this case. A civil conspiracy is:
a combination of two or more persons by concerted
action to accomplish an unlawful purpose or to
accomplish some purpose not in itself unlawful, by
unlawful means. The cause of action is not
created by the conspiracy but by the wrongful acts
done by the defendants to the injury of the
plaintiff.
Dixon v. Am. Indus. Leasing Co., 162 W.Va. 832,
253 S.E.2d 150, 152 (1979). “At its most fundamental
level, a civil conspiracy is ‘a combination to commit a
tort.’” Wolfe v. Tackett, 2009 WL 973442, at *6 (S.D.
W.Va. Apr. 9, 2009) (Copenhaver, J.)(quoting Kessel
v. Leavitt, 204 W.Va. 95, 511 S.E.2d 720, 753 (1998)).
The undisputed evidence shows that Quicken and
TSI consistently acted in concert to accomplish their
unlawful purposes of providing appraisers with
estimated values. Quicken’s testimony is that when a
borrower applied for a loan, information, including an
owners’ estimate of value would be generated. [Doc.
173-11 at 20:25-21:12]. This information, along with
a borrower’s contact information, would be uploaded
into Quicken’s computer system, AMP, and then sent
automatically to Quicken’s sister company, TSI. [Doc.
173-11 at 30:5-11]; see also [Doc. 173-12 at 17:9-17].
TSI testified that it would in turn use this
information, including the owners’ estimate of value,

138a
to generate an appraisal request form. [Doc. 173-12
at 32:17-23]. The request form along with the owners’
estimate of value would be passed to the appraiser
selected by TSI to perform this practice. [Id.]. The
scheme of passing estimated values to appraisers thus
involved the concerted efforts of both defendants,
which happen to be owned by the same parent
company. [See Doc. 173-26 at 60:2-8].
While conspiracy claims against parent and child
companies are generally not permitted under federal
antitrust law, Copperweld Corp. v. Independence
Tube Corp., 467 U.S. 752 (1984), that holding is
limited to the Sherman Act. Princeton Ins. Agency,
Inc. v. Erie Ins. Co., 225 W.Va. 178, 185, 690 S.E.2d
587, 594 (2009).
Moreover, there is no prohibition on claims for
conspiracy between or among “sister” or related
companies like Quicken and TSI. See In re Ray
Dobbins Lincoln-Mercury, Inc., 604 F.Supp. 203,
205 (W.D. Va. 1984), judgment aff’d, 813 F.2d 402 (4th
Cir. 1985) (finding “Copperweld is of no effect” as to
conspiracy alleged between two subsidiaries and
refusing to dismiss conspiracy claim against
defendants with common parent); Christou v.
Beatport, LLC, 849 F.Supp. 2d 1055, 1073 (D. Col.
2012) (refusing to dismiss conspiracy claim against
“related entities” with “some common ownership”).

139a
Defendants’ Motions to Exclude the Opinions
and Testimony of Matthew Curtin and Stephen
McGurl
The defendants have moved to exclude the opinions
and testimony of plaintiffs’ expert witnesses Matthew
Curtin and Stephen McGurl. This Court did not rely
upon the opinions of either witness in deciding the
issues before it. In light of the above rulings, it would
appear to the Court that the Motions are moot.
Defendants’ Motion In Limine to Exclude
Evidence of Appraisers Petition
In the above Motion, the defendants seek to exclude
as not relevant an “Appraisers Petition” signed by a
number of appraisers and sent to the Appraisal
Subcommittee of the Federal Financial Institutions
Examination Council. The defendants argue that it is
plain from the face of the Appraisers Petition that it
has nothing to do with the owner’s or applicant’s
estimate of value. Rather, the petition refers only to
various categories of “pressure” that involve
withholding business or refusing to pay or employ
appraisers. The defendants note that the Appraisers
Petition does not even mention the owner’s estimate
of value, let alone complain that the practice of
providing such an estimate is one of the ways in which
lenders are “pressuring” appraisers.
In the 2000s, a petition was posted online at
AppraisersForum.com, a general website for real
estate appraisers. The petition was signed by over
11,000 appraisers from across the country including
one of the Plaintiffs’ experts, Troy Sneddon.

140a
Eventually, the signed petition was provided to the
Appraisal Subcommittee of the Federal Financial
Institution Examination Council and other federal
and state regulatory agencies.
The petition expressed concern over an ongoing
“problem” within the mortgage industry--i.e., lenders
“who, as a normal course of business, [were]
apply[ing] pressure on appraisers to hit or exceed a
predetermined value.” Among other things, lenders
threatened to refuse payment, withhold future
business, or even blacklist appraisers for failing to
inflate their appraisals so as to meet or exceed the
lender’s target figure. As a result, the independent
judgment of appraisers was being compromised.
Furthermore, the appraisers contended that
homeowners were being damaged by purchasing
overvalued homes and the economy as a whole faced
the prospect of “great financial loss.” The appraisers
signing the petition urged regulators to “hold …
lenders responsible” for this misconduct and to
provide for an appropriate penalty.
As noted above, in a similar case, this Court
recognized the plausible “inference” created when a
bank provides appraisers with suggested or estimated
values of homes:
Taken as true, these allegations create an
inference that [lenders’] practice of providing
estimated values of homes was for the purpose of
influencing
the
appraiser’s
independent
judgment.
It certainly is plausible that an
appraiser would seek to meet a client’s suggested

141a
outcome in order to receive future business from
the client.
[Doc. 169-12, DiLoreti v. Countrywide Home
Loans, Inc., No. 5:14-cv-76 (N.D. W.Va. Nov. 14,
2014), Order Granting Bank Defendants’ Motion in
Part and Denying in Part and Denying Funari’s
Motion for Judgment on the Pleadings, at 7].
The petition is relevant to demonstrate that in fact
pressure was being placed on appraisers to meet
target values. Rule 401 of the Federal Rules of
Evidence establishes a broad, liberal test for
relevancy.
Professor Cleckley has noted that
“[d]eterminations of relevancy … are based on the
presence of a nexus, that is, a relationship between
the evidence offered for admission and a fact or issue
of consequence to the case.” F. Cleckley, Handbook on
Evidence for West Virginia Lawyers §4-1(E)(3). The
test for relevancy, in essence, is one of probability:
“[W]hether a reasonable person, with some experience
in the everyday world, would believe that this piece of
evidence might be helpful in determining the falsity
or truth of any material fact.” Id., at §4-1(C) (emphasis
in original). Moreover, the Fourth Circuit recognizes
that industry standard evidence is relevant. See, e.g.,
Advo-System. Inc. v. Maxway Corp., 37 F.3d 1044,
1048 (4th Cir. 1994) (“ordinary business terms”
analysis requires reference to prevailing industry
standards); Reed v. Tiffin Motor Homes, Inc., 697
F.2d 1192, 1196 (4th Cir. 1982) (industry standards
are relevant to show reasonableness of design).
Here, the petition is relevant to show that
appraisers understood the deleterious effects of

142a
providing any kind of target value. Indeed, the
petition acknowledges that influencing appraisers
was inappropriate under industry standards because
it stripped appraisers of their independent judgment
and resulted in a dishonest and potentially harmful
process.
Furthermore, the petition is relevant
because it confirms that the practice of using target
figures was widely, if not universally, condemned. For
these reasons, the petition is both relevant and
admissible, and defendants’ motion will be denied.
Defendants’ Motion In Limine to Exclude
Evidence or Argument Related to The Home
Valuation Code of Conduct or Dodd-Frank Act
In this Motion, the defendants seek to exclude as not
relevant evidence concerning the Home Valuation
Code of Conduct (“HVCC”) or the Dodd-Frank Wall
Street Reform and Consumer Protection Act (“DoddFrank”) on the basis that the HVCC went into effect
in May 2009 and that Title Source made changes to
its appraisal request forms for the specific purpose of
complying with the HVCC. Dodd-Frank was not
enacted until July 21, 2010 - by which time it had been
more than a year since Title Source had stopped
including the owner’s estimate of value on appraisal
engagement letters. In addition, defendants argue
that Dodd-Frank does not address the owner’s
estimate of value.
The plaintiffs reply that they are not attempting to
show that the defendants violated HVCC or DoddFrank, rather the plaintiffs contend that the fact that
certain actions are prohibited by these remedial
provisions is evidence of unconscionable conduct.

143a
With the passage of Dodd-Frank in 2010, enforcement
against appraiser influence finally came. See 15
U.S.C. § 1639e (2010).
Federal guidelines
interpreting the Dodd-Frank Act expressly prohibit a
lender from “[c]ommunicating a predetermined,
expected, or qualifying estimate of value, or a loan
amount or target loan-to-value ratio to an appraiser
or person performing an evaluation.” 75 Fed. Reg.
77450, 77457 (2010).
In addition, the provisions of HVCC and DoddFrank refute the position taken by defendants that
there is some difference between sending the “owner’s
estimate of value” to an appraiser as opposed to a
“target value.” The HVCC prohibits lenders and their
appraisal management companies from “providing to
an appraiser an anticipated, estimated, encouraged,
or desired value for a subject property or a proposed
or target amount to be loaned to the borrower.”
Moreover, TSI has acknowledged that Dodd Frank
banned this practice. [Doc. 2113, Petkovski Dep. at
96:13-97:17].
Specifically, TSI’s representative
testified that TSI’s “Dodd-Frank Compliance and
Non-Influence Certificate” states that TSI does not
provide estimated values, loan amounts, or loan-tovalue ratios to the appraiser, and prohibits appraiser
communications with the lender-client and borrower
property owner, in order to be “consistent with
elements of Dodd-Frank.”
For these reasons, defendants’ motion will be
denied.

144a
Plaintiffs’ Motion to Strike Portions of the of
Sherry Dukic Declaration
The plaintiffs have moved to strike portions of the
Sherry Dukic Declaration which are inconsistent with
her deposition testimony. While this Court did rely
upon portions of Ms. Dukic’s declaration in ruling on
the pending motions, the Court did not rely upon the
portions of the declaration which the plaintiffs seek to
have stricken. Furthermore, in light of this Court’s
ruling on the issue of courier fees, this declaration will
no longer be relevant. Accordingly, the Motion will be
denied as moot.
Conclusion
For the reasons stated above:
1. Defendant Hyett’s Motion for Summary
Judgment [Doc. 172] is DENIED AS MOOT;
2. The Motion for Summary Judgment filed by
Quicken and TSI, Inc. [Doc. 174] is DENIED IN
PART AND GRANTED IN PART. The claim
related to providing a value to the appraiser will go
forward.
The claim regarding courier fees is
dismissed;
3. Plaintiffs’ Motion for Class Certification [Doc.
169] is GRANTED. This Court will conditionally
certify the following class:
All West Virginia citizens who refinanced
mortgage loans with Quicken, and for whom
Quicken obtained appraisals through an

145a
appraisal request form that included an estimate
of value of the subject property.
4. Plaintiffs’ Motion for Partial Summary
Judgment [Doc. 173-1] is GRANTED IN PART
AND DENIED IN PART. Specifically:
A.

This Court finds that the act of sending an
estimated or “target” value to an appraiser
in connection with a real estate mortgage
loan refinancing was unconscionable
inducement under W.Va. Code § 46A-2-121;

B.

This Court finds that the act of sending an
estimated or “target” value to an appraiser
in connection with a real estate mortgage
loan refinancing was a breach of the
implied covenant of good faith and fair
dealing contained in Quicken’s contract
with the borrowers;

C.

This Court finds that Quicken’s routine
assessment of $45 courier fees which did
not reflect the exact, actual cost of the
services provided does not constitute an
unauthorized charge under the West
Virginia Consumer Credit and Protection
Act (“WVCCPA”) and West Virginia
Residential Mortgage Lender, Broker and
Servicer Act (“RMLA”); and

D.

This court finds that defendants Quicken
and TSI acted in concert to perform the acts
above such that there is no genuine dispute
of fact remaining as to plaintiffs’ conspiracy
claim (Count I).

146a
5. Defendants Quicken Loans Inc.’ and Title
Source, Inc.’s Motion to Exclude the Opinions and
Testimony of Plaintiffs’ Experts, Matthew Curtin,
Pursuant to Rule 702 and Daubert [Doc. 176] is
DENIED AS MOOT;
6. Defendants Quicken Loans Inc.’s and Title
Source, Inc.’s Motion to Exclude the Opinions and
Testimony of Plaintiffs’ Expert, Stephen McGurl,
Pursuant to Rule 702 and Daubert [Doc. 178] is
DENIED AS MOOT;
7. Defendants Quicken Loans Inc.’s and Title
Source, Inc.’s Motion In Limine to Exclude Evidence
of Appraisers Petition [Doc. 201] is DENIED;
8. Defendants Quicken Loans Inc.’s and Title
Source, Inc.’s Motion In Limine to Exclude Evidence
or Argument Related to The Home Valuation Code of
Conduct or Dodd Frank Act [Doc. 203] is DENIED;
9. Plaintiffs’ Motion to Strike Portions of the
Declaration of Sherry Dukic which Are Inconsistent
with Deposition Testimony [Doc. 209] is DENIED AS
MOOT.
It is so ORDERED.
The Clerk is directed to transmit copies of this
Order to all counsel of record herein.
DATED: June 2, 2016.

147a
[signature]
JOHN PRESTON BAILEY
UNITED STATES DISTRICT JUDGE

148a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST
VIRGINIA
Wheeling
PHILIP ALIG, SARA J.
ALIG, ROXANNE SHEA
and DANIEL V. SHEA,
individually and on behalf
of a class of persons,
Plaintiffs,
v.
QUICKEN LOANS INC.,
and TITLE SOURCE,
INC., dba Title Source Inc.
of West Virginia,
Incorporated,

Civil Action No.
5:12-CV-114
Judge Bailey

Defendants.

SECOND ORDER RESOLVING MOTIONS AND
AWARDING CLASS-WIDE STATUTORY
DAMAGES
Pending before this Court are the following motions:

149a
1. Plaintiffs’ Brief on Class-wide Statutory
Penalties and Motion for Summary Judgment on
Class-wide Contract Damages [Doc. 293-1];
2. Defendant’s (sic) Motion for Summary
Judgment on Certain Class Loans [Doc. 298-3];
3. Defendants’
Motion
in
Limine
and
Memorandum of Law to Exclude Prior Testimony of
Michael Lyon [Doc. 301];
4. Plaintiffs’ Motion in Limine to Preclude
Witnesses at Damages Hearing, and Memorandum in
Support [Doc. 311];
5. Defendants’
Motion
and
Incorporated
Memorandum to Strike Plaintiffs’ Response to
Defendants’ Memorandum Regarding Classwide
Penalty under the WVCCPA [Doc. 312];
6. Quicken Loans and Title Source’s Combined
Motions in Limine and Memoranda of Law to Exclude
Documents Cited in Plaintiffs’ Summary Judgment
Briefing and Damages Briefing [Doc. 325]; and
7. Defendant’s (sic) Motion to Decertify the Class
[Doc. 327].
Before addressing the merits of the various motions,
it would be beneficial to recount a portion of the
history of this case.
This litigation effectively
commenced on June 15, 2012, when plaintiffs filed an
Amended Complaint in the Circuit Court of Ohio
County individually and on behalf of a class of West
Virginians who obtained mortgage loans through
Quicken. The case proceeded through several years of

150a
motion practice, a stay, and exchange of discovery.
The course of discovery included the exchange of over
15,000 pages of documents and the depositions of
twenty-three witnesses. Discovery on all aspects of
the case closed on December 29, 2015 [Doc. 97].
Plaintiffs subsequently moved for class certification
as well as for summary judgment on the class claims.
On June 2, 2016, this Court found that Quicken’s
uniform practice of providing estimated home values
to appraisers constitutes unconscionable conduct
under the West Virginia Consumer Credit and
Protection Act (“WVCCPA”) [Doc. 227]. The Court
found that Quicken did so while failing to disclose the
practice to plaintiffs. The Court recognized that, by
“concealing these facts, Quicken deceived the
plaintiffs” as understood by the Fourth Circuit in
McFarland v. Wells Fargo Bank, 810 F.3d 273 (4th
Cir. 2016).
Moreover, the Court found “ample
evidence in the record that passing on an estimated
value is an unconscionable practice that was part of
the inducement for plaintiffs’ loans.” The Court
rejected Defendants’ argument that appraisals are
obtained for the benefit of the lender, not the
borrower, [Id. at 22], explaining that Quicken itself
represents to borrowers that “[t]he appraisal will
protect you from owing more on your loan than your
home is worth, which is known as being underwater.”
This Court also made findings as to intent: “To
repeat, Quicken had full knowledge of its practice of
providing estimated values to its appraisers for
purposes of influencing their appraisals. Quicken’s
Rule 30(b) witness and internal documents confirm
beyond any doubt that estimated values were used by

151a
Quicken as a means of communicating targets to its
appraisers. Quicken knew these facts. The plaintiffs
did not. Under the analytical framework of both
McFarland
and
Brown,
this
constituted
unconscionable inducement.” [Id. at 20-21].
The Court also rejected any argument that plaintiffs
must show actual harm to recover under the
WVCCPA. [Id. at 23]. It explained that Quicken’s
belief that plaintiffs must show actual harm caused by
its conduct to be “contrary to the stated purpose of this
claim, which is to provide a cause of action in
situations where damages in the form of a
substantively unconscionable loan are not present.
For that reason, the WVCCPA provides that a person
who has been subjected to unconscionable conduct
may recover actual damages and the right to recover
of $1,000 per violation. West Virginia Code § 46A-5101. See Syl. pt. 2 Vanderbilt Mortg. & Fin., Inc.
v. Cole, 230 W.Va. 505, 740 S.E.2d 562 (2013) (‘under
W.Va. Code § 46A-5-101(1) (1996), an award of civil
penalties is not conditioned on an award of actual
damages.’).” [Id].
As to the breach of contract claim, the Court
analyzed the contract into which plaintiffs and
Quicken entered in which Quicken undertook to
obtain an acceptable appraisal [Id. at 24]. The Court
went on to find that an appraisal obtained by the
process of providing a target figure to an appraiser is
a universally condemned process that serves no
legitimate purpose and “cannot conceivably be an
‘acceptable’ one.” [Id. at 25]. Further, “[n]or could an
appraisal obtained by such a scheme be fair, valid or
reasonable” and “withholding knowledge of the true

152a
nature of the appraisal violates Quicken’s duty to deal
honestly” [Id.].
Finally, this Court also found that the “undisputed
evidence shows that Quicken and TSI consistently
acted in concert to accomplish their unlawful purposes
of providing appraisers with estimated values” and
granted affirmative summary judgment on plaintiffs’
conspiracy claim [Id. at 54-55].
This Court also analyzed plaintiffs’ motion for class
certification and, finding all Rule 23 requirements
met, certified a class defined as:
All West Virginia citizens who refinanced
mortgage loans with Quicken, and for whom
Quicken obtained appraisals through an
appraisal request form that included an estimate
of value of the subject property.
[Id. at 61]. In doing so, the Court found that it would
be able to “easily determine whether the discovery
rule applies class-wide to toll class members’ claims”
and that therefore “defendant’s statute of limitations
argument presents no barrier to certification” [Id. at
51].
Defendants
unsuccessfully
moved
for
reconsideration as well as interlocutory appeal to the
Fourth Circuit. [Docs. 243 & 237].
Defendants then moved for entry of a scheduling
order, after which the Court held an in person status
conference on November 17, 2016. As a result of that
conference, this Court issued an Order [Doc. 248] as
follows:

153a
• The Court noted that defendants sought
additional discovery and that “defendants also seek to
demonstrate that they did not engage in any sort of
‘bad faith’ in making a referral to the appraisers” and
further “seek to demonstrate that there was no causal
connection between their conduct and a biased
appraisal as to damages;”
• The Court further stated that plaintiffs
“contend that defendants are merely asking for a ‘doover’ both on discovery and the merits arguments that
they have already presented thus far” and that
plaintiffs had pointed out that “defendants already
have the discovery which they seek, including their
lending patterns and practices, and information about
individual class members’ loans;”
• As a result, the Court concluded that
defendants were simply asking for a period of time to
go through their own loan information and glean
statistical and anecdotal evidence to support their
positions as well as to obtain an expert witness, and
allowed defendants a period of time to go through the
loan information already in their possession;
• The Court set forth the class notice procedures,
including that a first class opt-out notice must be sent
by December 15, 2016; and that a second notice must
be sent “after the Court has ruled on statutory
damages and the return of the appraisal fees, so that
individual plaintiffs can estimate the amount of
monetary compensation that they will receive by
opting into or out of the class;”

154a
• The Court ordered Defendants to provide
plaintiffs with information as to the amount of
appraisal fees by March 1, 2017;
• The Court set a hearing as to damages on April
20, 2017, with concurrent memoranda as to class
damages to be filed by April 6, 2017, understanding
that if the defendants desired to call a witness on the
issue of egregiousness, the Court would hear the
testimony.
In January of this year, the defendants retained
additional counsel, who seems determined to obtain a
“do-over” of virtually every ruling in this case. On
February 24, 2017, the defendants filed Quicken
Loans and Title Source’s Motion for Modification of
Order as to Status Conference [Doc. 266]. In that
motion, the defendants argue that the damages “trial”
would last several days, that the issue of contract
damages must be heard by a jury, that all
compensatory damages had to be decided before the
Court could make its determination as to the
statutory penalty, and requesting the re-opening of
discovery.
Despite the fact that discovery was closed, on
February
24,
2017,
the
defendants
filed
interrogatories and requests for admission on the
plaintiffs. In addition, on March 10, 2017, the
defendants filed Second Supplemental Rule 26(a)(1 )
disclosures, identifying, for the first time, seven new
witnesses from Quicken and TSI; two witnesses of a
company identified as “FNC, Inc.”; “members of the
class certified by the Court on June 2, 2016”; four
individuals who opted out of the class; the general

155a
categories of “West Virginia appraisers and/or
individuals who conducted or were otherwise involved
in appraisals for the loans in the class certified by the
Court on June 2, 2016”; and Quicken and TSI
employees generally who had contact with any
member of the certified class. The disclosure also
listed many new documents generally, including:
1. [d]ocuments and information relating to
members of the class certified by the Court on June 2,
2016 and the loans they obtained during the class
period, including loan files and loan journal notes;
2. records relating to the discharge, modification,
acceleration, refinance, surrender, foreclosure, and/or
modification of those loans, and public records
concerning the class members (e.g., bankruptcy and
other public filings);
3. “Emails and other business records of
Defendants which relate to the appraisal ordering and
review processes, or to legal and industry
requirements and guidelines”;
4. “Publicly-available documents relating to
appraisals, appraisal ordering, and appraisal review”;
and
5. “Publicly-available documents relating to the
discharge, modification, acceleration, refinance,
surrender, foreclosure, and/or modification of loans
obtained by members of the class certified by the
Court on June 2, 2016, and publicly-available
documents relating to the sale of any property
securing those loans.”

156a
On March 30, 2017, the parties again appeared for
a status conference and to address Quicken Loans and
Title Source’s Motion for Modification of Order as to
Status Conference [Doc. 266]. Again the defendants
reiterated that they wished an opportunity to present
evidence on egregiousness and on the issue of harm to
the class members, as well as a request for “very
targeted” discovery. The Court stated as follows:
All right. I’ve carefully gone over all of this.
The determination of the statutory penalties
under the Consumer Protection Act does involve
evidence of intent, knowledge and harm. And the
amount of penalty to be imposed by the Court
should have a relationship to the egregiousness of
the violation. However, this Court believes that
the egregiousness of the violation is something the
Court considers based upon the actions of Quicken
Loans and TSI. Therefore, I will permit the
defendants to present, I’ll say for right now, two
witnesses on the issue of their policies. And
there’s arguments made about how careful they
are and that’s fine, I’ll be glad to hear that.
The defendants make the argument that any
statutory penalty must bear a reasonable
relationship to the actual harm. I think that’s
wrong. I think the Vanderbilt case 1 settles that
issue.

Vanderbilt Mortgage & Finance, Inc. v. Cole, 230 W.Va.
505, 740 S.E.2d 562 (2013) (“under W. Va. Code § 46A-5-101(1)
(1996), an award of civil penalties is not conditioned on an award
of actual damages.”).
1

157a
In a footnote, the defendants argue that that’s
limited to five times the actual harm. That’s
under Garnes, 2 which is a punitive damages case.
And that was in the Brown 3 case where the Court
was considering damages for common law fraud,
not damages for a violation of the Consumer
Protection Act. These are not punitive damages.
It’s a statutory civil penalty. While there may be
somewhat of a punitive element to it, they are not
to be determined under the same standard as
punitive damages.
The issue of a jury demand on whether the
return of the appraisal fees is a request for which
there will be a jury, this Court disagrees. It’s a
request for equitable relief.
The return of
payments or the disgorgement of payments is an
equitable form of relief. And that’s backed up by
both the Sivolella 4 case, S-i-v-o-l-e-l-l-a, out of
Garnes v. Fleming Landfill, Inc., 186 W. Va. 658, 667, 413
S.E.2d 897, 908 (1991).
3 Quicken Loans, Inc. v. Brown, 236 W. Va. 12, 40, 777
S.E.2d 581, 609 (2014).
4 Sivolella v. AXA Equitable Funds Mgmt., LLC, 2013 WL
4096239, at **5-6 (D. N.J. July 3, 2013) (finding that because
plaintiffs were seeking disgorgement of the fees they were
charged, they were not seeking “some funds” … “but rather the
funds allegedly charged and retained by Defendants, and
therefore, “Plaintiffs’ claim is for equitable restitution and, as a
result, not triable to a jury”), citing Nat’l Sec. Sys., Inc. v. Iola,
700 F.3d 65,101 (3d Cir. 2012) (“It is undisputed that restitution
of ill-gotten commissions is an equitable remedy.”); Hanwha
Azdel, Inc. v. C&D Zodiac, Inc., 2013 WL 3989147, at *2 (W.D.
Va. Aug. 2, 2013) (a claim for disgorgement of specific profits and
to prevent unjust enrichment constitutes equitable restitution
and would be a remedy imposed “if at all, by the court and no[t]
by the jury.”).
2

158a
New Jersey in 2013; and the Gerald Moore and
Sons 5 case out of the Eastern District of Virginia
in 1996. The defendants have cited Curtis versus
Loether, L-o-e-t-h-e-r, 1974, U.S. Supreme Court
case, 6 but it specifically does not apply to cases
requiring the defendant to disgorge funds
wrongfully withheld from the plaintiff. It does not
apply to equitable restitution.
The defendants argue that we can’t have a
statutory penalty imposed until the damages trial
has been completed. Again, this Court disagrees.
I think that argument rests on the faulty premise
that the statutory penalties have to bear a
reasonable relationship to the harm.
On the issue of discovery, we had -- first of all,
this case has been pending for almost five years
now. We had a hearing on November 17th. At
that time it was determined what the defendant’s
really wanted was time to prepare and marshal
their evidence. And there was no need for
discovery. But they wanted 150 days to prepare.
And this Court gave them 150 days. Now less
than two months before the hearing, they want
massive discovery. You can call it targeted, but
that’s a lot of discovery. In addition, I don’t think
the information sought is relevant for this hearing
Gerald M. Moore & Son, Inc. v. Drewry & Assocs., Inc.,
945 F.Supp. 117, 120 (E.D. Va. 1996), citing Arkadelphia
Milling Co. v. St. Louis Southwestern Ry. Co., 249 U.S. 134
(1919).
6 Curtis v. Loether, 415 U.S. 189, 194 (1974) (“Nor is there
any sense in which the award here can be viewed as requiring
the defendant to disgorge funds wrongfully withheld from the
plaintiff.”).
5

159a
under the way this Court has interpreted the
rules or the rulings and the law concerning the
statutory damages.
Now, with regard to the issue of statute of
limitations, the burden’s on the defendant. If the
defendant can bring evidence that the class
member had actual knowledge that the defendant
sent an estimate of value to the appraiser and that
no payments were made within one year before
June 15th, 2012, I’ll boot them. In the absence of
that evidence, it’s not an issue.
Transcript of Proceedings, March 30, 2017 [Doc. 277,
pp. 4-7, (footnotes added)].
During the March 30 hearing, there was a
discussion of witnesses and exhibits. The defendants
indicated that they wished to call nine witnesses. The
Court indicated that nine witnesses appeared to be
excessive and repetitive. The defendants countered
that they could reduce the number of live witnesses to
five and present affidavits of the remaining four. It is
important to note that at no time did the defendants
request an opportunity to cross examine or challenge
any of the witnesses or documents which were already
in the record.
Furthermore, the defendants’
willingness to submit affidavits discloses that,
contrary to their present position, the defendants
were well aware that the hearing was not intended to
be a full hearing, but rather an opportunity for the
defendants to present additional evidence on the issue
of egregiousness.
The defendants identified Clint Bonkowski, A. J.
Ureel, Kristine Hughes, Amy Bishop and William

160a
Banfield as the five live witnesses to be called. Four
of these witnesses, all but Mr. Banfield, had never
been disclosed until March 10, 2017. Despite the
failure of the defendants to timely disclose these
potential witnesses, the Court determined to allow the
testimony (to the extent relevant) provided that the
defendants made the witnesses available for
deposition, so that the plaintiffs could discover the
witnesses’ expected testimony and the areas upon
which testimony would be given.
The depositions were taken on April 13 and 14 in
Detroit, Michigan. During the deposition, a portion of
the testimony was as follows:
Q. Do you know where the documents came from?
A. No.
Q. Aside from lawyers, did you talk to anybody
about the testimony that you’re going to provide
today?
A. No.
Q. So this matter has been set for a damages
hearing, and you’ve been disclosed as a potential
witness.
Do you know what your expected
testimony will be at that hearing?
A. No.
Q. Do you know any of the questions that you’ll be
asked at that hearing?
A. No.
Q. Do you know any of the issues that you’ll be
asked to address at that hearing?

161a
A. No.
Q. Do you know how - do you know if you’ll be
asked to provide testimony regarding any
damages that class members may have suffered?
A. No, I don’t know.
Q. Do you know why you were asked to testify?
A. No.
Q. The loan documents that you reviewed, do you
know why you were asked to review those
documents?
A. No.
[Doc. 289-2, p. 24].
During the deposition of Mr. Ureel, the following
occurred:
Q. What is going to be your expected testimony at
trial?
Mr. Savage (defense counsel): Well, if you know.
If it’s something that you know from lawyers, then
you don’t answer.
A. I can’t answer that.
Q. What were you - what are you here to talk
about? What knowledge or information do you
have to talk about today?
Mr. Savage: Objection. He’s here to answer your
questions.
A. I’m here to answer your questions.
Q. Well, I kind of need to know what I need to ask
you. So you’ve been designated as a potential

162a
witness at a hearing that’s going to be held on May
9th. And I’m trying to figure out - and the whole
reason for all of this is to figure out what you
intend to say. So what do you intend to say?
A. I intend to answer the questions that are posed
to me.
…
Q. What do you expect - - what are the types of
questions that you expect that you’ll answer?
A. I can’t answer that.
[Doc. 289-3, pp. 33-34].
This Court found this type of gamesmanship to be
unacceptable, being the type of conduct that the
Federal Rules were adopted to prevent and remedy.
The whole purpose of the depositions ordered by the
Court was so that the plaintiffs could have learned the
intended testimony of the late disclosed witnesses and
ameliorate the prejudice of having the witnesses
disclosed so very late in the proceedings.
For those reasons, this Court excluded Clint
Bonkowski and A.J. Ureel as witnesses at the hearing
on May 9. The parties had stipulated that Kristine
Hughes’ deposition may be used at the hearing [Doc.
294].
With respect to documents to be presented at the
hearing, any document that was not disclosed to the
plaintiffs by the disclosure of March 10, 2017, or
before was excluded. See Order Granting in Part and
Denying in Part Plaintiffs’ Motion to Exclude

163a
Witnesses and Documents at Damages Hearing [Doc.
310].
I.

Defendants’ Motion in Limine and
Memorandum of Law to Exclude Prior
Testimony of Michael Lyon [Doc. 301]

Prior to the May 9 hearing, the defendants filed
Defendants’ Motion in Limine and Memorandum of
Law To Exclude Prior Testimony of Michael Lyon
[Doc. 301]. In that motion, the defendants sought to
exclude the deposition and trial testimony of Michael
Lyon, alleging that this Court denied the defendants
the opportunity to present the testimony of Michael
Lyon at the May 9 hearing and that his testimony was
hearsay. At the beginning of the May 9 hearing, this
Court denied the Motion, noting that Michael Lyon
was one of the nine witnesses listed by the defendants.
When the defendants reduced their list of live
witnesses to five, it was the defendants who
determined not to include Michael Lyon among the
live witnesses, opting instead to file his affidavit
(which was not done). Defendants did, however,
designate portions of Mr. Lyon’s testimony for
consideration [Doc. 321].
In addition, the argument that Mr. Lyon’s prior
testimony in deposition and trial in the Brown case is
unavailing. Mr. Lyon was deposed and appeared as a
30(b)(6) witness on behalf of Quicken Loans in the
Brown case. His statements are, therefore, the
official position of Quicken.

164a
II.

Plaintiffs’ Motion in Limine to Preclude
Witnesses at Damages Hearing, and
Memorandum in Support [Doc. 311]

Also prior to the May 9 hearing, the plaintiffs filed
Plaintiffs’ Motion in Limine to Preclude Witnesses at
Damages Hearing, and Memorandum in Support
[Doc. 311]. This motion sought the exclusion of Phillip
Alig as a live witness. According to the motion, after
reducing the number of witnesses to five and
specifically naming those witnesses, the defendants
gave notice that they would also call Mr. Alig as a live
witness. In light of the fact that the witness list was
set and that the defendants did not seek leave to add
Mr. Alig to the list and in light of the fact that this
Court had previously ruled that damage to the
plaintiffs was not a issue at the hearing, this Court
ruled that the defendants could not call Mr. Alig as a
live witness, but could designate any portions of his
deposition that they desired.
III.

Defendants’ Motion and Incorporated
Memorandum to Strike Plaintiffs’
Response to Defendants’ Memorandum
Regarding Classwide Penalty under the
WVCCPA [Doc. 312]

In
Defendants’
Motion
and
Incorporated
Memorandum to Strike Plaintiffs’ Response to
Defendants’ Memorandum Regarding Classwide
Penalty under the WVCCPA [Doc. 312], filed May 3,
2017, the defendants seek to exclude Plaintiffs’
Response to Defendants’ Memorandum Regarding
Classwide Penalty under the WVCCPA [Doc. 300], on
the basis that at the November 17, 2016, status

165a
conference, this Court directed that such memoranda
be limited to ten pages, while the challenged
memorandum greatly exceeds the page limit. On May
5, the plaintiffs filed Plaintiffs’ Motion for Leave to
File an Amended Response to Defendants’
Memorandum Regarding Classwide Penalty under
the WVCCPA [Doc. 315], noting that they had
inadvertently overlooked the Court’s directive and
instead complied with this Court’s Local Rules. The
motion sought leave to file Plaintiffs’ Amended
Response to Defendants’ Memorandum Regarding
Classwide Penalty under the WVCCPA [Doc. 315-1],
in place of the challenged document.
This Court granted the motion on May 5, 2017, [Doc.
314], and the amended response was docketed [Doc.
315], rendering the Defendants’ Motion and
Incorporated Memorandum to Strike Plaintiffs’
Response to Defendants’ Memorandum Regarding
Classwide Penalty under the WVCCPA [Doc. 312]
moot.
IV.

Quicken Loans and Title Source’s
Combined Motions in Limine and
Memoranda of Law to Exclude
Documents Cited in Plaintiffs’ Summary
Judgment Briefing and Damages Briefing
[Doc. 325]

In this Motion, the defendants seek to exclude a
number of items from consideration by the Court in
determining the amount of statutory damages to be
awarded in this case for the violations of the
WVCCPA. Many of the items about which the
defendants complain were not considered by the Court

166a
in determining the appropriate relief, and the Motion
is moot with respect to those items. It would appear
that the cleanest way to resolve the Motion is to
discuss the items which the Court did consider and
the basis upon which the items were deemed
admissible.
First this Court considered a number of
governmental publications or directives, to which it
would appear the defendants did not object, including
(1) the Mortgagee Letter 96-26, authored by Nicholas
P. Retsinas, Assistant Secretary for Housing, on
behalf of the Federal Housing Commissioner (May 21,
1996); (2) the letter from the Office of the Comptroller
of the Currency to K. Kaiser, Chairman of The
Appraisal Standards Board (July 28, 1999); (3) the
2005 “Interagency Statement” issued by the
Comptroller of the Currency, Board of Governors of
the Federal Reserve System, Federal Deposit
Insurance Corporation, Office of Thrift Supervision,
and National Credit Union Administration; and (4)
the Home Valuation Code of Conduct.
The defendants object to this Court’s consideration
of Mortgagee Letter 2009-28, which is cited solely for
the purpose of demonstrating that the letter
reconfirmed the position taken in the 1996 letter
concerning transmitting suggested values to an
appraiser. For that purpose, the letter is certainly
relevant.
In addition, the Court considered the 2007 Online
Appraiser Petition, to which the defendants do object.
The Petition is not relevant for the purpose of proving
that Quicken applied pressure. Rather, the Petition

167a
is relevant to show that the appraisal industry
deemed attempts to influence appraisers was
inappropriate under industry standards because it
stripped appraisers of their independent judgment
and resulted in a dishonest and potentially harmful
process.
Furthermore, the petition is relevant
because it confirms that the practice of using target
figures was widely, if not universally, condemned. For
these reasons, the petition is both relevant and
admissible, and defendants’ motion will be denied
with respect to this information.
The Court also considered the survey of appraisers
referred to and considered by the United States
District Court for the Southern District of New York
in Fed. Housing Agency v. Nomura Holding
Amer., Inc., 104 F.Supp.3d 441, 461 (S.D. N.Y. 2015).
Again, this survey is relevant to demonstrate the level
of condemnation of the practice of providing suggested
values to appraisers.
The Court also considered Judge Recht’s order in
Brown v. Quicken Loans Inc., Civ. No. 08-C-36,
Ohio County, W. Va., in which he found “[n]o
legitimate purpose is served by providing an
appraiser with an estimated value of a property. The
only purpose could be to inflate the true value of the
property.” This order is certainly not hearsay and is
relevant to show that other jurists share this Court’s
opinion of the propriety of sending values to an
appraiser.
This Court also considered the deposition testimony
of Michael Lyon, Jennifer Randle, and Jordan
Petsovski. These depositions are clearly admissible

168a
under Fed.R.Civ. P. Rule 32(a)(4)(B). In fact, the only
deposition to which the defendants object is that of
Michael Lyon, which is discussed in Section III of this
Order, supra.
Finally, this Court considered two emails among
Quicken executives. As noted by the defendants,
emails do present difficulties in connection with the
business records exception to the hearsay rule. “While
properly authenticated e-mails may be admitted into
evidence under the business records exception, … [a]n
e-mail created within a business entity does not, for
that reason alone, satisfy the business records
exception of the hearsay rule.” United States v.
Cone, 714 F.3d 197, 220 (4th Cir. 2013) (internal
quotations and citations omitted).
Rule 803(6)(B) allows for the introduction of records
that are “kept in the course of a regularly conducted
activity of a business.” For a record to be admitted as
a business record, it must be “(1) made by a regularly
conducted business activity, (2) kept in the ‘regular
course’ of that business, (3) ‘the regular practice of
that business to make the memorandum,’ (4) and
made by a person with knowledge or from information
transmitted by a person with knowledge.” Id. at 219.
In this case, the Court is considering the emails.
These emails were uncovered by the Department of
Justice in its investigation of Quicken.
They
represent a regularly conducted activity. They have
been kept for years in the records of the Quicken.
They deal with a subject matter clearly within the
business of Quicken and TSI. They are made by high
ranking executives with knowledge of the defendants’

169a
processes and procedures. Finally, the defendants
have never questioned the authenticity of the emails.
Returning to the defendants’ Motion, the following
are sought to be excluded:
A. Plaintiffs Should Be Precluded from Introducing
Exhibits And Portions of the Record Related to
Fees
This Court did not consider any such evidence in
ruling on the award of statutory damages.
B. Plaintiffs Should Be Precluded from Introducing
Documents Related to Loans Outside the Scope
of the Class
Defendants seek to exclude documents related to
the Sheas’ 2006 loan and the Aligs’ 2011 loan,
including trial testimony from Walters v. Quicken
Loans, Inc., No. 11-C-1123 at 68-69 (April 19, 2015)
[Doc. 293 Ex. D]; Brown Dep. at 168:18-169:10
(discussing Alig 2011 loan) [Doc. 199 Ex. EE]; Alig
2011 HUD-1 Settlement Statement [Doc. 199 Ex. P];
Alig Loan Files including 2011 HUD-1 Settlement
Statement [Doc. 173 Ex. C]; and Shea 2006 HUD-1
Settlement Statements [Doc. 199 Ex. Q].
The Court did not consider any of these items in
ruling on the award of statutory damages.
C. Websites from after the Class Period Should Be
Excluded
Defendants seek to exclude two articles from
Quicken Loans’ website from after the class period in

170a
this case—one from 2010 and the other from 2015.
See Quicken Loans, Important Information You
Should Know Regarding Appraisals, available at
https://www.quickenloans.com/blog/importantinformation-appraisals (December 15, 2010) [Doc. 300
at 9]; Blog Post: Terms You Should Understand When
Getting
a
Mortgage,
available
at
http://www.quickenloans.com/blog/terms-you-shouldunderstand-when-getting-a-mortgage (July 27, 2015)
[Doc. 199 at 5, 22]. The Court did not consider any of
these items in ruling on the award of statutory
damages.
D. Plaintiffs Should Be Precluded from Offering
Regulatory Evidence Dated after the Class
Period
Defendants seek to exclude Mortagee Letter 200928, discussed above. This letter is relevant to show
that it reconfirmed the prior opinion that suggested
values should not be sent to appraisers and to dispel
the argument that it was not until this letter came out
that the defendants were aware of the problem.
E. Plaintiffs Should Be Precluded from Introducing
Deposition Testimony
Defendants seek to exclude the deposition
testimony of the Aligs, Jody Hill, Philip Jackson, Troy
Sneddon, and John Kelly, none of which was
considered by the Court in ruling on the issue of
statutory damages.

171a
The persons whose deposition testimony was
considered are or were Quicken and/or TSI employees
who live more than 100 miles from the Courthouse.
F. The Appraiser Petition Should Be Excluded
This issue is addressed above.
G. Plaintiffs Should Be Precluded from Offering
Quicken Loans’ Employees’ Emails
This issue is addressed above.
H. Plaintiffs Should Be Precluded from Introducing
Expert Reports
The defendants seek to exclude the expert reports of
Jody Hill and Philip Jackson, neither of which were
considered by the Court in ruling on the issue of
statutory damages.
I.

Various Opinions by Third Parties about the
Mortgage Industry Should Be Excluded

The defendants seek to exclude Michael Lewis, The
Big Short: Inside the Doomsday Machine [Doc. 199 at
5 n. 10] and National Community Reinvestment
Coalition
Executive
Vice
President
David
Berenbaum’s testimony before the Senate Committee
on
Banking,
Sub-Committee
on
Housing,
Transportation and Community Development (June
26, 2007), available at http://www.banking.senate.
gov/public/_files/berenbaum.pdf [Doc. 212 at 3 n. 4],
neither of which were considered by the Court in
ruling on the issue of statutory damages.

172a
J.

Plaintiffs Should Be Precluded from Introducing
Treatises And Industry Sources

The defendants seek the exclusion of several
treatises and industry sources for the truth of certain
statements alleging that representations and
warranties and the repurchase process did not deter
improper conduct in the lending industry. See Fitch
Ratings, The Impact of Poor Underwriting Practices
and Fraud in Subprime RMBS Performance,
http://blenderlaw.umlaw.net/wpcontent/uploads/2007
/11/fitchfraud1 .pdf [Doc. 300 at 10]; Patricia McCoy
& Susan Wachter, Representations and Warranties:
Why They Did Not Stop the Crisis, Digital Commons
@ Boston College Law School (June 2, 2016), available
at
http://lawdigitalcommons.bc.edu/
cgi/viewcontent.cgi?article=2044&context=lsfp [Doc.
300 at 11]; NCLC, Mortgage Lending §6.6.1 [Doc. 300
at 10]. This Court did not consider any such materials
in reaching its statutory damage decision.
K. Documents from Other Court Cases Should Be
Excluded
This Court disagrees that the rulings and findings
of courts with jurisdiction are hearsay. This Court
considered the findings of Judge Recht as noted above.
This Court also considered other cases for their legal
findings.
L. Michael Lyon’s Testimony from Brown V.
Quicken Loans and Nicewarner V. Quicken
Loans Should Be Excluded
This issue is discussed above.

173a
M. Plaintiffs Should Be Precluded from Introducing
Statements or Pleadings from Other Cases
Against Quicken Loans
In this category, Quicken seeks to exclude plaintiffs’
citation to case law involving Quicken.
Again,
plaintiffs offer these cases as background and legal
authority within a legal brief, for the Court to consider
in making legal determinations as appropriate. The
Court is able to take judicial notice of these sources,
just as it took judicial notice of West Virginia statutes
during the recent hearing. It is wholly appropriate for
the Court to review and rely on other decisions as it
sees fit. For example, this Court has repeatedly relied
on the decisions in the Brown v. Quicken litigation
as support in this case. [Doc. 227 at 6-7, 10, 12, 17,
19-21]. In fact, this Court cited with approval Judge
Recht’s determination that “[n]o legitimate purpose is
served by providing an appraiser with an estimated
value of a property. The only purpose could be to
inflate the true value of the property.” Nonetheless,
the Court went on to independently come to the same
conclusion. [Id. at 11]. Likewise, the Court may
consider that the District Court for the Eastern
District of Michigan found that it is plausible that
lenders were on notice in 1996 that “[p]roviding to the
appraiser an anticipated, estimated, encouraged or
desired value for a subject property or a proposed or
target amount to be loaned to the borrower …” was
prohibited by FHA regulations. See, United States
v. Quicken, 2017 WL 930039, at **7-8.
The case law cited may also be considered in testing
the credibility of Quicken’s testimony that it acted at
all times in good faith and engaged in conservative

174a
lending practices. The body of case law documents a
series of complaints from consumers, the government
and former employees relating to inflating appraisals
and predatory lending. The very existence of the
present DOJ action, which alleges pursuant to the
False Claims Act that Quicken knowingly approved
loans that violated the Fair Housing Act (FHA) while
falsely certifying compliance with those rules and
submitted claims for payment when those loans
defaulted, undermines Quicken’s unsupported
testimony at the hearing that it “does the right thing”;
is economically motivated to avoid predatory conduct;
or utilizes conservative policies and procedures.
Through this action, the government alleged
specifically that Quicken systematically sought to
influence appraisers. See United States v. Quicken,
2017 WL 930039, at **6-8. The Court may of course
consider the existence of this action in weighing the
evidence. Indeed, the Nicewarner court similarly
cited the DOJ action in denying Quicken’s summary
judgment motion.
The decisions in Bishop v. Quicken Loans, Inc.,
2011 WL 1321360 (S.D. W.Va. 2011); O’Brien v.
Quicken Loans, Inc., 2013 WL 2319248, at *6 (S.D.
W.Va. May 28, 2013); and Nicewarner v. Quicken
Loans Inc. (Cir. Ct. Kanawha Cty. W.Va. Jan. 13,
2016) all reflect consumer complaints that Quicken
chose to utilize the higher of two available appraisals
allegedly resulting in upside down loans. Likewise,
Henry v. Quicken Loans Inc., 2009 WL 3270768
(E.D. Mich. July 16, 2009) reflects complaints by
Quicken’s employees regarding such things as
training them to overcome consumers’ objections. See

175a
also, Brown I, 230 W. Va. 306, at fn. 6 (quoting a
script Quicken used to overcome objections).
The repeated complaints of this nature, which are
indisputably reflected in the cited litigation, makes
Quicken’s self-serving overtures that it does “the right
thing” difficult to believe and, therefore, may be
considered for that non-hearsay purpose, as well as
legal authority.
V.

Defendant’s (sic) Motion to Decertify the
Class [Doc. 327]

Almost one year since this Court certified the class
in this case, new counsel for the defendants moves to
decertify the class despite the fact that no new
discovery has occurred.
“[D]istrict courts have an affirmative duty to
reassess their class certification rulings as the case
develops, and to decertify a class or otherwise alter a
certification decision as appropriate in light of
developments in the case.” Moore’s Federal
Practice § 23.87 at 23-405 (3d ed.).
However, “[i]n revisiting an earlier certification
decision, a court may modify or decertify, but
decertification is a drastic step, not to be taken
lightly.” 3 Newberg on Class Actions § 7:37 (5th ed.
2013).
To be sure, an “order granting class
certification is not an untouchable determination.”
Minter v. Wells Fargo Bank, 2013 WL 1795564, *2
(D. Md. Apr. 26, 2013). Indeed, “an order certifying a
class must be reversed if it becomes apparent, at any
time during the pendency of the proceeding, that class

176a
treatment of the action is inappropriate.” Stott v.
Haworth, 916 F.2d 134, 139 (4th Cir. 1990). A motion
to decertify is not, however, to be treated as another
bite at the apple in the absence of changed
circumstances. As the United States District Court
for the District of Maryland recently observed, “[t]he
breadth of this obligation [to reverse certification if
necessary] … is tempered by commentary in the
Advisory Committee Notes which provide that
altering certification is appropriate ‘upon fuller
development of the facts.’” Minter, *2 (citing 1996
Amendment Advisory Committee Notes).
Courts thus consistently hold that “there must be
some development or change in circumstances to
merit revisiting a class certification decision.” In re
J.P. Morgan Chase Cash Balance Litig., 255
F.R.D. 130, 133 (S.D. N.Y. 2009) (citing cases). As
such, courts should be wary of motions to decertify
which simply reargue certification “[i]n the absence of
materially changed or clarified circumstances.” 3
Newberg on Class Actions § 7:47 (4th ed. 2012).
That new facts or law should support a motion is a
widely recognized concept. See Zimmerman v.
Portfolio Recovery Assocs., LLC, 2013 WL
1245552, at *5 (S.D. N.Y. March 27, 2013) (declining
to decertify class when there was “no new evidence
concerning the nature of the class members’ debts”);
Connor B. v. Patrick, 278 F.R.D. 30, 35 (D. Mass.
2011) (“[a]llowing litigants to file a motion to decertify
at any time during the litigation, even when no
subsequent case law or new facts have had any impact
on the original rationale, would render Rule 23(f)
meaningless.”); Schell v. OXY USA Inc., 2013 WL
4857686, at *4 (D. Kan. Sept. 11, 2013) (denying

177a
motion to decertify class after discussing arguments
presented and finding “[a]ll of these circumstances
were known by the parties at the time they briefed the
motion for certification. [Defendant] has provided no
new evidence or law on this element, so the court finds
that the named plaintiffs still meet the adequacy of
representation element.”); Kubiak v. S.W. Cowboy,
Inc., 2015 WL 12859422 (M.D. Fla. Mar. 11, 2015)
(same); J.S. v. Attica Cent. Sch., 2011 WL 4498369,
*6 (W.D. N.Y. Sept. 27, 2011) (denying motion to
decertify when defendant “fail[ed] to present new
facts or legal argument”); Elias v. Ungar’s Food
Prods., Inc., 2009 WL 2581502, *5 (D. N.J. Aug. 20,
2009) (no decertification because court already
rejected proposition “that an individual inquiry would
be necessary for each class member”); Connor B. ex
rel. Vigurs v. Patrick, 278 F.R.D. 30, 34, 36 (D.
Mass.
2011) (denying
decertification where
defendants argued that plaintiffs failed to satisfy the
commonality requirement because the argument was
“largely identical to the argument this court rejected
in its original certification order”).
In addition, “[c]ourts faced with a motion to
decertify must also take account of the progression of
the litigation.” Jermyn v. Best Buy Stores, 276
F.R.D. 167, 169 (S.D. N.Y. 2011); see also Woe v.
Cuomo, 729 F.2d 96, 107 (2d Cir. 1984) (finding abuse
of discretion where district court decertified the class
after granting summary judgment in part).
“Decertification is an ‘extreme step,’ particularly at a
late stage in the litigation, ‘where a potentially proper
class exists and can easily be created.” Gulino v. Bd.
of Educ. of City School Dist., 2012 WL 6043803, at
*8 (S.D. N.Y. Dec. 5, 2012) (quoting Woe, 729 F.2d at

178a
107; see also Easterling v. Conn. Dep’t of Corr., 278
F.R.D. 41, 42 (D. Conn. 2011) (“[a] court should be
wary of revoking a certification order completely at a
late stage in the litigation process.”).
Defendants seek to decertify the class, advancing
the following arguments:
1.

The class includes borrowers with no injury
and thus no standing;

2.

Numerous individual inquiries infect the
contract claim;

3.

Statutory penalties cannot be awarded
without individualized evidence; and

4.

Equitable tolling cannot be decided without
individualized evidence.

Despite the re-assertion of these arguments, this
Court remains convinced that the class certified in
this case is appropriate and manageable.
Quicken’s first argument is that some class
members did not suffer a “concrete injury” and
therefore lack standing under the Supreme Court’s
decision in Spokeo v. Robins, 136 S.Ct. 1540 (2016).
This argument fails as a matter of law from the outset,
as it is well settled that “if a class representative has
standing, the case is justiciable and the proponent of
the class suit need not demonstrate that each class
member has standing.” Newberg on Class Actions §
2:3 (5th ed.); see also Dreher v. Experian Info.
Solutions, Inc., 856 F.3d 337 (4th Cir. 2017) (“In a
class action matter, we analyze standing based on the

179a
allegations of personal injury made by the named
plaintiff’), quoting Beck v. McDonald, 848 F.3d 262,
269-70 (4th Cir. 2017), in turn citing Doe v. Obama,
631 F.3d 157, 160 (4th Cir. 2011); see also Neale v.
Volvo Cars of North Am., LLC, 794 F.3d 353, 362
(3d Cir. 2015); Kohen v. Pacific Inv. Mgmt. Co.
LLC, 571 F.3d 672, 676 (7th Cir. 2009); Milbourne v.
JRK Residential Am., LLC, 2016 WL 1071564, at *6
(E.D. Va. Mar. 15, 2016) (Payne, J.); Lewis v. Casey,
518 U.S. 343, 395 (1996) (Souter, J., concurring).
There is no question that the Aligs have standing to
redress the concrete injury incurred by Quicken’s
conduct. In Spokeo, the Supreme Court addressed
the injury-in-fact requirement for Article III standing.
The Court’s decision did not change the law of
standing, and Quicken is wrong as to its application
here.
Instead, the Court confirmed the longestablished principle that “standing consists of three
elements.” Spokeo v. Robins, 136 S.Ct. 1540, 1547
(May 16, 2016) (citing Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560 (1992)). “The plaintiff
must have (1) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the
defendant, and (3) that is likely to be redressed by a
favorable judicial decision.” Id. The Court further
confirmed that to establish injury in fact—the
element primarily at issue in Spokeo—a plaintiff
must “allege an injury that is both ‘concrete’ and
‘particularized.’” Id. at 1545 (citing Friends of the
Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc.,
528 U.S. 167, 180-81 (2000) (emphasis added in
Spokeo)).
According to the Supreme Court, a
“particularized” injury “must affect that plaintiff in a
personal and individual way.” Spokeo, 136 S.Ct. at

180a
1548. The Court agreed with the Ninth Circuit that
the Spokeo plaintiff had suffered a particularized
injury because he claimed that the defendant—an
alleged credit-reporting agency that had reported
false information about him— “violated his statutory
rights,” and his “interests in the handling of his credit
information are individualized rather than collective.”
Id. (quotation omitted). Further, Spokeo confirmed
that a “concrete” injury “must actually exist.” Id.
However, a “concrete” injury may also be “intangible.”
Id. at 1549. Spokeo indicated two approaches for
establishing that an intangible injury is “concrete.”
“In determining whether an intangible harm
constitutes injury in fact, both history and the
judgment of Congress play important roles.” Id. First,
courts should consider whether an alleged intangible
harm “has a close relationship to a harm that has
traditionally been regarded as providing a basis for a
lawsuit in English or American courts.” Id. (citing
Vermont Agency of Nat’l Res. v. U.S. ex rel.
Stevens, 529 U.S. 765, 775-77 (2000)). A plaintiff may
therefore demonstrate that she suffered a concrete
injury by showing that her injury is analogous to a
harm traditionally recognized at common law.
Second, Congress may identify and “elevate to the
status of legally cognizable injuries concrete, de facto
injuries that were previously inadequate at law.” Id.
(citation and internal quotation marks omitted).
Congress “has the power to define injuries and
articulate chains of causation that will give rise to a
case or controversy where none existed before”
because Congress “is well positioned to identify
intangible harms that meet minimum Article III
requirements.” Id. Of course, state statutes may also

181a
serve to define these injuries. See Gen. Tech.
Applications, Inc. v. Exro Ltda, 388 F.3d 114, 118
(4th Cir. 2004) (“In a diversity case, [the court] must
consult state law to determine the nature of the
litigant’s rights and whether he is entitled to assert
the claims he makes.”).
Courts applying Spokeo in consumer credit cases
have overwhelmingly found that violations of the Fair
Debt Collection Practices Act (“FDCPA”) provide for
Article III standing even with violations far less
serious than Quicken’s conduct here. In Church v.
Accretive Health, Inc., the Eleventh Circuit found
Article III standing when a plaintiff alleged that
defendant violated the FDCPA by not including in its
debt collection letter certain disclosures required by
the Act. 654 Fed. Appx. 990 (11th Cir. 2016). The
plaintiff did not allege that she suffered actual
damages, but the court found she had “alleged injury
to her statutorily-created right to information
pursuant to the FDCPA” because that Act “creates a
private right of action, which Church seeks to
enforce.” Id. at 994. Importantly, while “the injury
may not have resulted in tangible economic or
physical harm that courts often expect, the Supreme
Court has made clear that an injury need not be
tangible to be concrete.” Id., citing Spokeo, 136 S.Ct.
at 1549. “Rather, this injury is one that Congress has
elevated to the status of a legally cognizable injury
through the FDCPA,” and plaintiff therefore satisfied
the injury-in-fact requirement. Id.
Courts around the country have been in accord
when considering various violations of the FDCPA’s
debt collection provisions that did not necessarily give

182a
rise to actual damages. See Linehan v. Allianceone
Receivables Mgmt., Inc., 2016 WL 4765839, at *7
(W.D. Wash. Sept. 13, 2016) (“The goal of the FDCPA
is to protect consumers from certain harmful
practices; it logically follows that those practices
would themselves constitute a concrete injury”);
Prindle v Carrington Mortg. Servs., LLC, 2016
WL 4369424, at *9 (M.D. Fla. Aug. 16, 2016); Larson
v. Trans Union, LLC, 201 F.Supp.2d 1103 (N.D. Cal.
2016); Dickens v. GC Servs. Ltd. P’ship, 2016 WL
3917530, at **1-2 (M.D. Fla. July 20, 2016); Lane v.
Bayview Loan Servicing, LLC, 2016 WL 3671467,
at **3-5 (N.D. Ill. July 11, 2016); Macy v. GC Servs.
Ltd. P’ship, 2016 WL 5661525, at **2-4 (W.D. Ky.
Sept. 29, 2016); Daubert v. Nra Grp., LLC, 2016 WL
4245560, at *4 (M.D. Pa. Aug. 11, 2016); Quinn v.
Specialized Loan Servicing, LLC, 2016 WL
4264967, at *5 (N.D. Ill. Aug. 11, 2016); Irvine v. I.C.
Sys., Inc., 198 F.Supp.3d 1232, 1237 (D. Colo. 2016);
McCamis v. Servis One, Inc., 2016 WL 4063403 at
*2 (M.D. Fla. July 29, 2016).
Post-Spokeo decisions issued within the Fourth
Circuit interpreting other consumer protection
statutes with statutory damage provisions are no
different. For example, courts have found that the
annoyance of receiving unwanted telemarketing calls
is a sufficiently concrete injury to confer Article III
standing. Mey v. Got Warranty, Inc., 193 F.Supp.3d
641 (N.D. W.Va. 2016); Krakauer v. Dish Network
L.L.C., 168 F.Supp.3d 843 (M.D. N.C. 2016) (Eagles,
J.) (declining to decertify classes upon finding class
representative’s allegations showed a “concrete injury
to him and to each class member”). Courts have
similarly recognized a right of privacy in one’s

183a
consumer report under the Fair Credit Reporting Act.
Burke v. Fed. Nat’l Mortg. Assoc., 2016 WL
4249496, at *4 (E.D. Va. Aug. 9, 2016) (Hudson, J.),
vacated upon parties’ settlement and finding of no
jurisdiction by 2016 WL 7451624 (Dec. 6, 2016);
Thomas v FTS USA, LLC, 193 F.Supp.3d 623, 637
(E.D. Va. 2016) (Payne, J.)
The West Virginia legislature enacted the WVCCPA
to “protect consumers from unfair, illegal, and
deceptive acts or practices by providing an avenue of
relief for consumers who would otherwise have
difficulty proving their case under a more traditional
cause of action.” Bourne v. Mapother & Mapother,
P.S.C., 998 F.Supp.2d 495, 501 (S.D. W.Va. 2014)
(Faber, J.) (quoting State ex rel. McGraw v. Scott
Runyan Pontiac-Buick, Inc., 194 W.Va. 770, 461
S.E.2d 516, 523 (1995)). The legislature created a
private right of action for violations. W. Va. Code §
46A-5-101. This Court has found that defendants
violated a section of the WVCCPA, § 46A-2-121, which
prohibits unconscionable inducement of consumer
loans, with respect to each class member’s loan. [Doc.
227, p. 54].
In enacting this provision of the
WVCCPA, the legislature recognized that West
Virginia consumers have the right to consumer loans
that are not unconscionably induced. Consistent with
the
authority
above
recognizing
concrete,
particularized harm created by statutory violations
far less egregious than Quicken’s conduct here,
Quicken’s violation of this statutorily-created, legally
cognizable right creates a concrete harm to the Aligs
as class representatives – and indeed as to each class
member – sufficient to establish standing for each
member of the class.

184a
In addition, Quicken misinterprets this Court’s
findings when it represents that the Aligs’
unconscionability claim relied on any individualized
facts. As this Court has already determined when it
certified the class, the injury of receiving a tainted,
unreliable loan as a result of Quicken’s
unconscionable conduct does not rely on any
appraiser’s individual testimony or the facts of any
individual loan. Tellingly, Quicken does not cite a
single case interpreting Spokeo, let alone one in a
consumer statute case, alleging common class-wide
conduct like that this Court has already found here,
and where statutory damages are sought. Instead,
Quicken cites pre-Spokeo cases where plaintiffs’ proof
was individualized or where class members sought
actual damages which necessarily depended on
individualized facts. Plaintiffs and all class members
unquestionably have standing to redress Quicken’s
unconscionable conduct.
Next, defendants state, in direct contrast to their
position throughout this litigation and to their
executed stipulation on file with the Court, that not
all class members had a contract, and some signed a
different agreement from the Deposit Agreement.
[Doc. 324-3, at 8]. Yet the stipulation Quicken’s
counsel executed and filed on March 15, 2016, stated:
Quicken Loans stipulates that the Interest Rate
Disclosures and/or Deposit Agreements for the
named Plaintiffs’ loans (Quicken 15, 699, 1031,
1625) are representative of the standard deposit
agreements used by Quicken Loans from 2002 to
the present.

185a
[Doc. 168].
This stipulation was submitted during the class
certification briefing and Quicken has never before
questioned whether the contracts were uniform. The
declaration contradicting the stipulation filed in
March 2016 will be stricken because it contradicts
evidence Quicken has already submitted in this case.
While technically applicable to motions for summary
judgment, defendants’ conduct here is generally
improper under the sham affidavit rule, a firmly
established part of Fourth Circuit law.
See
Rohrbough v. Wyeth Labs., Inc., 916 F.2d 970, 975
(4th Cir. 1990). Under the “sham affidavit” rule, “a
party cannot create a genuine issue of fact sufficient
to survive summary judgment simply by contradicting
his or her own previous sworn statement (by, say,
filing a later affidavit that flatly contradicts that
party’s earlier sworn deposition) without explaining
the contradiction or attempting to resolve the
disparity.” Cleveland v. Policy Mgmt. Sys. Corp.,
526 U.S. 795, 806 (1999).
This Court will leave until later, if necessary, to
determine whether there would exist an implied
contract to receive a fair, untainted appraisal.
Defendants next argue, also for the first time, that
class members’ own performance under the contracts
cannot be “presumed on a class basis”. Defendants
speculate that, if any class member attempted to
influence an appraiser, it would constitute a breach of
the agreement by the borrower. This argument is
frankly illogical. Putting aside the fact that Quicken
has never before raised such a defense, there is no

186a
language in the Deposit Agreement obligating a
borrower to provide a fair and accurate appraisal; that
obligation falls solely on the part of the lender,
Quicken. Of course, this makes sense, as it is the
lender, not the borrower, who is responsible for hiring
the appraiser – and from whom the appraiser can
expect repeat business if expectations are met.
Quicken’s remaining contract arguments were
already addressed by this Court at the March 30, 2017
hearing when the Court found that plaintiffs’ request
for equitable relief in the form of the return or
disgorgement of payments is simply an equitable form
of relief. [Doc. 277, Mar. 30, 2017 Transcript at 5-6].
The issue was also thoroughly briefed in conjunction
with plaintiffs’ motion for summary judgment on
contract damages, discussed below. The primary flaw
in Quicken’s argument is that the Deposit Agreement
was a separate, stand-alone contract that was
independent from the loan agreements. The status of
the loans is irrelevant to the separate contract duty
that this Court explained required Quicken to obtain
the fair, valid and reasonable appraisals that
plaintiffs and class members bargained (and paid) for
but did not receive. Instead, they received unreliable,
worthless appraisals and have all been damaged,
making restitution appropriate.
In sum, Quicken’s position that the Court may not
award a refund of the contract fees on a class-wide
basis is incorrect, and there are no individualized
issues bearing on predominance because this relief
may be readily awarded based on class-wide data
already available.

187a
Defendants next argue that class-wide statutory
penalties cannot be awarded without individualized
evidence. However, as this Court has repeatedly
recognized, the amount of the award of statutory
penalties is dependent on the level of egregiousness of
Quicken’s conduct. [Doc. 277, pp. 4-5]. (“[T]he
amount of penalty to be imposed by the Court should
have a relationship to the egregiousness of the
violation. However, this Court believes that the
egregiousness of the violation is something the Court
considers based upon the actions of Quicken Loans
and TSI”; see also [Doc. 336, May 9, 2017 Transcript
at 6:22-25]; Clements v. HSBC Auto Finance, Inc.,
2011 WL 2976558, at *7 (S.D. W.Va. July 21, 2011)
(“The amount of a [WVCCPA] penalty should have a
direct relationship to the egregiousness of the
violation”). This Court has already considered and
rejected defendants’ argument – which is still, and has
always been, about actual harm.
Statutory damages may be awarded on a class-wide
basis here because Quicken’s conduct was uniform as
to the class. Soutter v. Equifax Info. Servs., LLC,
498 F.App’x 260 (4th Cir. 2012), a Fair Credit
Reporting Act case, is readily distinguishable because
that court recognized that the methods the defendant
credit reporting agency used to collect credit
information from the courts had a significant bearing
on individual claims. For example, Equifax used “at
least three different means of collecting general
district court records during the class period,” and
Soutter’s claims therefore “varie[d] from any potential
class plaintiff with a circuit court judgment, and from
many potential plaintiffs with general district court
judgments,” which made proof of whether Equifax’s

188a
behavior was unreasonable vary case-by-case. In
contrast, there is absolutely no difference in
defendants’ conduct here as to the members of the
proposed classes, let alone a meaningful one. In such
circumstances, where defendant’s conduct is uniform
as to the class, class certification is appropriate. See
Stillmock v. Weis Mkts., Inc., 385 Fed.App’x 267,
273 (4th Cir. 2010) (reversing denial of certification
and finding questions of liability predominating
because “the qualitatively overarching issue by far is
the liability issue of the defendant’s willfulness, and
the purported class members were exposed to the
same risk of harm every time the defendant violated
the statute in the identical manner”); Ealy v.
Pinkerton Gov’t Servs., Inc., 514 F.App’x 299, 305
(4th Cir. 2013) (same); Ramirez v. Trans Union,
LLC, 301 F.R.D. 408, 420 (N.D. Cal. 2014) (finding
typicality met and finding defendant’s reliance on
Soutter “misplaced” because the Soutter court found
there were “meaningful differences between her claim
and class claims” but that in present case the record
showed that defendant’s conduct was uniform as to
the class). See also Deiter v. Microsoft Corp., 436
F.3d 461, 466-67 (4th Cir. 2006) (typicality does not
require “that the plaintiff’s claim and the claims of
class members be perfectly identical or perfectly
aligned.”).
Quicken’s argument that class members did not
necessarily suffer identical harm – even if relevant as
a matter of law to this WVCCPA case – would
effectively preclude class certification in any
consumer case. Instead, consumer statutes allow for,
and courts award, uniform class-wide penalties in
such cases. For example, the Telephone Consumer

189a
Protection Act of 1991, 47 U.S.C. § 227 (“TCPA”) is a
federal consumer statute which restricts telephone
solicitations and the use of automated telephone
equipment. The “Do Not Call” provisions of the TCPA,
like the WVCCPA, allow for statutory penalties. 47
U.S.C. § 227(b)(3)(B).
In a recent class case,
Krakauer v. Dish Network L.L.C., a jury awarded
$400 for each call that violated the Do Not Call
provisions of the TCPA. 2017 WL 2242952, at *2 (M.D.
N.C. May 22, 2017). The district court then trebled
that award upon finding that defendants had willfully
and knowingly violated the TCPA. Id. at *12. In a
prior order examining standing under Spokeo and
denying defendants’ motion to decertify the class, the
Krakauer court recognized that not every class
member’s experience was the same: “While class
members did not necessarily pick up or hear ringing
every call at issue in this case, each call created, at a
minimum, a risk of an invasion of a class member’s
privacy. Spokeo clarified that a “risk of real harm”
was enough to show concrete injury.” Krakauer v.
Dish Network L.L.C., 168 F.Supp.3d 843, 845 (M.D.
N.C. 2016).
Here, the Court’s liability finding
recognizes the class-wide risk that Quicken’s
unconscionable conduct created, and a class-wide
award is consistent with that finding as well as
expressly permitted by the statute.
Uniform statutory penalties are also frequently
awarded under the WVCCPA, most often in a
settlement class context. This Court has awarded
class-wide statutory penalties not only in Dijkstra v.
Carenbauer, 5:11-cv-152, where each class member
was subject to the same unconscionable lending
practice but not necessarily to the same actual harm,

190a
and in Diloreti v. Countrywide Home Loans, Inc.,
No. 5:14-cv-00076, wherein it approved a class
settlement that resolved identical allegations of
appraiser influence to those here and wherein class
members received the same penalty amount. [Doc.
341-1]; see also Final Orders approving settlements
[Doc. 341-2], in Archbold v. Wells Fargo Bank,
N.A., 2015 WL 4276295 (S.D. W.Va. July 14, 2015)
(approving settlement involving “per loan statutory
penalty amount to settlement class members” whose
loans were serviced by Wells Fargo and who were
assessed and paid attorneys’ fees); Triplett v.
Nationstar Mortgage, LLC, No. 3:11-cv-238 (S.D.
W.Va. Oct. 16, 2012) (approving settlement involving
class-wide statutory penalties awarded via pro rata
distribution to class members charged unlawful late
fees and to whom partial payments were returned);
Muhammad v. National City Mortgage, Inc., No.
2:07-0423 (S.D. W.Va. Dec. 19, 2008) (same).
Moreover, the Vanderbilt court itself approved a
uniform penalty of $2,250 for each of the ten offensive
phone calls at issue in that matter. It did not require
an individualized analysis of the harm resulting from
each of the discrete calls, because it flatly rejected an
effort to import the “reasonable relationship” analysis
from punitive damages cases to civil penalties.
Vanderbilt Mortg. & Fin., Inc. v. Cole, 230 W.Va.
505, 512, 740 S.E.2d 562, 569 (2013). Relying upon
Vanderbilt, this Court has already found that any
statutory penalty need not bear a reasonable
relationship to the actual harm. [Doc. 277, at 5].
Courts frequently make the same class-wide
penalty determinations in FDCPA cases, where
statutory damages in class actions are awarded “as

191a
the court may allow” but not to exceed $500,000, or 1
per centum of the debt collector’s net worth under 15
U.S.C. § 1692k(a)(2)(B). See Miller v. McCalla,
Raymer, Padrick, Cobb, Nichols & Clark, LLC,
198 F.R.D. 503, 507 (N.D. Ill. 2001) (certifying FDCPA
class, entering summary judgment on liability, and
awarding the maximum allowable statutory damages
to the class because defendant’s “noncompliance here
involved thousands of individual violations over
several years: it was frequent and persistent. The
nature of the noncompliance was blatant.”);
Weissman v. Gutworth, 2015 WL 3384592 (D. N.J.
May 26, 2015) (approving settlement fund in FDCPA
case awarding pro rata share to each class member);
Harlan v. Transworld Sys., Inc., 302 F.R.D. 319
(E.D. Pa. 2014) (same); Stinson v. Delta Mgmt.
Assocs., Inc., 302 F.R.D. 160 (S.D. Ohio 2014) (same);
Garland v. Cohen & Krassner, 2011 WL 6010211,
at *8 (E.D. N.Y. Nov. 29, 2011) (same); Bonett v.
Educ. Debt Servs., Inc., 2003 WL 2165827 (E.D. Pa.
May 9, 2003) (same). See also Kemply v. Cashcall,
Inc., 2016 WL 1055251, at *16 (N.D. Cal. Mar. 16,
2016) (finding members of certified class entitled to
statutory penalty of $500,000 under Electronic Funds
Transfer Act, 15 U.S.C. § 1693k(1) because
defendant’s “noncompliance with the statute was
frequent and persistent.”). See also Singleton v.
Domino’s Pizza, LLC, 976 F.Supp.2d 665 (D. Md.
2013) (Chasanow, J.) (approving class action
settlement agreement in FCRA case involving pro
rata distribution of settlement fund).
Finally, Quicken attempts to use the overwhelming
evidence of notice regarding the culpability of its
conduct to contend that, because it arguably had less

192a
notice earlier in the class period, class members whose
loans were closed earlier should be entitled to a
smaller penalty and that this determination affects
predominance. This argument rests on no legal
support, and plaintiffs again note that this type of
argument would effectively preclude any class action
where a defendant naturally became more aware of a
problem as time went on. As a practical matter,
Quicken never changed its conduct during the class
period.
The argument also ignores the Court’s findings that
indications in law and industry that passing on
estimated values was wrong go back more than 20
years, long before the start of the class period in 2004,
beginning with the FHC appraisal standards of 1996.
[Doc. 227 at 13]. Quicken has still has not come
forward with any authority demonstrating this
practice ever served a bona fide purpose in the
industry. The best it can do is cite two sources –
Advisory Opinion 19 of USPAP issued in 1999
(discussed by this Court in its Order Resolving all
Motions [Doc. 227 at 14]) and the Ameriquest
enforcement action by the states attorney generals
both acknowledging the substantial problems with
this practice and suggesting, at a minimum, a
disclaimer, which Quicken never gave, is needed to
lessen the potential for corruption. This Court finds
that the defendants were unaware of the Ameriquest
consent decree until long after the critical period of
this action.
The oft cited finding from Brown that “[n]o
legitimate purpose is served by providing an
appraiser with an estimated value of a property. The

193a
only purpose could be to inflate the true value of the
property” may have been made in 2010, but it applied
to a 2006 loan. The Brown court made that finding
after listening to six days of trial testimony, including
Quicken’s executives and its loan level personnel.
This Court has reviewed even more testimony and
made a similar finding for loans issued from 2004
through 2009.
The fact that enforcement and
regulatory efforts continued throughout the class
period is a distinction without a difference.
Quicken’s final argument is that equitable tolling
cannot be resolved on a class-wide basis. To the extent
that the burden has shifted to any class members to
demonstrate that their claims were equitably tolled,
this Court “can easily determine whether the
discovery rule applies class-wide to toll class
members’ claims” and that “defendant’s statute of
limitations argument presents no barrier to
certification.” [Doc. 227 at 51-52], citing In re
Community Bank of N. Va. Mortg. Lending Prac.
Litig., 795 F.3d 380 (3d Cir. 2015) (common issues
predominated over individual issues as to whether
applicable statutes of limitation on class members’
claims were equitably tolled due to concealment); In
re Urethane Antitrust Litig., 251 F.R.D. 629 (D.
Kan. 2008); Hamilton v. Pilgrim’s Pride Corp., 314
F.Supp.2d 630 (N.D. W.Va. 2004); Cohen v. Trump,
303 F.R.D. 376 (S.D. Cal. 2014); Kennedy v. United
Healthcare of Ohio, Inc., 206 F.R.D. 191 (S.D. Ohio
2002). This authority is consistent with the Fourth
Circuit’s decision in Thorn v. Jefferson-Pilot Life
Ins. Co., 445 F.3d 311 (4th Cir. 2006), holding that a
statute of limitations defense may be resolved on a
class-wide basis by looking to the record when the

194a
“defense is so dependent upon facts applicable to the
entire class ... that individual hearings would not be
necessary.” 445 F.3d at 327; see also Minter v. Wells
Fargo, 279 F.R.D. 320 (D. Md. 2012); Fangman v.
Genuine Title, 2016 WL 6600509, at *7 (D. Md. Nov.
8, 2016) (Bennett, J.); Baker v. Castle & Cooke
Homes Hawaii, 2014 WL 1669158, at *14 (D. Haw.
2014); Thurman v. CUNA, 836 N.W.2d 611, 621 (So.
Dak. 2013); In re U.S. Foodservice Inc. Pricing
Litig., 2011 WL 6013551, at *17 (D. Conn. 2011); In
re NASDAQ Market-Makers Antitrust Lit., 169
F.R.D. 493, 520 (S.D. N.Y. 1996).
Quicken is incorrect when it suggests that the Third
Circuit’s decision in Cunningham v. M&T Bank
Corp., 814 F.3d 156 (3d Cir. 2016) or the Fourth
Circuit’s decision in EQT Prod. Co. v. Adair, 764
F.3d 347 (4th Cir. 2014) foreclose the potential to
resolve equitable tolling on a class-wide basis.
Cunningham was not a class certification decision
but a summary judgment opinion wherein the court
affirmed the district court’s decision that a disclosure
form received, signed and dated by each plaintiff had
made them aware of their claims. It sheds no light
whatsoever on the equitable tolling analysis as to
class claims. The Adair court found that the district
court had misapplied the doctrine of fraudulent
concealment by wholly ignoring the plaintiff’s
knowledge and actions. 764 F.3d at 370. It cited
Thorn for the proposition that this inquiry can
require individual evidence; it is only fair to refer to
Thorn for its holding that in cases like this one, where
the statute of limitation defense relies on common
facts applicable to the entire class, certification is
appropriate.

195a
Here, those common facts applicable to the entire
class are that Quicken affirmatively kept its conduct
hidden from class members, [Doc. 227 at 15-16], and
that there is not a single shred of evidence in the
record of any class member having actual knowledge
about Quicken’s practice of tipping off appraisers.
VI.

Defendant’s (sic) Motion for Summary
Judgment on Certain Class Loans [Doc.
298-3]

Defendants have also filed Defendant’s (sic) Motion
for Summary Judgment on Certain Class Loans [Doc.
298-3]. In that Motion, defendants move for summary
judgment as to (1) all Class Loans where a borrower
filed for bankruptcy and failed to disclose his or her
West Virginia Consumer Credit and Protection Act
(“WVCCPA”) and breach of contract causes of action
against Defendants in bankruptcy; (2) the WVCCPA
claims on all Class Loans that were paid off or became
fully due prior to December 27, 2010; and (3) the
WVCCPA claims on all Class Loans obtained by a
borrower who is deceased.
The defendants argue that those class members who
filed bankruptcy and did not disclose their claims (of
which they had no knowledge) in their bankruptcy
cases must be dismissed.
The Third Circuit has rejected the argument that
class members in bankruptcy must demonstrate
standing, finding it “unpersuasive.” In re Comm.
Bank, 795 F.3d at 397.
The court explained,
consistent with Fourth Circuit precedent, that “only
named plaintiffs, and not unnamed class members,

196a
need to establish standing.” Id.
Further, in
Community Bank, the plaintiffs had “identified a
reliable, repeatable process whereby members of the
putative class may be identified: consult CBNV’s
business records and then follow a few steps to
determine whether the borrower is the real party in
interest.” Id.
The bankruptcy issue is not a unique one in class
actions, and it does not defeat class certification. See
Wilborn v. Dun & Bradstreet Corp., 180 F.R.D.
347, 356 (N.D. Ill. 1998) (certifying class over
objection that some class members’ claims may have
become part of a bankruptcy estate, noting that the
issue does not preclude predominance because
“determining whether they have exempted their
claims against defendant should be a relatively
straightforward matter); Jordan v. Paul Fin., 285
F.R.D. 435, 464 (N.D. Cal. 2012) (same). As in
Community Bank, a process has been identified here
to determine the group of class members who filed for
bankruptcy, in that Quicken has in fact already done
so. The only issue that separates these class members
from those who did not file bankruptcy is distribution,
and the issue is not ripe. After the Court determines
the amount of statutory penalties; whether class
members are entitled to a refund of the appraisal fees;
and whether any class members are entitled to
recover actual damages, and after any appeals have
been exhausted, this issue can indeed be addressed in
a “straightforward” fashion.
Plaintiffs’ counsel
indicate that they are already in contact with the
Trustees regarding the most efficient and equitable
way of approaching distribution.

197a
Defendants also take the position that since the
class members who filed for bankruptcy and did not
list the claim in their petitions are estopped from
being members of the class, even though they were
unaware of their claim at the time their petitions were
filed.
There is no evidence that the debtor class members
knew of their claims when they filed for bankruptcy.
As discussed further below, Quicken itself concealed
the passing of the estimated values. Quicken has
provided no evidence that any class member was
aware of Quicken’s conduct or whether they had a
legal claim arising from it. In such circumstances,
courts refuse to apply judicial estoppel. See Skrzecz
v. Gibson Island Corp., 2014 WL 3400614, at *6 (D.
Md. July 11, 2014) (Bennett, J.) (debtor plaintiff was
not judicially estopped from asserting her civil claims
because the “[p]laintiff did not have sufficient
knowledge of a potential claim to deliberately omit it
from her petition” when the plaintiff’s “level of
knowledge as to her claim for unpaid wages [was] in
dispute”); Sibert v. Wells Fargo Bank, 2015 WL
3946698 (E.D. Va. June 26, 2015) (Hudson, J.)
(judicial estoppel not applicable when “[p]laintiff did
not intentionally mislead the bankruptcy court
regarding his claim” and plaintiff “testified that when
he filed for bankruptcy in 2011, he was unaware that
he had a potential cause of action”); Smith-Anthony
v. Buckingham Mortg. Corp., 2009 WL 2500445 (D.
Md. Aug. 13, 2009) (Quarles, J.) (refusing to dismiss
case on judicial estoppel grounds when there was no
evidence of intent in not including claims in
bankruptcy petition). Defendants’ argument that

198a
judicial estoppel may
unsupported by the facts.

apply

here

is

wholly

If these class members are found to be entitled to
receive a distribution and do not opt out of the class,
they can petition to reopen their bankruptcy cases and
allow the trustee and the Bankruptcy Court to
determine the distribution of the proceeds.
Quicken next argues that summary judgment
should be entered as to a second category of class
members, those whose loans were paid off or
otherwise became fully due on or before December 27,
2010, one year before the lawsuit was filed. The
statute of limitations is an affirmative defense which
defendants bear the burden of demonstrating.
Columbia Venture, LLC v. Dewberry & Davis,
LLC, 604 F.3d 824, 829 (4th Cir. 2010). Quicken has
not met its burden here. Instead of showing that
particular class members’ claims were time-barred,
Quicken relies on pure conjecture, stating that “at
least some” of the loans were time-barred but that it
is “expensive and time-consuming for defendants to
search the state and local government land records to
determine if a Class Loan was paid off.” [Doc. 298-4
14]. Such arguments are insufficient to shift the
burden to plaintiffs.
The burden only shifts “once the defendant shows
that the plaintiff has not filed his or her complaint
within the applicable statute of limitations.” Smith v.
Velotta, 2016 WL 597743, at *3 (W.Va. Feb. 12,
2016). This Court has already stated that: “If the
defendant can bring evidence that the class member
had actual knowledge that the defendant sent an

199a
estimate of value to the appraiser and that no
payments were made within one year before June 15,
2012, I’ll boot them. In the absence of that evidence,
it’s not an issue.” [Doc. 277 at 7].
This Court has already found that TSI’s third-party
software, Appraisal Port, “is designed to ensure that
information exchanged between TSI and the
appraiser is not accessible to any third party,
including the lender.” [Doc. 227 at 23]. The record also
demonstrates that TSI discarded old appraisal order
forms. [Doc. 199-3, Ex. L, Petkovski Dep. at 59:1860:8]. This finding was confirmed at the recent
evidentiary hearing through Amy Bishop’s testimony:
Q. And they did not -- and Quicken Loans, as part
of its practice, did not keep appraisal order forms
in its loan files?
A. In the paper loan files?
Q. In any. In the paper, electronic, anywhere.
A. That is my understanding.
Q. Right. And TSI didn’t even keep the appraisal
order forms, did they?
A. That is also my understanding.
[Doc. 336 at 76:10-17].
Ms. Bishop further testified that Quicken did not
believe it was obligated to disclose to borrowers that
estimated values were being shared with appraisers.
[Id. at 29:15-19]. In fact, Ms. Bishop testified that this
was not even “material” information that “should
have been disclosed to a borrower” and is not

200a
something borrowers require as part and parcel of
being what Quicken terms “very informed of the
process.” [Id. at 29:24:30:10]. There is no genuine
dispute that Quicken concealed this practice from its
customers and did so with knowledge that passing
estimated values to an appraiser had been balked at
by regulators and other authorities since at least
1996. [Doc. 227 at 13-14 (“Efforts to regulate this
practice go back more than 20 years.”)]. See also
United States v. Quicken, 2017 WL 930039, at **78 (E.D. Mich. Mar. 9, 2017) (finding that lenders were
on notice in 1996 that “[p]roviding to the appraiser an
anticipated, estimated, encouraged or desired value
for a subject property or a proposed or target amount
to be loaned to the borrower …” was prohibited by
FHA regulations).
In addition, this Court has already recognized
Quicken’s admission that each borrower “has an
expectation of a fair, unbiased, and reasonable
[appraisal].” [Doc. 227 at 25, citing Doc. 206-1, Exh. B,
Randall Dep. at 99:18-100:5]. This expectation would
certainly also encompass an expectation that the
appraisal was not based on the unconscionable and
hidden practice of passing on estimated values.
In sum, the defendants have not identified a single
shred of evidence in the record of any class member
having actual knowledge about Quicken’s practice of
tipping off appraisers. Instead, incredibly, Quicken
speculates that class members should have known of
their claims by reviewing case law, government
investigations, or news sources about appraisal fraud
generally. [Doc. 298-4 at 16-18]. Rather, it is clear
that the only evidence relating to notice to class

201a
members of their potential claims is the fact,
applicable to the entire class, that Quicken
affirmatively kept its conduct hidden from class
members. Indeed, this Court has already found that
Quicken “fail[ed] to disclose this conduct [to]
plaintiffs.” [Doc. 227 at 15-16]. Quicken’s contention
that class members’ theoretical knowledge of their
claims is “inherently individualized and fact
dependent” is thus unavailing, and further is wholly
unsupported by case law in the class action arena.
This Court has already specifically rejected this
“individualized” argument when it found last year
that “this Court can easily determine whether the
discovery rule applies class-wide to toll class
members’ claims” and that “defendant’s statute of
limitations argument presents no barrier to
certification.” [Doc. 227 at 51-52], citing Community
Bank, supra (common issues predominated over
individual issues as to whether applicable statutes of
limitation on class members’ claims were equitably
tolled due to concealment); In re Urethane
Antitrust Litig., 251 F.R.D. 629 (D. Kan. 2008)
(predominance and superiority requirements met
when fraudulent concealment susceptible to common
proof on a class-wide basis); Hamilton v. Pilgrim’s
Pride Corp., 314 F.Supp.2d 630 (N.D. W.Va. 2004)
(under West Virginia law, the discovery rule tolls the
statute of limitation until a claimant knows or by
reasonable diligence should know that he has been
injured and who is responsible); Cohen v. Trump,
303 F.R.D. 376 (S.D. Cal. 2014) (granting class
certification of fraud claims over defendant’s
arguments that individualized determinations on
statute of limitations would be necessary); Kennedy

202a
v. United Healthcare of Ohio, Inc., 206 F.R.D. 191
(S.D. Ohio 2002) (certifying class when discovery of
claim “may be amenable to a common proffer”).
Consistent with the authority already cited by this
Court above, Fourth Circuit law holds that a statute
of limitations defense may be resolved on a class-wide
basis by looking to the record when the “defense is so
dependent upon facts applicable to the entire class …
that individual hearings would not be necessary.”
Thorn v. Jefferson-Pilot Life Ins. Co., 445 F.3d
311, 327 (4th Cir. 2006). The Thorn court
contemplated situations where a statute of limitations
defense could be resolved on a class-wide basis,
including: (1) where defendant relied on mailings that
it sent to all of its insureds on a particular date to
argue that the class received notice outside of the
applicable statute of limitations period; and (2) where
the class demonstrated that the statute of limitations
defense was “so patently without merit that the
district court could find that the defense was not even
a real ‘issue’ in the case.” Id. at 327 n. 19. This case
falls squarely within the type of example (1), as there
is common, class-wide evidence of concealment in
Quicken’s failure to maintain the appraisal forms or
disclose its conduct to borrowers.
Like the Thorn court and the other authority
already recognized by this Court, courts confronting
the statute of limitation and equitable tolling issues
in class cases where there is common, class-wide
evidence find that this issue may be resolved in one
fell swoop as to the entire class. For example, in
Minter v. Wells Fargo, 279 F.R.D. 320 (D. Md. 2012),
a case alleging that defendant lenders had developed

203a
a front organization (“Prosperity”) to circumvent
lending regulations, the court certified a class created
specifically for the purpose of equitably tolling the
statute of limitations. In doing so, it recognized that
the tolling analysis could be completed on a class-wide
basis because all class members “rely on the same
course of conduct perpetrated by Defendant when
arguing the elements of equitable tolling, specifically
that this conduct (1) concealed their claims and (2)
lulled them into believing in the legitimacy of
Prosperity without provoking them to make any
inquiry into potential claims.” Id. at 325-26. In
finding commonality and predominance met, the court
recognized that the “test for equitable tolling relies on
Prosperity’s uniform and consistent course of conduct,
so there is no need to inquire into transaction-specific
details.” Id. at 327. The court rejected defendants’
argument that each borrower’s level of due diligence
must be examined, because “due diligence is
evaluated using an objective standard” and the court
had already “determined that all borrowers went
through generally the same uniform and consistent
process when transacting with Prosperity.” Id.
Other courts are in accord with the Minter decision
in recognizing the susceptibility of the equitable
tolling issue to class-wide proof. See Fangman v.
Genuine Title, 2016 WL 6600509, at *7 (D. Md. Nov.
8, 2016) (Bennett, J.) (certifying class upon finding
that the “named Plaintiffs have provided sufficient
evidence that their individual claims are entitled to
equitable tolling to proceed as representatives of the
proposed class” and “issues surrounding equitable
tolling in this case are susceptible to class-wide proof
because the Plaintiffs have demonstrated that it was

204a
West Town’s ‘pattern of practice’ to not disclose the
alleged kickback scheme on any class members’ HUD1 form and it was a pattern among West Town agents
to receive kickbacks in the manner discussed above”);
Baker v. Castle & Cooke Homes Hawaii, 2014 WL
1669158, at *14 (D. Haw. 2014) (“When there is no
reason to suspect that potential class members have
or will discover product defects at significantly
different times, the presence of a statute of limitations
provision, by itself, is insufficient reason to compel all
potential class members to pursue their claims
individually”); Thurman v. CUNA, 836 N.W.2d 611,
621 (So. Dak. 2013) (“constructive notice of claims
accrual can be determined on a class-wide basis
because the test to determine constructive notice is
objective, applying a reasonable person standard.…
All of the borrowers and insureds in this case went
through roughly the same process to obtain their
loans and credit disability insurance.
Because
BHFCU used a uniform process to sell credit disability
insurance, changed the policy at the same time, sent
out its newsletter to all of the borrowers, and sent
statements to all borrowers, the claims regarding
constructive notice may be decided by a jury applying
the objective test to the circumstances in this case”);
In re U.S. Foodservice Inc. Pricing Litig., 2011
WL 6013551, at *17 (D. Conn. 2011) (“plaintiffs have
produced common evidence showing that USF
intended to conceal the VASPs and, therefore, it
cannot reasonably be expected that the plaintiffs
could have discovered the injury until they became
more fully aware of VASPs existence and purpose.
Therefore, common issues regarding fraudulent
concealment exist and the statute of limitations does

205a
not bar certification of the RICO class”); In re
NASDAQ Market-Makers Antitrust Lit., 169
F.R.D. 493, 520 (S.D. N.Y. 1996) (finding defendant’s
misrepresentations to the market, which were
relevant to fraudulent concealment analysis, to be
susceptible to common proof).
VII.

Plaintiffs’ Motion for Summary
Judgment on Class-wide Contract
Damages [293-1]

In Plaintiffs’ Motion for Summary Judgment on
Class-wide Contract Damages [293-1], the plaintiffs
seek class-wide damages for breach of contract in the
form of disgorgement of the amounts paid by the class
members for their tainted appraisals.
Quicken argues that it is entitled to a jury trial
addressing the amount of damages recoverable as a
result of its breach of contract. However, in their
complaint plaintiffs specifically demanded a
disgorgement and restitution of all illegal fees
associated with their loans [Doc. 1-1]. It is well settled
that equitable relief is appropriate in breach of
contract cases in West Virginia. See, e.g., Parker v.
Sayre, 2013 WL 6153063 (W.Va. Nov. 22, 2013)
(affirming summary judgment on breach of contract
claim in which court had ordered equitable remedy of
specific performance). In this particular case, the
plaintiffs are seeking the disgorgement of fees that
were illegally collected as part of the appraisal
process.
The law in West Virginia, and elsewhere, clearly
provides that an order requiring the return of any

206a
illegal or ill-gotten gains is restitution, which is an
equitable remedy. See, e.g., Prudential Ins. Co. of
America v. Couch, 180 W.Va. 210, 376 S.E.2d 104,
108 (1988) (restitution is available whenever “the
party who received the money has no basis for
retaining it ... [and] has received money ... to which he
was not entitled.”); see also Gerald M. Moore & Son,
Inc. v. Drewry & Assocs. Inc., 945 F.Supp. 117, 120
(E.D. Va. 1996), citing Arkadelphia Milling Co. v.
St. Louis Southwester Ry. Co., 249 U.S. 134 (1919).
Because Plaintiffs are seeking disgorgement of the
appraisal fees, they are seeking a remedy akin to
equitable restitution.
See Sivolella v. AXA
Equitable Funds Mgmt., LLC, 2013 WL 4096239, at
**5-6 (D. N.J. July 3, 2013) (finding that because
plaintiffs were seeking disgorgement of the fees they
were charged, they were not seeking “some funds” ...
“but rather the funds allegedly charged and retained
by Defendants, and therefore, “Plaintiffs’ claim is for
equitable restitution and, as a result, not triable to a
jury”), citing Nat’l Sec. Sys., Inc. v. Iola, 700 F.3d
65, 101 (3d Cir. 2012) (“it is undisputed that
restitution of ill-gotten commissions is an equitable
remedy.”); Hanwha Azdel, Inc. v. C & D Zodiac,
Inc., 2013 WL 3989147, at *2 (W.D. Va. Aug. 2, 2013)
(a claim for disgorgement of specific profits and to
prevent unjust enrichment constitutes equitable
restitution and would be a remedy imposed “if at all,
by the court and no[t] by the jury.”).
There is no right to a jury trial in equity. Equitable
issues are, instead, addressed solely to the court.
Barton v. Constellium Rolled ProductsRavenswood, LLC, 2014 WL 3696646 (S.D. W.Va.
July 23, 2014) (Goodwin, J.) (“if an action will resolve

207a
‘legal rights,’ the courts must provide a trial by jury;
however, if an action involves only equitable rights, a
jury trial is not required”). The amount of damages is
a simple, straightforward calculation. The appraisals
were rendered worthless by Quicken’s breach and,
thus, plaintiffs are entitled to a restitution of the full
amount of the appraisal fees. Indeed, independence is
of foremost importance in the appraisal process. See
15 U.S.C. § 1639e (2010). Once an appraisal is tainted
by the implication of influence over the appraiser
especially by the party compensating the appraiser,
the resulting appraisal cannot by any established
standard be fair, valid and reasonable.
Here,
Plaintiffs failed to receive the benefit of their
bargain—a fair, valid and reasonable appraisal. This
Court will enter judgment accordingly requiring
restitution of the appraisal fees in the amount of
$968,702.95. [See Doc. 293-9].
This Court may award summary judgment as to
these damages. Summary judgment is appropriate
where there are no disputed issues of fact and the
moving party is entitled to judgment as a matter of
law. Celotex Corp. v. Catrett, 477 U.S. 317 (1986).
This same principle applies to damages: whenever the
moving party has demonstrated that damages are
undisputed and in an amount that does not require
the jury or the court to resolve conflicting facts,
summary judgment is proper. See Applied Capital,
Inc. v. Gibson, 558 F.Supp.2d 1189, 1208 (D. N.M.
2007) (in a fraud case, summary judgment was
appropriate where “the defrauded amount [was] a
sum certain”); Branch Banking & Trust Co. v.
Tractor Co., Inc., 2016 WL 3676744 at *5 (S.D.
W.Va. July 7, 2016) (Berger, J.) (finding no genuine

208a
issue of material fact regarding amount of damages
awardable for breach of contract, over defendant’s
objection that a dispute of fact existed); Mountain 1st
Bank & Trust v. Holtzman, 2012 WL 3126833, at
*3 (D. S.C. 2012) (finding no genuine issue of material
fact regarding amount of damages plaintiff suffered as
a result of defendant’s breach and awarding sum
certain); Pin State Creamery Co. v. Land-O-Sun
Dairies, Inc., 1998 WL 34304526, at *2 (E.D. N.C.
Aug. 25, 1998) (Boyle, J.) (“summary judgment is
appropriate if the Court may determine [plaintiff’s]
damages as a matter of law”). See also Reedy River
Ventures
Ltd.
P’ship
v.
Synoptics
Communications, Inc., 38 F.3d 1213 (4th Cir. 1994)
(affirming district court’s award of summary
judgment on amount of damages in conversion
action).
With respect to the breach of contract claim, this
Court made specific findings establishing a
contractual duty, a breach of said duty, and causation
resulting in the consumer receiving something less
and different than what was bargained for.
Specifically, the Court deemed each appraisal to be
unfair, invalid and unreasonable on account of
Quicken engaging in a scheme to circumvent
established standards of appraiser independence
[Doc. 227 at 25]. In such circumstances, the only way
a consumer can be made whole is to throw out the
contaminated appraisal and refund the cost or obtain
another appraisal on the consumer’s behalf. Of
course, a second appraisal is not free and will have a
similar cost, if not more due to the passage of time, to
the original appraisal.

209a
Quicken’s liability for breaching its contract has
already been established. The amount of the fees
collected by Quicken as a result of its breach is a sum
certain that is readily calculable from the undisputed
facts in the record. The parties have agreed the
amount is $968,702.95.
VIII. Order Awarding Statutory Damages
Based upon the evidence presented, both that in the
record and that presented at the evidentiary hearing
requested by the defendants, this Court must now
determine the amount of the statutory penalty to be
awarded the class members under the West Virginia
Consumer Credit and Protection Act.
Plaintiffs bear the burden of proving damages, and
must do so by a preponderance of the evidence. See
Syl. Pt. 4, Taylor v. Elkins Home Show, Inc., 210
W.Va. 612, 614, 558 S.E.2d 611, 613 (2001); Dickens
v. Sahley Realty Co., Inc., 233 W.Va. 150, 154 n. 14,
756 S.E.2d 484, 488 n.14 (2014). As in other statutory
penalty cases (e.g., False Claims Act), plaintiffs must
prove that any penalty higher than the minimum is
warranted. Cf. United States ex rel. Maxwell v.
Kerr-McGee Oil & Gas Corp., 2010 WL 3730894, at
*6 (D. Colo. Sept. 16, 2010) (“[T]he evidence of
misconduct by the Defendant was far from
‘overwhelming.’ … [T]he Court finds no particular
reason to assess anything more than the minimum
statutory penalty”).
“The determination of the statutory penalties under
the Consumer Protection Act does involve evidence of
intent, knowledge and harm.” Chan Decl. Ex. 15, at

210a
4:23-25; see Clements v. HSBC Auto Fin., Inc., 2011
WL 2976558, at *7 (S.D. W.Va. July 21, 2011) (Berger,
J.) (“The amount of a penalty should have a direct
relationship to the egregiousness of the violation.”);
Kidd v. I.C. Sys., Inc., 2014 WL 847692, at *6 (W.Va.
Cir. Ct. Jan. 30, 2014) (lower penalty for telephone
calls that were placed, but not heard or received by
plaintiffs); Endicott v. Hager, 2000 WL 35542409, at
*2 (W.Va. Cir. Ct. Aug. 25, 2000) (lower penalty range
because plaintiffs were not “unduly harmed” by
defendant’s conduct).
Courts have imposed higher penalties where the
plaintiffs have proven that the defendants knew their
conduct violated the law, but nevertheless proceeded
in complete disregard of their legal obligations. See
Vanderbilt Mortg. & Fin., Inc., 2011 WL 9697521,
at *3 (W.Va. Cir. Ct. Aug. 15, 2011) (“Vanderbilt I”)
(maximum penalty based on “complete disregard” for
statutory rights, where attitude conveyed “disrespect,
saying ‘We know what the law is in the State of West
Virginia, but we do not have to follow it’”); Figgatt v.
Green Tree Servicing, LLC, 2012 WL 8895246, at
*3 (W.Va. Cir. Ct. Aug. 23, 2012) (maximum penalty
where “[d]efendant was clearly aware of the
prohibition”); Dijkstra v. Carenbauer, 2014 WL
12594132, at *2 (N.D. W.Va. July 16, 2014) (awarding
mid-range penalty where “defendant continued to
engage in this practice” after decision prohibiting the
practice).
The defendants claim to have carefully researched
the law of West Virginia to be certain that the state
law did not prohibit the transmission of an estimated
value to an appraiser. The defendants note that

211a
“unlike other states, West Virginia never adopted a
specific law prohibiting the transmittal of values to
appraisers.” [Doc. 295-2, p. 9]. Defendants further
indicate that had West Virginia adopted a specific
prohibition against such conduct, the defendants
would have stopped.
The fallacy with this argument is that the
defendants confuse unlawful with unconscionable.
The fact that an activity is not specifically outlawed
does not prevent the activity from being
unconscionable.
There was simply too much opinion and information
condemning the practice of telegraphing a value to an
appraiser for the defendants to hide behind “It’s not
illegal.”
While Quicken has attempted to minimize or
explain away the many sources this Court relied on in
issuing its summary judgment rulings, Quicken has
to this day never offered any legal or industry source
that would indicate suggesting values to appraisers
was considered a best or even valid lending practice.
The best Quicken can do is show that some other
predatory lenders did the same.
As early as 1996, the Federal Housing
Commissioner issued appraisal standards to be
followed in all HUD-approved mortgage transactions.
Under these standards, the appraiser was required to
certify that the appraisal was not “based on a
requested minimum valuation, [or] a specific
valuation or range of values.” [Doc. 173-22, Mortgagee
Letter 96-26, authored by Nicholas P. Retsinas,

212a
Assistant Secretary for Housing, on behalf of the
Federal Housing Commissioner (May 21, 1996)]. The
District Court for the Eastern District of Michigan
recently relied on this letter as constituting notice and
warning to mortgagees in 1996 regarding federal
condemnation of the practice sufficient to withstand a
motion to dismiss. United States v. Quicken, 2017
WL 930039, at **7-8. The court noted that the
Government took the position that:
Although the appraiser was the individual
required to make the statement in the
certification, this letter was sent to ‘all approved
mortgagees.’
Thus, those mortgagees who
received the letter were clearly aware, and
sufficiently warned, that an appraisal could not be
based on a requested or specific valuation.
Furthermore, the Mortgagee Letter 2009-28
not only provides that ‘new requirements set forth
in this mortgagee letter will be effective for all
case numbers assigned on or after January 1,
2010,’ but that “existing requirements will remain
in effect.” Mortgagee Letter 2009-28 at 1. In the
portion
entitled
“Affirming
Existing
Requirements,” the letter expressly states:
FHA is reaffirming these requirements.
Mortgagees and third parties working on
behalf of mortgagees are prohibited from:
***
Providing to the appraiser an anticipated,
estimated, encouraged or desired value
for a subject property or a proposed or
target amount to be loaned to the

213a
borrower, except that a copy of the sales
contract for purchase must be provided.
Id. at 3. This language clearly contradicts
Quicken’s contention that this letter prohibited
value appeals for the first time in 2009 with an
effective date of 2010.
2017 WL 930039 at **7-8 (emphasis added).
Three years later, in 1999, the Comptroller of the
Currency concluded that providing an “owner’s
estimate of value,” “[a]t a minimum, … suggests to the
appraiser the value conclusion that is needed to
complete the transaction.” [Doc. 173-23, Ltr. from
OCC to K. Kaiser, Chairman of The Appraisal
Standards Board (July 28, 1999)]
Then in 2005 all the major federal agencies with
lending oversight, including the Comptroller of the
Currency, Board of Governors of the Federal Reserve
System, Federal Deposit Insurance Corporation,
Office of Thrift Supervision, and National Credit
Union Administration, expressly addressed the issue
in an “Interagency Statement,” advising in pertinent
part: “the information provided [to the appraiser]
should not unduly influence the appraiser or in any
way suggest the property’s value.” Frequently Asked
Questions on the Appraisal Regulations and the
Interagency Statement on Independent Appraisal and
Evaluation Functions, March 22, 2005. Available at
http://www.occ.gov/newsissuances/
bulletins/2005/bulletin-2005-6a.pdf.
Because of subsequent litigation by the New York
Attorney General, the industry later adopted the

214a
Home Valuation Code of Conduct, which prohibited
lenders and their appraisal management companies
from “providing to an appraiser an anticipated,
estimated, encouraged, or desired value for a subject
property or a proposed or target amount to be loaned
to the borrower.” (The Home Valuation Code of
Conduct
(HVCC)
is
available
at
www.freddiemac.com/.../docs/030308valuationcodeofc
onduct.pdf. HVCC is the result of a joint agreement
between Fannie Mae, Freddie Mac, Federal Housing
Finance Agency, and New York state attorney general
Andrew Cuomo, to improve the quality and
independence of the appraisal process. Fannie Mae
and Freddie Mac dictated that all major lenders and
appraisal management companies must comply with
HVCC.
HVVC was released for comment in March 2008 and
became effective in May 2009. Quicken continued its
practice of sending estimated values to an appraiser
through the comment period, after passage and until
just before the effective date.
In 2007, an online petition signed by 11,000
appraisers from across the country was submitted to
Congress and the Appraisal Subcommittee of the
Federal Financial Institutions Examination Council,
copying “[o]ther state or federal agencies with
authority in the ... matter.” 7 In the petition, the
signing appraisers acknowledge and condemn the fact
The petition appears at the following website:
http://appraiserspetition.com., and is discussed in the Southern
District of New York’s opinion in Nomura, infra, 104 F.Supp.3d
at 461.
7

215a
that lenders regularly “apply pressure on appraisers
to hit or exceed a predetermined value.” The signing
appraisers agreed that the practice produced “adverse
effects on our local and national economies.” There
was, they warned, “the potential for great financial
loss.”
In a national survey of appraisers conducted in late
2006, 90% of the participating appraisers indicated
that they felt some level of “uncomfortable pressure”
to adjust property valuations. This was an increase of
35% from a survey conducted three years earlier.
Nomura, 104 F.Supp.3d at 461. 8
At the state level, West Virginia was also deterring
these practices and protecting consumers. At least
one West Virginia court specifically found the practice
of providing an estimated value to an appraiser to be
unlawful and indefensible. In Brown v. Quicken
Loans Inc., Civ. No. 08-C-36, Ohio County, W. Va.,
the Honorable Judge Arthur Recht found “[n]o
legitimate purpose is served by providing an
appraiser with an estimated value of a property. The
only purpose could be to inflate the true value of the
The 2007 National Appraisal Survey was composed of 33
questions presented to “a representative group of the nation’s
leading real estate appraisers.” It was intended to give a
comprehensive understanding of the real estate appraisal
business in the second half of 2006 through 2007.
Its
predecessor, conducted in 2003, “shocked the industry when 55%
of appraisers surveyed indicated that they felt uncomfortable
pressure to overstate property values in greater than half of their
appraisals.” The component of the survey conducted in the last
half of 2006 represented responses from 1,200 appraisers, and
showed “an alarming increase” in the extent of pressure felt by
real estate appraisers. Id. at fn. 12.
8

216a
property.” [Doc. 173-24, at ¶ 50]. This finding
supported several liability findings against Quicken,
which (to the extent appealed) were affirmed by the
West Virginia Supreme Court of Appeals (“WVSCA”)
in Quicken I.
Prior to Quicken I, the WVSCA condemned this very
practice in Herrod v. First Republic Mortgage
Corp., 218 W.Va. 611, 617-618, 625 S.E.2d 373, 379380 (2005) by reversing a trial court’s grant of
summary judgment to a mortgage lender where the
evidence demonstrated that its appraiser was
influenced via an appraisal request form with target
numbers, resulting in a consumer taking out an
underwater loan. See also Fed. Housing Fin.
Agency v. Nomura Holding Am. Inc., 104
F.Supp.3d 441, 461 (S.D. N.Y. 2015) (discussing the
problem with lenders providing a target number to
the appraiser in connection with the loan and
acknowledging that “[a]ppraisers may inflate their
appraisals because of pressure from loan officers.”)
West Virginia’s sister state of Ohio was also at the
forefront. Ohio courts uniformly concluded that the
act of providing the borrower’s estimated value for a
property in connection with a mortgage loan is
unconscionable because it is an attempt to improperly
influence the appraiser’s independent judgment. See,
e.g., State ex rel. Dann v. Premiere Service
Mortgage Corp., Case No. CV-2007-06-2173 (Butler
Cty. Apr. 30, 2008); State ex rel. Rogers v. Ace
Mortgage Funding, LLC, Case No. A0705054
(Hamilton Cty. Sept. 23, 2008); State ex rel. Cordray
v. First Ohio Banc & Lending, Inc., Case No. 07CV-259 (Belmont Cty. Nov. 24, 2009); State ex rel.

217a
Cordray v. Apex Mortgage Services, LLC, Case No.
07-CV-261 (Belmont Cty. Mar. 10, 2009) [collectively
found as Doc. 212-3, Exh. 16]. Ohio has expressly
defined unconscionable acts in connection with
residential mortgages to include any attempt to
corrupt or improperly influence the independent
judgment of an appraiser. O.R.C. § 1345.031 (10).
This statute was amplified by Ohio Administrative
Code 109:4-3-24, which as of January 7, 2007 deems
“[i]n the case of any refinance loan ..., [the act of
including] on the appraisal order form ... either the
loan amount or any other express or implied
statement of the anticipated or desired appraisal
valuation of the dwelling subject to the appraisal” to
be an unconscionable practice.
By Order entered June 2, 2016, this Court found
that Quicken’s uniform practice of providing
estimated home values to appraisers constituted
unconscionable conduct under the West Virginia
Consumer Credit and Protection Act (“WVCCPA”).
The Court found that Quicken did so while failing to
disclose the practice to plaintiffs. [Doc. 227 at 19].
The Court recognized that, by “concealing these facts,
Quicken meant to ‘deceive or trick’ the plaintiffs” as
understood by the Fourth Circuit in McFarland v.
Wells Fargo Bank, 810 F.3d 273 (4th Cir. 2016).
Moreover, the Court found “ample evidence in the
record that passing on an estimated value is an
unconscionable practice that was part of the
inducement for plaintiffs’ loans.” This Court rejected
defendants’ argument that appraisals are obtained for
the benefit of the lender, not the borrower [Doc. 227 at
22], explaining that Quicken itself represents to
borrowers that “[t]he appraisal will protect you from

218a
owing more on your loan than your home is worth,
which is known as being underwater.”
The Court also made findings as to intent: “To
repeat, Quicken had full knowledge of its practice of
providing estimated values to its appraisers for
purposes of influencing their appraisals. Quicken’s
Rule 30(b) witness and internal documents confirm
beyond any doubt that estimated values were used by
Quicken as a means of communicating targets to its
appraisers. Quicken knew these facts. The plaintiffs
did not. Under the analytical framework of both
McFarland
and
Brown,
this
constituted
unconscionable inducement.” [Doc. 227 at 20-21]. The
Court went on to find that:
“A borrower’s estimated value is not materially or
logically distinguishable from a ‘target appraisal
value’ or ‘predetermined value.’” [Doc. 27 at 11].
“No matter who supplied the estimated value, this
Court cannot imagine any logical basis for sending
an estimated value to the appraiser other than to
influence his or her opinion.” [Id.].
“Quicken influenced the appraisers to meet a
passed on value, and it did so while failing to
disclose the practice to plaintiffs.” [Id. at 19].
“As it did in the Brown case, Quicken possessed
knowledge of the true facts of the Aligs’ loan,
namely that it was actively attempting to
compromise the appraisal process. Specifically,
pressure was being brought to bear on the
appraiser, who was expected to meet or exceed a
target figure that Quicken itself had provided not

219a
once but twice (in the case of the Aligs).” [Id. at
20].
This Court has already made findings regarding the
borrower’s right to a fair and unbiased appraisal, and
the fact that no genuine purpose is served by
providing the estimated value to the appraiser. It
recognized that, “Quicken has admitted that the
borrower has an expectation of a fair, unbiased, and
reasonable [appraisal]. [Doc. 227 at 25].
In addition, this Court in its Order denying
Quicken’s motion to dismiss:
What is clear is that the plaintiffs each deposited
a sum of money with Quicken, and, in turn,
Quicken agreed to obtain an appraisal of the
property and process the loan application. This
Court finds that it was a necessary corollary of
obtaining an appraisal that the defendant would
obtain a fair, valid and reasonable appraisal of the
property.
[Doc. 107 at 7].
The testimony in this case was consistent with
Judge Recht’s conclusion that there is no legitimate
purpose to passing on an estimated value. As this
Court found, “the testifying appraisers distanced
themselves from [estimated value] figures as taboo
and all agreed that this information is in no way
necessary to performing an appraisal.” [Doc. 227 at
15].
The Court further observed that Quicken
executive and corporate designee Michael Lyon
agreed in deposition testimony offered in July of 2008
in the Brown litigation that estimated values were in

220a
no way necessary to complete the appraisal process.
[Id.].
As the Court noted, this case was “not the first time
it had an opportunity to study appraisal influence.”
[Id. at 33]. In Diloreti v. Countrywide Home
Loans, Inc., the Court “recognized the plausible
inference created when a bank provides appraisers
with suggested or estimated values of homes”:
Taken as true, these allegations create an
inference that [lenders’] practice of providing
estimated values of homes was for the purpose of
influencing
the
appraiser’s
independent
judgment.
It certainly is plausible that an
appraiser would seek to meet a client’s suggested
outcome in order to receive future business from
the client.
[Id. citing Doc. 169-12, Diloreti v. Countrywide
Home Loans, Inc., No. 5:14-cv-76 (N.D. W.Va. Nov.
14, 2014), Order Granting Bank Defendants’ Motion
in Part and Denying in Part and Denying Funari’s
Motion for Judgment on the Pleadings, at 7.)
This Court is not alone among West Virginia district
or state courts in recognizing Quicken’s rampant
problem with appraisal valuation, which was
happening via a number of mechanisms, and in
recognizing the importance of a fair and unbiased
appraisal. Other federal district courts in West
Virginia have acknowledged the severity of Quicken’s
appraisal-related conduct by denying summary
judgment to Quicken on its appraisal practices. For
example, in Bishop v. Quicken Loans, Inc., 2011
WL 1321360, at *6 (S.D. W.Va. 2011), Judge

221a
Copenhaver found that the plaintiffs had raised a
question of fact as to whether their mortgage “was the
product of an inflated appraisal” after Quicken issued
a loan based on an appraisal that came in 36% higher
than another recent appraisal. The Bishop court
further noted that “Quicken Loans’ reliance on the
2006 appraisals is even more suspect in light of the
sister-corporation
relationship
between
[the
appraiser’s] employer (TSI) and Quicken Loans.” Id.
See also O’Brien v. Quicken Loans, Inc., 2013 WL
2319248, at *6 (S.D. W.Va. May 28, 2013)
(Copenhaver, J.) (denying motion to dismiss
unconscionability claim when plaintiff “alleged that
inflated appraisals led him unwittingly to take out
loans in excess of the value of his home and rendered
him unable to refinance or sell his home.) As the
O’Brien court recognized, Quicken’s conduct with
respect to inflated appraisals “implicate[s] the
onesidedness and public policy concerns that are the
subject of substantive unconscionability.” Id.
Judge Kaufman’s order in Nicewarner v. Quicken
Loans Inc. (Cir. Ct. Kanawha Cty. W.Va. Jan. 13,
2016), provides another condemnation of Quicken’s
appraisal practices. As in this case, when ordering an
appraisal
for
Ms.
Nicewarner,
Quicken
“communicated a target value for the home to the
appraiser.” (Order at 2). In denying Quicken’s motion
for summary judgment on Ms. Nicewarner’s claim for
fraud, the court found that plaintiff had presented
evidence of each element of the tort, in that:
Defendant represented to Plaintiff- including by
placing the appraisals at issue in her closing
packages – that in 2007 her home had a value of

222a
$141,000, and that in 2008 and 2009, her home
had a value of $125,000.
Defendant was
responsible for reviewing the appraisal and
ensuring that it met all applicable standards;
however it was clear that the appraisal did not
meet said standards.… Plaintiff has further
presented evidence, through her retrospective
appraisals, that the misrepresentations were
false. Plaintiff further testified that she relied on
Defendant’s representation as to value, and would
not have entered the loans but for Defendant’s
representations. The appraisal itself notes that
the borrower may rely on it, and such reliance is
reasonable.
[Doc. 293-3 at 11-12].
Similarly, in Robinson v. Quicken Loans Inc.,
988 F.Supp.2d 615 (S.D. W.Va. 2013), Chief Judge
Chambers found that a factual issue precluded
summary judgment on plaintiff’s fraud claim
stemming from Quicken’s misrepresentation of the
value of the borrower’s home. In Robinson, the
plaintiff alleged that Quicken had misrepresented her
home’s value as $84,350 when in fact its value was
only $33,500. 988 F.Supp.2d at 633.
Quicken’s highest level executives knew that it was
passing on estimated values to appraisers, in
accordance with Quicken’s policies and procedures.
[Doc. 293-7, Hughes Dep. at 69:5-70:1, explaining that
Quicken corporate officer and designee Michael Lee
Lyon told her to include estimated values in order
forms while working at Quicken Loans before joining
TSI in July 2007]. In addition, Jennifer Randall

223a
stated in this case that Quicken was aware that
estimated values were being provided to appraisers by
TSI on order forms. [Doc. 212-2, Exh. 12]. Quicken’s
true motive in sending estimated values to appraisers
was confirmed by Mr. Lyon, who during the Brown v.
Quicken trial (discussed infra) conceded that the
practice was meant to “give an appraiser an ability to
see what they are going to potentially look at the
property at.” [Doc. 173-5, Lyon Trial Testimony Vol. 5
(Oct. 9, 2009) at 69-70].
Similarly, TSI executive and chief appraiser Jordan
Petkovski acknowledged the practice but could not
provide a reasonable basis for it in his June 2014
testimony – “I wouldn’t be able to say it does or does
not assist [an appraiser].” [Doc. 212-5, Petkovski Dep.
at 120:7-17 & 120:24-121:6) (from Cline v. Quicken
Loans Inc., Marshall County Civil Action No. 11-C38].
A more revealing picture of Quicken’s motives is
provided by e-mails written by Quicken’s executives
that were uncovered by the Department of Justice in
a recent investigation of Quicken, one of which stated:
“I don’t think the media and any other mortgage
company (FNMA, FHA, FMLC) would like the fact we
have a team who is responsible to push back on
appraisers questioning their appraised values.” [Doc.
173-10, Exh. I, Email from C. Bonkowski to H. Lovier,
cc: M. Lyon (Dec. 13, 2007)]. The e-mail goes on to
confirm that Quicken was well aware of the
crackdown on appraisal influence in the state of Ohio
in 2007 and its management predicted the same
would spread to other states. In another e-mail
uncovered by the Department of Justice, senior

224a
management at Quicken acknowledged in November
of 2007 that its sister company, TSI, was receiving “a
lot of calls from appraisers stating that they can’t
reach our requested value.” Senior management’s
directive was to simply ask the appraisers “for the
max increase available.” [Doc. 206-J, Exh. J, Email
from D. Thomas to E. Czyzak, et. al., cc: D. Wright
(Nov. 27, 2007)].
Lenders who violate the WVCCPA’s prohibitions on
the “collection of excess charges ... illegal, fraudulent
or unconscionable conduct, [or] any prohibited debt
collection practice,” are subject to statutory penalties
and actual damages. W. Va. Code § 46A-5-101(1); see
also Syl. Pt. 2, Vanderbilt Mortg. & Fin., Inc. v.
Cole, 230 W.Va. 505, 740 S.E.2d 562 (W. Va. 2013)
(“Under W. Va. Code § 46A-5-101 (1) (1996), an award
of civil penalties is not conditioned on an award of
actual damages.”). Each violation of the CCPA creates
a single cause for recovery of a single penalty under §
46A-5-101. Stover v. Fingerhut Direct Mktg., 2010
WL 1050426, *8 (S.D. W.Va. Mar. 17, 2010).
For violations that occurred before 2015, which
covers all of the class members’ appraisals, the Court
has discretion to award penalties in an amount “not
less than one hundred dollars or more than one
thousand dollars.” W. Va. Code § 46A-5-101 (1). A civil
penalty imposed by the court may be adjusted for
inflation since September 1, 1974, in an amount equal
to the consumer price index. § 46A-5-106; Mallory v.
Mortgage Am., Inc., 67 F.Supp.2d 601, 609, n.5 (S.D.
W.Va. 1999) (Copenhaver, J.). The penalty of $100 in
1974 adjusted for inflation to 2017 dollars is $494.12,
and for $1000 is $4941.24. See Bureau of Labor

225a
Statistics
CPI
Inflation
Calculator
at
http://www.bls.gov/data/inflation_calculator.htm (last
visited March 28, 2017). Imposition of the maximum
penalty for each class member loan does not violate
the due process and excessive fines clauses of the West
Virginia and United States Constitution, absent an
abuse of discretion by the court awarding the penalty.
Vanderbilt, 230 W.Va. at 514, 740 S.E.2d at 571.
The WVCCPA does not provide specific instructions
as to the variables to consider in assessing the penalty
amount, but guidance may be found in case law
interpretation of the WVCCPA as well as in the
language of the federal corollary statute, the FDCPA,
and in cases interpreting it.
In Dijkstra, 2014 WL 12594132 (N.D. W.Va. July
16, 2014), this Court found that lender’s disregard for
prudent lending practices deprived class members of
the opportunity to ask questions or clarify issues at
closing. This court was unpersuaded by any argument
that in some particular cases a class member may not
have had questions or required the assistance of an
attorney at closing; it was the fact that “LendingTree’s
use of a notary foreclosed the opportunity to ask
questions about the documents or the terms of the
loan for these class members, matters which have the
potential to affect that is likely the largest investment
of their lives,” id., that constituted the CCPA violation
and gave rise to the $2000 per violation penalty. The
lender’s conduct in Dijkstra, while wrong, was less
egregious than Quicken’s conduct here, which
deprived class members of a fair and valid appraisal
in every single loan. Quicken’s conduct has corrupted
the appraisal process, which rests as the foundation of

226a
any valid loan. No class member had the opportunity
to obtain a meaningful and fair appraisal when the
underwriting process had these polluted the
appraisals. An unreliable appraisal can result in
severe financial harm to borrowers stuck with the
prospect of paying off loans on Quicken’s terms or
losing their homes. And as in Dijkstra, it makes no
difference that in some particular instances a class
member may not have suffered actual damages. [Doc.
227 at 24].
Other WVCCPA cases are also instructive. In
Vanderbilt, the Supreme Court upheld the circuit
court’s award of statutory penalties under § 46A-5101(1) after a jury found defendant liable for several
CCPA violations arising from numerous unlawful
debt collection practices, including refusing to provide
account records and placing numerous unsolicited
calls to plaintiff’s mother and third parties. 230 W.Va.
at 509, 740 S.E.2d at 566. Although the jury did not
find that the plaintiff had suffered any actual
damages, the circuit court awarded: (i) the maximum
civil penalty of $4,583.45 for defendant’s failure to
provide a statement of account upon written request,
conduct the court considered “reprehensib[le]”; (ii) ten
mid-range civil penalties at $2,250.00 each for the
placement of repeated and unsolicited calls to
plaintiff’s mother and third parties despite specific
requests to cease; (iii) one civil penalty of $458.34 for
the use of language intended to unreasonably abuse
the hearer; and (iv) an additional maximum civil
penalty of $4,583.45 for unreasonable publication of
indebtedness to a third party. Id.

227a
On appeal, the Court found that the statutory
penalty award need not be preconditioned on an
award of actual damages, and that no constitutional
limitation on the awardable amount of penalties
within the limits of § 46A-5-101(1) applied, ultimately
concluding that the total award of civil penalties of
$32,125.24 was not an abuse of discretion. 230 W.Va.
at 514, 740 S.E.2d at 571. See also Clements v. HSBC
Auto Finance, Inc., 2011 WL 2976558, at *7 (S.D.
W.Va. July 21, 2011) (“The amount of a penalty should
have a direct relationship to the egregiousness of the
violation”).
The Vanderbilt Court looked to Fair Debt
Collection Practices Act (FDCPA) to assist it in
analyzing due process concerns relative to the
WVCCPA penalties. The Supreme Court of Appeals
recognizes the FDCPA as the “federal equivalent to
the WVCCPA, and like the WVCCPA, it also allows
consumers to seek actual damages and civil penalties
from creditors.” Vanderbilt, 230 W. Va. at 511, 740
S.E.2d at 568.
Under that statute, the court may award up to
$1,000 in statutory damages per plaintiff and, as
under the WVCCPA, the specific amount of statutory
damages falls within the court’s discretion. Savino v.
Computer Credit, Inc., 164 F.3d 81, 86 (2d Cir.
1998). The statute itself states that, in determining
liability in a class action, the court shall consider,
among other relevant factors, “the frequency and
persistence of noncompliance by the debt collector, the
nature of such noncompliance, the resources of the
debt collector, the number of persons adversely
affected, and the extent to which the debt collector’s

228a
noncompliance
was
intentional.”
15
U.S.C.
§ 1692k(b)(2); see also Jerman v. Carlisle,
McNellie, Rini, Kramer & Ulrich LPA, 559 U.S.
573, 578 (2010) (the court must consider the
provisions of § 1692k(b) in awarding statutory
damages). Therefore, awards of the statutory
maximum are “typically granted in cases where the
defendants’ violations are particularly egregious or
intimidating.” Fuentes v. Audubon Fin. Bureau,
LLC, 2013 WL 4780119, at *2 (W.D .N.Y. Sept. 5,
2013). A high award is also appropriate if plaintiffs
show that the conduct was “repeated and persistent”.
Manopla v. Bryant, Hodge & Assocs., LLC, 2014
WL 793555, at *6 (D. N.J. Feb. 26, 2014), citing
Edwards v. Niagara Credit Solutions, Inc., 586
F.Supp.2d 1346, 1354 (N.D. Ga. 2008) (granting $1000
statutory damages where violation was repeated and
there was evidence of a policy and practice of
violation). See also, Hutchens v. West Asset
Management, 2013 WL 1337178, at *3 (S.D. W.Va.
Mar. 29, 2013) (Faber, J.) (awarding plaintiffs the
maximum penalty of $1000 for only two calls).
The defendants seek to minimize their liability by
arguing (1) that what they were doing was not
specifically prohibited by West Virginia law; (2) that
the Ameriquest consent decree shows that what they
were doing was permissible; and (3) the appraisal
results dispel the notion that the appraisers were
affected by their actions.
This Court has already addressed the issue of
illegality vs. unconscionability. With respect to the
Ameriquest action, Quicken states – for the very first
time in this litigation or any other of which the

229a
undersigned are aware – that it believed its behavior
acceptable because of a settlement agreement entered
into between another mortgagor, Ameriquest, and
certain states represented by their respective State
Attorneys General. The agreement supported a
Permanent Injunction and Final Judgment in State
of W. Va. ex rel. McGraw v. Ameriquest Mortg.
Co., No. 06-C-519 (W. Va. Cir. Ct., Kanawha Cnty.,
March 23, 2006). But Quicken has no evidence that it
was even aware of this Judgment in a case where it
was not a party. If they were aware, one would think
that they would have mentioned it before in the
almost five years before now. Amy Bishop was the
only attorney doing compliance work for Quicken
during the 2004-2009 time frame, and she was
entirely unaware of this Ameriquest defense as
recently as a few weeks ago when she was asked
whether Ameriquest engaged in the passing on of
estimated values to appraisers; Ms. Bishop testified
that she “wouldn’t know what Ameriquest did.” [Doc.
316-3, Bishop Dep. at 14:2-11; 101:18-102:22].
The 44 page agreement was negotiated by a steering
committee, not the attorneys general, and covered a
myriad of lending practices under scrutiny after
complaints and investigations. The terms of the
settlement agreement themselves require any
estimated value to be “accompanied by a statement it
is being provided solely to assist the appraiser in
determining the relative complexity of the Appraisal
and that it is not a target or expected value.” [Doc.
295-14 at 26]. Quicken therefore would have been
noncompliant even with this separate negotiated
agreement. Beyond the disclaimer, Ameriquest was
required to make extensive changes going forward in

230a
virtually all aspects of lending. In addition, the
Judgment itself disclaimed that it had any bearing on
the conduct of others, in that it stated it “may only be
enforced by the parties” and did not confer rights to
third party beneficiaries. [Doc. 295-14 at 40]. The
Judgment also stated that West Virginia consumer
law – which would of course include the
unconscionability statute that this Court found
Quicken violated – governed over any terms of the
Judgment where … greater consumer protections” are
provided. Id. at 39. The only takeaway from the
Ameriquest settlement for any prudent West Virginia
lender (were it paying any attention at all to this
deal), should have been that the passing on of
estimated values could cause them to be sued for
violating the law.
Finally, the defendants argue that more than 30%
of the loans had an appraisal value that deviated from
the borrowers estimated value by more than 10%,
which they claim would tend to show that the
transmission of estimated values had no effect on the
appraisers. This argument overlooks the fact that
hundreds of loans were second mortgage loans where
Quicken did not make the underlying loan. This
argument also overlooks the fact that in many
occasions the appraisers told the defendants that they
were unable to reach the level that Quicken wanted
and were told to provide “the max increase available.”
The average difference between the estimated value
and the appraisal value for all loans was within 5%.
Quicken ignored the overwhelming and uniform
guidance of the industry when it provided appraisers
with estimated home values. This conduct was truly

231a
egregious, in that it flew in the face of prudent lending
practices for the benefit of Quicken’s bottom line, and
at the expense of each borrower’s right to a fair and
unbiased appraisal. Quicken did so for years and in
conjunction with thousands of loans, and only stopped
when the HVCC went into effect and Fannie Mae and
Freddie Mac announced they would no longer buy
loans from those who continued with it the practice.
The nature of the conduct is deceit in the origination
of what is typically the most important loan in the
average consumers’ lifetime – their home mortgage.
This case does not involve mere phone calls or
technical violations of statute. Quicken’s conduct
jeopardizes the American dream of homeownership.
This conduct was frequent – it occurred on nearly
every refinancing loan and was repeated as necessary
with value appeals. Quicken was also persistent in
that it continued with this practice amongst ever
growing industry scrutiny by regulators, appraisers,
investors, consumer advocates and lawmakers. As
discussed above, this practice was fostered and
condoned by the highest levels of management and
motivated by greed.
Quicken’s enormous wealth further weighs in favor
of a higher penalty. In Dijkstra, this Court
recognized the reprehensibility of another lender’s
conduct when it failed to have attorneys present at
loan closings by imposing a $2000 per loan penalty; in
Vanderbilt, the Court affirmed the award of lowmid-max range penalties for each of the discrete debtcollection violations. In several FDCPA cases, courts
awarded the highest amount permitted to remedy
phone call violations. See, e.g., Hutchens, supra. By

232a
comparison, Quicken deprived borrowers of fair and
trustworthy appraisals during their loan application
process via a mechanism universally condemned. It
did so repeatedly and without remorse, despite all
indications that it would improperly influence
appraisers’ judgment. A substantial penalty will fulfill
the purpose of the CCPA, which is to “protect
consumers from unfair, illegal, and deceptive acts or
practices.” State ex rel. McGraw v. Scott Runyan
Pontiac-Buick, Inc., 194 W. Va. 770, 777, 461 S.E.2d
516, 523 (1995) (internal quotations omitted).
Based upon all the foregoing, this Court will impose
a statutory penalty of $ 3,500.00 per violation on the
defendants, jointly and severally, with prejudgment
interest from and after June 15, 2012.
It is so ORDERED.
The Clerk is directed to transmit copies of this
Order to counsel of record.
DATED: July 11, 2017.
[signature]
JOHN PRESTON BAILEY
UNITED STATES DISTRICT JUDGE

233a
APPENDIX D
FILED: April 20, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1059
(5:12-cv-00114-JPB-JPM)
(5:12-cv-00115-JPB)
PHILLIP ALIG; SARA J. ALIG; ROXANNE SHEA;
DANIEL V. SHEA, Individually and on behalf of a
class of persons
Plaintiffs - Appellees
v.
QUICKEN LOANS INC.; AMROCK INC., f/k/a Title
Source, Inc., d/b/a Title Source Inc. of West Virginia,
Incorporated
Defendants - Appellants
and
DEWEY V. GUIDA; APPRAISALS UNLIMITED,
INC.; RICHARD HYETT
Defendants
-------------------------------

234a
THE CHAMBER OF COMMERCE OF THE
UNITED STATES OF AMERICA
Amicus Supporting Appellant

ORDER
The Court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35.
Entered at the direction of the panel: Judge
Niemeyer, Judge Wynn, and Judge Floyd.
For the Court
/s/ Patricia S. Connor, Clerk

235a
APPENDIX E
FILED: May 10, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1059
(5:12-cv-00114-JPB-JPM)
(5:12-cv-00115-JPB)
PHILLIP ALIG; SARA J. ALIG; ROXANNE SHEA;
DANIEL V. SHEA, Individually and on behalf of a
class of persons
Plaintiffs - Appellees
v.
QUICKEN LOANS INC.; AMROCK INC., f/k/a Title
Source, Inc., d/b/a Title Source Inc. of West Virginia,
Incorporated
Defendants - Appellants
and
DEWEY V. GUIDA; APPRAISALS UNLIMITED,
INC.; RICHARD HYETT
Defendants
-------------------------------

236a
THE CHAMBER OF COMMERCE OF THE UNITED
STATES OF AMERICA
Amicus Supporting Appellant

ORDER
Upon consideration of submissions relative to
appellants’ motion to stay the mandate pending the
filing and disposition of their petition for certiorari to
the Supreme Court, the court grants the motion.
For the Court
/s/ Patricia S. Connor, Clerk

237a
APPENDIX F
1. Article III, § 2 of the U.S. Constitution provides in
pertinent part:
The judicial power shall extend to all Cases, in Law
and Equity, arising under this Constitution, the Laws
of the United States, and Treaties made, or which
shall be made, under their Authority;—to all Cases
affecting Ambassadors, other public Ministers and
Consuls;—to all Cases of admiralty and maritime
Jurisdiction;—to Controversies to which the United
States shall be a Party;—to controversies between two
or more States;—between a State and Citizens of
another State;—between Citizens of different
States,—between Citizens of the same state claiming
Lands under Grants of different States, and between
a State, or the Citizens thereof, and foreign States,
Citizens or Subjects.
*

*

*

*

2. 28 U.S.C. § 2072 provides:
Rules of procedure and evidence; power to
prescribe
(a) The Supreme Court shall have the power to
prescribe general rules of practice and procedure and
rules of evidence for cases in the United States district
courts (including proceedings before magistrate
judges thereof) and courts of appeals.
(b) Such rules shall not abridge, enlarge or modify
any substantive right. All laws in conflict with such

238a
rules shall be of no further force or effect after such
rules have taken effect.
(c) Such rules may define when a ruling of a district
court is final for the purposes of appeal under section
1291 of this title.
3. Rule 23 of the Federal Rules of Civil Procedure
provides in pertinent part:
Class Actions
(a) PREREQUISITES. One or more members of a class
may sue or be sued as representative parties on behalf of all members only if:
(1) the class is so numerous that joinder of all
members is impracticable;
(2) there are questions of law or fact common to
the class;
(3) the claims or defenses of the representative
parties are typical of the claims or defenses of the
class; and
(4) the representative parties will fairly and
adequately protect the interests of the class.
(b) TYPES OF CLASS ACTIONS. A class action may be
maintained if Rule 23(a) is satisfied and if:
*

*

*

*

(3) the court finds that the questions of law or
fact common to class members predominate over

239a
any questions affecting only individual members,
and that a class action is superior to other
available methods for fairly and efficiently
adjudicating the controversy.
4. Rule 82 of the Federal Rules of Civil Procedure
provides:
Jurisdiction and Venue Unaffected.
These rules do not extend or limit the jurisdiction
of the district courts or the venue of actions in those
courts. An admiralty or maritime claim under Rule
9(h) is governed by 28 U.S.C. § 1390.
5. West Virginia Code § 46A-2-121 (1996) provided in
relevant part:
Unconscionability; inducement by unconscionable conduct.
(a) With respect to a transaction which is or gives rise
to a ... consumer loan, if the court as a matter of law
finds:
(1) The agreement or transaction to have been
unconscionable at the time it was made, or to have
been induced by unconscionable conduct, the court
may refuse to enforce the agreement....

240a
6. West Virginia Code § 46A-5-101 (1996) provided in
pertinent part:
Effect of violations
limitation of actions.

on

rights

of

parties;

(1) If a creditor has violated the provisions of this
chapter applying to ... unconscionable conduct, ... the
consumer has a cause of action to recover actual
damages and in addition a right in an action to recover
from the person violating this chapter a penalty in an
amount determined by the court ....

